<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                 DEPARTMENT OF THE INTERIOR AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2001

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS
                             SECOND SESSION

                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES
                      RALPH REGULA, Ohio, Chairman
 JIM KOLBE, Arizona                  NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               JOHN P. MURTHA, Pennsylvania
 CHARLES H. TAYLOR, North Carolina   JAMES P. MORAN, Virginia
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 ZACH WAMP, Tennessee                MAURICE D. HINCHEY, New York   
 JACK KINGSTON, Georgia
 JOHN E. PETERSON, Pennsylvania     
                       
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher 
                                 Topik,
                            Staff Assistants

                                ________

                                 PART 5
                                                                   Page
 Public Witnesses for Natural Resource, Energy and Other Programs.    1
 Additional Written Testimony--Natural Resource Programs..........  343
 Additional Written Testimony--Energy Programs....................  505
 Additional Written Testimony--Arts and Other Programs............  597

                              <snowflake>


                                ________

         Printed for the use of the Committee on Appropriations

                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 63-833                     WASHINGTON : 2000




                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 JOHN EDWARD PORTER, Illinois        NORMAN D. DICKS, Washington
 HAROLD ROGERS, Kentucky             MARTIN OLAV SABO, Minnesota
 JOE SKEEN, New Mexico               JULIAN C. DIXON, California
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 RON PACKARD, California             NANCY PELOSI, California
 SONNY CALLAHAN, Alabama             PETER J. VISCLOSKY, Indiana
 JAMES T. WALSH, New York            NITA M. LOWEY, New York
 CHARLES H. TAYLOR, North Carolina   JOSE E. SERRANO, New York
 DAVID L. HOBSON, Ohio               ROSA L. DeLAURO, Connecticut
 ERNEST J. ISTOOK, Jr., Oklahoma     JAMES P. MORAN, Virginia
 HENRY BONILLA, Texas                JOHN W. OLVER, Massachusetts
 JOE KNOLLENBERG, Michigan           ED PASTOR, Arizona
 DAN MILLER, Florida                 CARRIE P. MEEK, Florida
 JAY DICKEY, Arkansas                DAVID E. PRICE, North Carolina
 JACK KINGSTON, Georgia              MICHAEL P. FORBES, New York
 RODNEY P. FRELINGHUYSEN, New Jersey CHET EDWARDS, Texas
 ROGER F. WICKER, Mississippi        ROBERT E. ``BUD'' CRAMER, Jr., 
 GEORGE R. NETHERCUTT, Jr.,          Alabama
Washington                           MAURICE D. HINCHEY, New York
 RANDY ``DUKE'' CUNNINGHAM,          LUCILLE ROYBAL-ALLARD, California
California                           SAM FARR, California
 TODD TIAHRT, Kansas                 JESSE L. JACKSON, Jr., Illinois
 ZACH WAMP, Tennessee                CAROLYN C. KILPATRICK, Michigan
 TOM LATHAM, Iowa                    ALLEN BOYD, Florida                
 ANNE M. NORTHUP, Kentucky
 ROBERT B. ADERHOLT, Alabama
 JO ANN EMERSON, Missouri
 JOHN E. SUNUNU, New Hampshire
 KAY GRANGER, Texas
 JOHN E. PETERSON, Pennsylvania
 VIRGIL H. GOODE, Jr., Virginia     
                   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 2001

                              ----------                              


         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              

                                           Thursday, April 6, 2000.

                 DOE: INDUSTRIES OF THE FUTURE PROGRAM

                                WITNESS

VIC MILLER, NATIONAL CORN GROWERS ASSOCIATION
    Mr. Regula. I call the Interior subcommittee to order. We 
have a lot of people to hear from today, so we need to move 
along.
    As you know, you each have five minutes, and we are going 
to have to tightly adhere to our schedule, otherwise we will 
run out of time.
    We are happy to welcome you, Mr. Miller. Your full 
statement will be made a part of the record. And for others 
testifying today, your statements will be made part of the 
record, so if you will summarize it will be helpful. Go ahead.
    Mr. Miller. Mr. Chairman and members of the subcommittee, I 
am Vic Miller. I am a corn farmer from Oelwein, Iowa. I am here 
representing the National Corn Growers Association, and I serve 
on the Customer and Business Development Action Team of that 
association, and I will summarize my statement.
    We would strongly urge you to support a minimum of $13 
million in funding for the agricultural vision, which you know 
is the Plant and Crop-Based Renewable Resources Vision 2020 
Program, which is funded under the Department of Energy. We 
want to thank you for your leadership and your support that you 
have given this program in the past.
    The agricultural vision is for plants instead of petroleum 
to provide 10 percent of the chemical building blocks market by 
2020, and 50 percent by the year 2050.
    If plants were the feed stock for this 10 percent market 
share today, we would see an increase in farm income of some $5 
billion, greenhouse gas emissions would be reduced. We would 
see increased recycling opportunities as well as biodegradable 
opportunities occurring. But most importantly, we would reduce 
our dependency upon foreign oil.
    With the recent escalation in fuel prices, you all know 
what has occurred with petroleum increasing. But we should view 
that as a wake up call for research, which is needed to provide 
a secure, long-term supply of durable, high-quality, renewable 
resource products. Now is the time for that significant 
research and development to begin.
    Current U.S. corn production could provide all of the 
carbon necessary for the current chemical industry in the 
United States. If we take historical price averages for corn 
and oil, we see that the cost of carbon from corn and the cost 
of carbon from oil are coming together very rapidly.
    The agricultural visions road map outlines focused research 
in four major areas, those being plant sciences, utilization, 
production, and processing. All of these areas need to develop 
simultaneously for us to achieve the maximum benefit from----
    Mr. Regula. What you are saying is that ethanol is not 
adequately researched? We are using it all the time.
    Mr. Miller. No, Congressman. We are looking at moving into 
more areas. Ethanol is only one small area of this focus. The 
technology road map covers a broad range, and we need to have 
the broad range focus rather than a narrow focus on only 
ethanol.
    You know, what we are looking at for modern science to 
develop these technologies, and for modern science to take this 
leapfrog approach, these projects must be large. They are going 
to be expensive. They must be multi-institutional involving 
both public and private sectors. We must have multi-disciplines 
involved here--biology, engineering, and chemistry.
    While the administration has requested $13 million for the 
agricultural vision, it proposes to take $5 million of that and 
focus it on the bioenergy initiative. We support the bioenergy 
initiative. However, we do not want to see funding for the 
agricultural vision reduced. We need the full $13 million in 
this case.
    Mr. Regula. You had $3 million this year.
    Mr. Miller. That is correct. And the administration has 
proposed to increase that to $8 million, and we applaud that 
effort. We have absolutely no complaint with that effort. 
However, we would like to call your attention to the fact that 
if we focus on bioenergy and biofuels, the agricultural vision, 
but $8 million pales in comparison to the $40 or $50 million 
that DOE is focusing on the bioenergy and the biofuels area.
    Our greatest opportunities in the next few years to reduce 
our dependency on foreign oil lie in the bioproducts area. And 
yet funding for the agricultural vision is substantially below 
the level needed for the multi-disciplinary approach that I had 
talked about earlier, which has clear linkages across all of 
the highest priorities in this road map.
    With $13 million devoted to research and development needs, 
we could achieve this priority scheduling. We would strongly 
urge you, therefore, to adopt a minimum of $13 million for the 
agricultural vision. This could go a long way in reducing our 
dependency on foreign oil.
    Mr. Regula. Well, we are going to be short of money, but we 
will see what we can do. The Chairman of the Agriculture 
Appropriations Committee is here, Mr. Skeen. [Laughter.]
    Mr. Skeen. I want us to get corn prices a little higher.
    Mr. Miller. That is our goal, sir.
    Mr. Skeen. We are shipping a lot of it to China, and I hope 
that we are getting every dime's worth.
    Mr. Miller. Well, I would hope that we would see that 
occur, too.
    Mr. Skeen. They are going through the Panama Canal with 
it--my good American corn----
    Mr. Miller. That is right.
    Mr. Skeen [continuing]. For about two or three years now it 
has not reflected itself in our markets.
    Mr. Miller. That is right. That is right. And this is a 
program that we feel that can expand that price of corn.
    And, Mr. Chairman, I would like to give you a copy of The 
World of Corn from the National Corn Growers Association.
    Mr. Regula. Okay. Thank you very much.
    Mr. Miller. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                    DOE: ENERGY EFFICIENCY PROGRAMS


                                WITNESS

HOWARD GELLER, EXECUTIVE DIRECTOR, AMERICAN COUNCIL FOR AN ENERGY-
    EFFICIENT ECONOMY
    Mr. Regula. American Council for an Energy-Efficient 
Economy. Mr. Geller.
    Mr. Geller. Thank you, Mr. Chairman.
    Mr. Regula. You know the rules.
    Mr. Geller. I know the rules. I have been here before.
    I am Howard Geller, the Executive Director of the American 
Council for an Energy-Efficient Economy. I want to talk very 
briefly about the multiple energy problems our nation is facing 
right now, and the importance of energy efficiency programs for 
addressing those problems.
    We all know about the oil price runup that we have 
experienced recently. It is costing our nation dearly. The 
additional dollars going to OPEC countries this year, relative 
to what they have been in recent years, is a total of about $50 
billion, or $500 per household. The OPEC tax on every American 
is averaging $500 a household right now.
    That is not the only energy problem. We have electric 
system reliability problems. We experienced brownouts in cities 
like New York and Chicago last summer due to very high levels 
of electricity demand during peak load periods, overstressing 
the electric grid.
    And, finally, there is a global environmental problem, 
mounting evidence of global warming, as a serious threat--a 
long-term threat to the world. Week after week there is growing 
evidence that this is a real problem, that the Greenhouse gases 
are the principal cause, and that is something we need to 
address, again, over the long term but a very real problem.
    Accelerating our energy efficiency efforts is a very 
important strategy for addressing all of these problems. If we 
accelerate our efforts to develop and promote high-efficiency 
vehicles and alternative fuels, we can cut our oil imports by 
around a million barrels per day by 2010 and two million 
barrels per day by 2020.
    Mr. Regula. Did you include natural gas?
    Mr. Geller. I would include natural gas. I said a 
combination of alternative fuels. Natural gas is one fuel. 
Ethanol is another fuel. I think we should be pursuing all of 
those options on both the supply side and the demand side. We 
cannot just do one and not the other. We need to work on both 
sides of the problem.
    And, of course, accelerating energy efficiency, we can cut 
the peak load during those hot afternoons in July and August 
through more efficient buildings, more efficient air 
conditioners, and hopefully avoid those very damaging brownouts 
that hurt industry, hurt households.
    We can reduce the Greenhouse gas emissions while saving 
consumers money. It just makes sense.
    Mr. Regula. Do you think the agency and DOE are doing a 
good job on energy efficiency?
    Mr. Geller. I think they are doing a very good job in a 
whole range of areas, from working on the new technologies, the 
vehicle technologies, the industries of the future, partnering 
with all of our major industries, working with the building 
sector. The deployment programs are very important, too.
    It is just that you cannot just bring the technology to the 
point where maybe it gets commercialized, but the private 
sector is uncertain about the market. You need to be out there 
educating consumers, providing information programs like the 
motor challenge program, energy star program. Efficiency 
standards, building codes are all a very important part of the 
overall mix.
    I urge you to do your best to try to fully fund the 
administration's request this year in energy efficiency. They 
have requested about a $105 million increase, about a 15 
percent increase. It is a modest request, and it is very 
important for----
    Mr. Regula. Do you think we ought to send money overseas, 
or should we keep that here? Considering, they have a 
substantial budget to do this kind of work in other countries.
    Mr. Geller. Yes. Thank you for mentioning that. That was 
the last point I wanted to turn to was this international clean 
energy initiative, which I want to point out is not just an 
energy efficiency initiative. I think there is more money in 
the fossil area than in the energy efficiency area. There is a 
total of $46 million for DOE across the board--nuclear 
renewables, fossil, and efficiency.
    That is a modest amount of money to work on very important 
cooperation with developing countries. It is in our interest. 
It will help our businesses export good American know-how and 
technology. It will help these countries to develop 
economically and socially. And it will help us to address these 
global environmental problems that we cannot address on our 
own, as well as the oil problem, which we cannot address on our 
own.
    You know, it is its growing demand worldwide that is giving 
OPEC the ability to jack up prices and sock it to American 
consumers. So I would urge you to support those programs, the 
international programs. We are a rich nation. We can find $46 
million in the DOE budget I think.
    Mr. Regula. Thank you.
    Mr. Skeen, do you have any questions?
    Mr. Skeen. Yes. We hope that it translates, too, to an 
increase to the producers, because I think we like to have the 
product, but we forget that farming is not a very lucrative 
business. But it----
    Mr. Geller. Right. Energy products on the farm, whether it 
is wind power or biofuels, there is tremendous opportunity 
there to supplement farmers' income with these new technologies 
in rural America.
    Mr. Skeen. And they can stay there and produce.
    Mr. Geller. Right.
    Mr. Regula. Good. Thank you very much.
    Mr. Geller. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

  DOE: METALS INITIATIVE/PARTNERSHIP FOR A NEW GENERATION OF VEHICLES


                               WITNESSES

BRIAN ATTWOOD, VP RESEARCH, LTV STEEL COMPANY, AMERICAN IRON AND STEEL 
    INSTITUTE
LAWRENCE W. KAVANAUGH, VP, MANUFACTURING AND TECHNOLOGY, AMERICAN IRON 
    AND STEEL INSTITUTE
    Mr. Regula. Next AISI. Are you speaking on behalf of Andrew 
Sharkey?
    Mr. Kavanagh. Yes.
    Mr. Regula. All right.
    Mr. Attwood. Good morning.
    Mr. Regula. Good morning.
    Mr. Attwood. I am Brian Attwood, Vice President of Research 
for LTV Steel Corporation, headquartered in Cleveland, and this 
is Larry Kavanagh with the AISI.
    Thank you for the opportunity to appear before you to 
deliver the support of the American Iron and Steel Institute 
for continued funding of collaborative research programs. The 
steel industry has long made collaborative research an integral 
part of its business strategies. Our long-standing relationship 
with DOE, and specifically the Office of Industrial Technology, 
is an excellent example.
    Evidence of the value of this research lies in the 1999 
commercial licensing of two technologies. Royalties from a 
novel galvanneal temperature measuring system generated the 
first ever repayment of DOE cost-sharing in an industrial 
program, which occurred in May 1999. The second technology--hot 
strip mill model--is presently being used at several North 
American steel plants. In the year 2000, we will continue to 
commercially license these APC technologies.
    With the significant advances in energy utilization 
occurring in steel making over the last 20 years, we are 
approaching the practical minimum for energy consumption during 
steel making.
    Now, in order to achieve substantial energy savings, we 
must focus our research efforts not on how steel is made but 
how it is used. An example would be reduced fuel consumption. A 
significant portion of future R&D will focus on optimizing the 
manufacturability of steel to make lower cost, more durable 
goods, while saving energy. And we ask that you encourage DOE/
OIT to support this important new focus area.
    AISI also feels longer term R&D needs to be capitalized, 
and we support the steel challenge initiative of the OIT budget 
which is designed to fund futuristic radical new methods of 
steel production with regards to the partnership for a new 
generation, vehicle PNGV, and the steel industry.
    There is a widely held but false belief that replacement of 
steel with aluminum reduces generation of Greenhouse gases. We 
draw your attention to a study by the Massachusetts Institute 
of Technology which shows that the Greenhouse gas emissions 
generated during the making of aluminum creates a huge CO2 debt 
as compared to steel. It is likely to take generations, if 
ever, for reduced gasoline consumption from aluminum cars to 
pay back this debt.
    During our recent presentation to the National Academy of 
Sciences peer group, we demonstrated the ability of steel to 
design a vehicle to meet the PNGV goals. That is being done in 
our ULSAB advanced vehicles concept program.
    As is clear from this and prior testimony, there have not 
been cooperative steel industry PNGV programs for automobiles. 
We have undertaken our own programs--ULSAB and ULSAB-AVC--to 
demonstrate steel's ability in lightweight cars.
    With respect to light trucks, we are planning to submit a 
proposal for a light truck design project to DOE/PNGV, as we 
attempt to work in partnership with government agencies on 
trucks. The program is estimated at $10 to $12 million over 
five years and will focus on materials, new design, and safety.
    We ask that you encourage DOE-OIT to support this steel-
related vehicle research. Thank you again, Mr. Chairman, for 
this opportunity to offer these comments.
    Mr. Regula. Are you having success on developing lighter 
steels?
    Mr. Kavanagh. The work has actually focused on both high 
strength steels, which means we can reduce gauge, as well as 
the holistic design of the vehicle. So we are really working 
very closely with the end user now in using these steels.
    Mr. Regula. The mission being to lighten the weight of the 
car.
    Mr. Kavanagh. The body and weight in particular, yes.
    Mr. Regula. Particularly with aluminum and fiberglass.
    Mr. Kavanagh. Exactly. Exactly. On an economical basis, 
too.
    Mr. Regula. Right.
    Mr. Kavanagh. In fact, we have shown we can reduce cost as 
well as weight in these vehicles. So it is kind of exciting.
    Mr. Skeen. Where is the technology being funded from?
    Mr. Attwood. Right now, it is coming from the steel 
industry.
    Mr. Skeen. The steel industry itself.
    Mr. Regula. A hundred percent.
    Mr. Kavanagh. Yes. In fact, it is international, too. There 
are 35 steel companies total involved in ULSAB, the ultra-light 
steel autobody initiative.
    Mr. Skeen. So you have an ongoing situation?
    Mr. Kavanagh. Yes.
    Mr. Skeen. Very good. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Mr. Attwood. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                DOE: FOSSIL ENERGY AND ENERGY EFFICIENCY


                                WITNESS

TOM LEUCHTENBURG, DIRECTOR, GOVERNMENT RELATIONS, GAS RESEARCH 
    INSTITUTE
    Mr. Regula. Okay. Mr. Leuchtenburg, the Gas Research 
Institute. Good morning.
    Mr. Leuchtenburg. Good morning, Mr.Chairman.
    Mr. Regula. Good morning.
    Mr. Leuchtenburg. Good morning. My name is not David Webb, 
I think as you know. My name is Tom Leuchtenburg. I am Director 
of Government Relations for Gas Research Institute. Mr. Webb 
sends his regrets. Today is the day of our annual meeting of 
the corporation, and its Board of Directors.
    Mr. Skeen. You do not want to miss that.
    Mr. Leuchtenburg. No. That is one of those must shows.
    Mr. Chairman, I very much appreciate the opportunity----
    Mr. Regula. Give us the highlights of your testimony.
    Mr. Leuchtenburg. I would like to approach it that way, Mr. 
Chairman. I do have a written statement for the record, but I 
will be brief. I would like to just very briefly summarize that 
and then concentrate on just one of the issues addressed.
    Mr. Regula. Okay.
    Mr. Leuchtenburg. First, we participate actively in the gas 
research RD&D initiative, gas industry RD&D initiative. This is 
a group of over 30 different kinds of gas companies, 
associations, institutes, that type of thing.
    In considering the needs of the industry, and also the 
recommendations for federal RD&D funding, we support that 
recommendation and you will hear a number of witnesses during 
this hearing address specific elements of that request. In 
general, there are a few specific additions requested. In 
general, it is highly supportive of the natural gas RD&D 
programs, as proposed by the administration.
    The area I would like to concentrate on is one that we have 
not discussed much in the past. This is the area of technology 
development for gas distribution and transmission companies. 
GRI is a membership organization, with 330 members, covering 
the span of the gas industry. Over the last 20 years, it has 
operated principally upon a Federal Energy Regulatory 
Commission surcharge on interstate gas----
    Mr. Regula. I see that.
    Mr. Leuchtenburg. This has allowed a lot of dispersed 
benefit, public benefit, R&D to be performed. In the past, in 
each instance when we have testified before a committee, or 
with the Department, we have always responded that there was no 
need for consideration of federal funding in these areas 
because there was a mechanism for funding available for the 
technologies--public benefit technologies of distribution and 
transmission companies.
    As a result of all of the changes in the natural gas 
industry--and GRI has changed like a lot of other 
organizations. The principal change is that as a result of a 
settlement agreement at the Federal Energy Regulatory 
Commission the mechanism used to fund the public benefit 
research is on a set schedule of decline, starting from our 
then-year budget of approximately $175 million, and going by 
the end of 2004 that mechanism will expire and there will be no 
additional funds from that mechanism collected for public 
benefits R&D.
    And so I think given the assurances that we have always 
given to you and to the Department, that there was a mechanism 
available for funding public benefit R&D in those areas. The 
first thing I want to do is just make clear that we are on a 
schedule.
    Mr. Regula. Why?
    Mr. Leuchtenburg. Why? I think in terms of the way the 
system worked, there was--the FERC process is based on an Order 
42566, that allows interstate pipelines--two unusual actions 
before the Commission. One, instead of filing individually, 
they are allowed to file through GRI collectively for approval 
of RD&D expenses. And the second, it is a mechanism for 
advanced approval, unlike the normal mechanism of spending the 
funds and then showing prudence, and so forth, based on the 
idea that RD&D inherently involves great risk, and so forth.
    The pipelines--as its high point, GRI collected 
approximately $220 million----
    Mr. Regula. That is gone now.
    Mr. Leuchtenburg [continuing]. Over time--that will be. It 
is in the process. Over time, the pipeline R&D portion, while 
all that was collected based on their sales was never more than 
$15-, $20 million kind of level, with all of the changes that 
came, they thought they were at a disadvantage and it was a 
long proceeding which ended in its termination.
    Mr. Regula. You would like to receive some federal money 
for the research part of it.
    Mr. Leuchtenburg. I think in terms of that portion that is 
related--that portion of needs that is related to the 
Department of Energy goals that you assigned to the Department, 
yes, sir, I think they should now be considered and evaluated 
and compared against other competing alternatives, and that 
there are real needs there. And I have outlined those in my 
testimony, and I appreciate the opportunity----
    Mr. Regula. Thank you very much.
    Mr. Leuchtenburg. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Thursday, April 6, 2000.

                DOE: ENERGY EFFICIENCY AND FOSSIL ENERGY


                                WITNESS

JENNIFER SCHAFER, PLUG POWER
    Mr. Regula. Jennifer Schafer, Plug Power? That is a unique 
title, Plug Power.
    Ms. Schafer. Plug Power, yes.
    Thanks for giving me the opportunity to speak with you 
today, Mr. Chairman, and Mr. Skeen. I am going to testify on 
behalf of Proton Exchange Membrane fuel cells, and I am the 
Director of Governmental Affairs for Plug Power, which is a 
leading U.S. developer of fuel cell technology out of Albany, 
New York.
    Our mission is to bring fuel cells to the residential 
customer in the year 2001, and we are dedicated to this, and we 
are going to be able to do it.
    Mr. Regula. And the customers would get the kilowatt hours 
produced for the same cost they are now paying the power 
company, or less?
    Ms. Schafer. At our competitive--when we reach our full 
production, probably in 2003, yes. Right now, we are partnered 
with the General Electric Company, who is going to be marketing 
our fuel cell and has already begun that, and with Detroit 
Energy in Michigan, who has exclusive marketing in four states.
    The fuel cell is an appliance--right now it is the size of 
a refrigerator but will be shrinking to the size of about a 
dishwasher. It sits outside the home or in the basement and 
makes all of the electricity for the home. When we do reach our 
full production, we will be cost competitive with the grid at 
about $500 per kilowatt, and that is about eight cents to the 
customer per kilowatt hour.
    That consists of about four cents for the actual fuel--it 
is natural gas at the moment--and four cents for the cost of 
the fuel cell, any maintenance, normal maintenance, and 
amortization of----
    Mr. Regula. Do you hook this into your natural gas line?
    Ms. Schafer. That is correct. It is like any other 
appliance, like your gas stove, like your gas water heater.
    Mr. Regula. Is it automatic, or does it have a thermostat 
that kicks it on if you need electricity or heating?
    Ms. Schafer. It will always run. Whenever you need any 
electricity, it will provide it, and it is load following. So 
it is not throwing it out in the atmosphere or anything. It is 
giving you what you need.
    Mr. Regula. From the fuel cell to a box?
    Ms. Schafer. The fuel cell is a box.
    Mr. Regula. Well, but to get into your power system in your 
house, how does it get from the fuel cell to your fuse box?
    Ms. Schafer. Through electrical lines wired through the 
house. Yes.
    Mr. Regula. Wired into your fuse box.
    Ms. Schafer. Wired in. Right. That is it.
    Mr. Regula. You can put it in the basement.
    Ms. Schafer. Put it in the basement.
    Mr. Regula. No emissions?
    Ms. Schafer. No emissions. It works on an electrochemical 
process, so it is fossil fuel at the moment in, and right now 
it makes electricity out of natural gas with no emissions.
    Right now, we are field testing hundreds of units with our 
partners, and all of those right now are running on natural 
gas. And our first commercial product will be natural gas.
    Mr. Regula. When you have the chemical reaction on the 
natural gas, then, that eliminates any emission from the gas 
because it----
    Ms. Schafer. Right.
    Mr. Regula [continuing]. Splits the atom or----
    Ms. Schafer. Right. It splits the proton off of the 
electron, and it allows the electron--it allows the proton to 
go through a special membrane. I could give you the chemistry 
but----
    Mr. Regula. Yes.
    Ms. Schafer [continuing]. A little detailed.
    Mr. Regula. I will pass on that. [Laughter.]
    Ms. Schafer. I don't blame you.
    Mr. Skeen. Don't get too mysterious or----
    Ms. Schafer. No, I will not.
    But we will eventually, in the short term, have propane 
fuel cells that run on propane, so that will be good for 
vacation homes, remote applications. At the eight cent per 
kilowatt hour, a fuel cell will be cost competitive in about 25 
million homes across the country.
    We are also proposing with DOE to do fuel cells on 
biomass--garbage in, electricity out. That is a little longer 
term, obviously.
    We have DOE and the National Labs, and, quite frankly, the 
subcommittee to thank for the breakthroughs on fuel cell 
technologies that have allowed us to bring this to the point of 
market introduction. And right now our device provides a fuel 
cell with about 40 percent efficiency, which is competitive 
with the grid.
    But a fuel cell is distributed generation. It has a 
byproduct at the site of usage; that is heat. If you can 
recapture that heat, then you have really got something there. 
We are proposing that the Department of Energy join with 
industry on a cost shared program to develop a combined heat 
and power unit for the residential market--a single appliance 
that will do your heating, your water heating, and provide all 
of your electricity.
    It brings efficiencies upwards of 80 percent--cannot beat 
it--and will save the consumer a lot of energy cost. 
Additionally, it allows us to get away from that home heating 
oil issue over which we do not have a whole lot of control.
    Mr. Regula. When do you plan to go to market with this?
    Ms. Schafer. We will go to market in 2001. Our cost, with 
our electricity-only unit, in 2001 is going to be around 
$10,000 a unit, which is a little high. But by 2003, when we 
get our production run up, then we will be cost effective at 
about $5,000 a unit.
    So we are urging the Department and the committee to fund a 
combined heat and power unit, which will further reduce 
homeowner electricity and energy costs overall.
    We also--while I am here, I wanted to support the buildings 
fuel cell program, Micro-Cogen. It has been underfunded for 
quite a few years, and we are participating in that. It is 50 
kilowatt fuel cell--a little bigger than what we are doing now. 
And the transportation fuel cells programs is doing a fabulous 
job.
    Mr. Skeen. Well, the funding for this research, that 
bothers me a lot. It seems like it has faded away in some 
sectors. Who is funding this?
    Ms. Schafer. For us?
    Mr. Skeen. Yes.
    Ms. Schafer. On our residential product, it is all 
private--pretty much all private, although we are doing a few 
demonstrations, particularly with some of the state 
governments. We may be doing a few demonstrations this year 
with the Building America Program, which is also under your 
purview. But we have, for advanced research, a larger unit--
there are technological issues, transportation unit, there is 
shock resistance, there is a lot of things. We have been 
working with the Department of Energy.
    Mr. Regula. I wish we had more time. It is an interesting 
technology, but if you have any material----
    Mr. Skeen. Wish we had more money.
    Ms. Schafer. Yes, I wish you did, too. Anything we can do 
to help you get more money?
    Mr. Regula. You have got to get stopped right now, Joe. 
[Laughter.]
    Mr. Skeen. The organizations that provide the funding--some 
of it from government, yes, but also from industry.
    Ms. Schafer. Our partners are providing a lot of it, and we 
have gone public--we went public in October to raise the money 
as well.
    Mr. Skeen. Thank you.
    Ms. Schafer. Thank you for your time.
    Mr. Regula. An IPO?
    Ms. Schafer. Yes.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                       DOE: STATE ENERGY PROGRAM


                                WITNESS

RICHARD SEDANO, CHAIRMAN, NATIONAL ASSOCIATION OF STATE ENERGY 
    OFFICIALS
    Mr. Regula. Mr. Sedano, National Association of State 
Energy Officials? Okay. You know the rules.
    Mr. Sedano. Yes. Good morning, Mr. Chairman. I am good on 
the floor. I will put on the accelerator, if you like.
    I am Richard Sedano, Public Service Commissioner for the 
State of Vermont and Chair of the National Association of State 
Energy Officials. I am here to support elements of the 
Department of Energy's Energy Efficiency and Renewable Energy 
Program. We are supporting $219 million in the state grant 
programs, including the State Energy Program and the 
Weatherization Assistance Program.
    We are also supporting in our testimony today $72.2 million 
for the Energy Information Administration, including funds for 
supplemental petroleum information, which we find important. We 
also want to urge that you continue the initiative that you had 
last year, Mr. Chairman, to provide at least $6 million for 
RD&D through cooperative agreements between the Department of 
Energy and the states.
    Specifically, we would like to see $44 million for the 
State Energy Program and $175 million for the Weatherization 
Assistance Program.
    Energy policy is, of course, a very unsettled subject right 
now. Oil prices are volatile. Energy markets are changing. And 
state energy offices, I think, are very helpful throughout the 
country in addressing energy security issues, energy 
independence issues, responding to energy emergencies and 
crises, as we have seen this year, and I think they provide 
sensible solutions and promote innovation.
    We have been especially successful in the last couple of 
years working with the Office of Fossil Energy at the DOE. We 
are working on all sorts of new technologies that will be 
promoting both energy efficiency within the context of fossil 
energy development.
    We are also interested in improved data collection and data 
management for all fuels. We think consumers are very 
interested in this. It is an important part of our job.
    Another thing that state energy offices are doing more of 
is that as utility resources for energy efficiency and electric 
energy R&D are reduced through competitive forces, state energy 
offices are filling that void.
    My testimony has several examples about different states 
that are doing some very interesting things. But what is common 
in all of those examples is that a relatively small amount of 
federal money goes to produce incredible amounts of private 
sector money as well as state money coming into these energy 
efficiency and technology development programs.
    There is an especially nice one in Vermont, which I hope 
you will take a look at.
    The State Energy Program provides the backbone support that 
allows all of these successes to happen, and that is really the 
core thing that I want you to understand as best as I can help 
you understand it. That these people who are supported by the 
State Energy Program are looking for opportunities, looking for 
innovation, and are there on the spot when the opportunities 
emerge and make good things happen.
    We are also supporting the EIA budget because we need their 
quality information, and especially these days, in a timely 
way. Sufficient funding is needed to meet this important public 
interest, and the recent oil markets issues have made that 
very--imminently clear. Specifically, we have something called 
a State Heating Oil and Propane Program in which we would like 
to see increased levels of data reported from the states, from 
the oil and propane and gasoline markets, through the state 
energy offices to consumers.
    So the takeaway, Mr. Chairman, is we see that the federal 
monies that come through the State Energy Programs and the 
Weatherization Programs are really multiplied in their benefits 
throughout the economy and through resources from the private 
sector, from states, and even, perhaps most importantly, 
partnerships are forged which sustain these activities long 
after the federal money is moved on to other uses. And I think 
that is really the essence of our public interest.
    Mr. Regula. Thank you. One question. Can you handle the 25 
percent contribution on weatherization?
    Mr. Sedano. Mr. Chairman, there are several states which 
will have a real problem with that. I understand that some----
    Mr. Regula. But they all have surpluses. We have checked.
    Mr. Sedano. Well, that is not the case. I have done a 
little checking, too, because my membership is very concerned 
about this. We know that about 16 states are going to have a 
problem with this. I understand that the states of Kansas, 
Tennessee, West Virginia, and Wyoming are having budget crises 
right now. We are very concerned about this, Mr. Chairman.
    Some states will be able to provide some of the match. I 
can tell you that Vermont is fine because we already have a tax 
that supports weatherization from our own funds. So my state is 
going to be fine.
    The majority of the states will probably be fine. But a 
significant minority of states, states which really require 
support of this kind, are not going to be fine, Mr. Chairman. 
And I hope you will take that into account.
    Mr. Regula. Do you have anything, Mr. Skeen?
    Mr. Skeen. I have no questions.
    Mr. Sedano. Thank you.
    Mr. Regula. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Thursday, April 6, 2000.

                DOE: FOSSIL ENERGY AND ENERGY EFFICIENCY


                               WITNESSES

RICHARD A. BAJURA, DIRECTOR, NATIONAL RESEARCH CENTER FOR COAL AND 
    ENERGY, WEST VIRGINIA UNIVERSITY
GEORGE FUMICH, PROGRAM ADVISOR, NATIONAL RESEARCH CENTER FOR COAL AND 
    ENERGY, WEST VIRGINIA UNIVERSITY
    Mr. Regula. West Virginia University, Mr. Bajura.
    Mr. Bajura. Good morning, Mr. Chairman. I am Dick Bajura, 
and my colleague is George Fumich. We are here to share with 
you some of our frustrations about the funding for the fossil 
energy budget and highlight some of the programs in 
transportation technology to the industries of the future.
    With the role that coal is going to play in the future, we 
are frustrated that the administration has recommended a $19 
million cut in the coal programs, $28 million cut overall. We 
would recommend that you support funding at a level of $433 
million, which is what the PCAST report suggested several years 
ago.
    Mr. Regula. Do you think we are going to keep using coal to 
generate electricity?
    Mr. Bajura. I think so, sir. The projections are that it is 
going to go up and increase. Eighty-five percent of our energy 
is going to be supported by fossil fuels in some projections. 
So I think----
    Mr. Regula. Gas and/or coal or----
    Mr. Bajura. Gas and/or coal.
    Mr. Regula [continuing]. Oil.
    Mr. Bajura. Right.
    Mr. Regula. What percent of our electrical energ--is 
produced by coal?
    Mr. Bajura. Currently, 56 percent, and that may go a little 
bit higher. Natural gas is going to increase. We do not know 
what is happening with nuclear in the future, and I think it is 
important for us to prepare for that future and embrace fossil 
fuel research. I think it is important that you support funding 
for these areas.
    Mr. Regula. Is clean coal technology getting on stream? We 
have had quite a bit of money invested in that. Is it getting 
commercialized?
    Mr. Bajura. Clean coal technology is getting on stream, 
sir. But there are many problems that need to be addressed--
materials handling--advanced separations, for example, have 
been proposed by the administration this year. There are some 
bugs that need to be worked out.
    And, quite frankly, I am concerned that we have not 
invested enough effort in these technology areas. I see that 
overseas many of the European nations are implementing some of 
the modules that we are using in Vision 21, and we are not 
deploying them here.
    I am concerned that we are going to fall far behind if we 
do not have a vigorous program in issues like gas turbines, 
carbon sequestration, fuel cells, all of which can run on 
natural gas. But I think we need to prepare for a future with 
coal.
    I also think that it is important for us to look at 
transportation fuels from coal. Producing transportation fuels 
with chemicals are going to be a very important way of 
deploying Vision 21 projects. And we are recommending some 
additional funding for that activity.
    The ultra clean fuels initiative that is proposed is 
important. We would also like to see that that be directed 
toward coal technology.
    There are some important programs in natural gas. I am glad 
to see that Congress is supporting the natural gas hydrates 
program. We think that there needs to be additional funding in 
that area.
    The gas infrastructure that you heard about today is 
important, and I would encourage the committee to continue 
supporting the coal mine methane program that you initiated 
last year. Very important for Greenhouse gas sequestration.
    We think that coal can be used for other purposes and 
appreciated your support last year for our carbon products 
program at West Virginia University, and hope that you will 
continue to support that this year.
    In transportation technologies, they have got some good 
programs. We are working on developing diesels. We need to get 
those deployed in the next several years, or we are going to 
miss the market for doing it.
    Mr. Regula. A new style diesel engine that is more 
efficient?
    Mr. Bajura. Advanced diesels that will be more efficient 
and less polluting, and also applicable to some of the lighter 
weight vehicles, like SUVs and cars. Nobody wants to run a 
diesel these days, but yet they are very highly efficient.
    Mr. Regula. Are hybrids, the engine plus electric--I think 
Toyota has one and GM is working on one--aren't those diesels?
    Mr. Bajura. No, they are not diesels.
    Mr. Regula. Oh, they are not? Are they gasoline?
    Mr. Bajura. They are gasoline, and there is some emphasis 
on natural gas. And we would encourage additional emphasis on 
natural gas as an alternative fuel in these programs.
    We heard about the State Energy Program here by the 
previous speaker, and I believe it is important that we work 
with the State Energy Programs in implementing alternative 
fuels. We are very far away from meeting our EPEC targets of 10 
percent alternative transportation fuels. We are only running 
about two or three percent now, and I think continued support 
for that area is important.
    Also, I think we need support for infrastructure. People 
need help in servicing vehicles, and we think something like a 
natural gas cylinder inspection program would be important for 
next year, too.
    In the Industries of the Future Program, we like that in 
West Virginia. Fifty-three percent of our industries, our 
manufacturing industries, are in the IOF programs that they are 
highlighting. We think the state programs are very important 
and would encourage you to ask IOF to deploy a state assistance 
program next year.
    And mining, very important for West Virginia. We appreciate 
your continued support for that, sir.
    Mr. Regula. Any comments you would like to make?
    Mr. Fumich. I would like to support Dr. Bajura's comments 
regarding the importance of coal and fossil energy. The 
government's own statistics--the Energy Information 
Administration--states that fossil is still going to support 
about at least 65 percent of our energy requirements to the 
year 2020. And as far as the power area, that is going to 
increase about two and a half to three percent a year. And the 
coal part of that will not quite be 56 percent. It will be a 
little bit less.
    I think natural gas will be more, but the tonnage will be 
greater. And we are talking--you are talking about the world, 
you are talking about India and China. We are going to have to 
do all of the research because we are not going to meet the so-
called Kyoto requirements unless we do that.
    Fossil energy is greatly underfunded.
    Mr. Regula. Well, you are preaching to the choir with me. 
Well, thank you very much.
    [The information follows:]
             [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

   DOE: ADVANCED TURBINE SYSTEMS/SOLID OXIDE FUEL CELL/FOSSIL ENERGY


                                WITNESS

FRANK BEVC, MANAGER, EMERGING TECHNOLOGIES, SIEMENS WESTINGHOUSE POWER 
    CORPORATION
    Mr. Regula. Siemens Westinghouse Power Corporation. Mr. 
Bevc.
    Mr. Bevc. Chairman Regula, Congressman Chairman Skeen, 
first, thank you for the opportunity to present our views to 
the committee. I almost feel a bit redundant, given the last 
testimony. That is, we also feel that fossil energy has been 
short-changed.
    We feel that the committee has done an admirable job in the 
past of balancing a number of conflicting priorities, and in 
the fiscal year 2001 budget the balance between renewable 
energy, energy efficiency, and fossil energy, as presented by 
the administration, is slightly out of kilter.
    Mr. Regula. I think so, too.
    Mr. Bevc. Basically, my job is to bring new energy 
conversion devices--turbines and fuel cells--into the 
marketplace. I am an engineering manager.
    And we believe that those energy conversion devices 
basically are the final link in the chain to producing----
    Mr. Regula. You heard the previous testimony on fuel cells 
from the young lady. Do you agree with that?
    Mr. Bevc. Yes, I do. I believe that the bulk of our energy 
through history has been produced by rotating machinery, by 
turbines. I think that fuel cells will be entering the 
marketplace over the next five years. I believe that 
businesses, commercial stores, and malls, and small industrial 
concerns, will find that fuel cells can be more economical than 
grid-delivered power.
    We think that, just like balance between energy efficiency 
and renewable energy and fossil energy, there is plenty of room 
in the marketplace for small power generation sources as well 
as central station kinds of----
    Mr. Regula. Does Siemens Westinghouse produce fuel cells? 
Do you plan to market them?
    Mr. Bevc. Yes, we do produce solid oxide fuel cells, 
slightly different than the Plug Power solid polymer PEM-type 
fuel cells. Ours work at higher temperatures and are inherently 
more efficient.
    We have a number of programs ongoing with the Department 
of----
    Mr. Regula. Do you use natural gas?
    Mr. Bevc. Yes. Well, let me say that we, and all fuel 
cells, can use any hydrogen-bearing fuel. So natural gas or 
coal or biomaster drive gas--or as the Plug Power 
representative said, propane----
    Mr. Regula. Or like in rural areas of New Mexico, where you 
do not have a gas line running into the home--what would you 
use, propane?
    Mr. Bevc. Well----
    Mr. Regula. If you wanted to have a fuel cell?
    Mr. Bevc. Again, it would depend upon the specific 
economics of the application. Recall that all of these things 
require energy. So you will go back to a source of fuel, of 
natural gas or propane, and how much you are consuming and how 
much electricity you need I think will depend upon the 
economics of those kinds of devices in remote locations.
    In our testimony, we talk about basically two existing 
programs and two new DOE initiatives. First, we would urge the 
committee to fund the final year of the advanced turbine 
systems program. We believe it has been very successful. I will 
speak for General Electric, at least from my viewpoint, that 
both we and they have gas turbines that are far better and more 
efficient and cleaner than they would have been without the 
program. And, basically, the last year's funding of that 
program is in the fiscal year 2001 appropriation.
    A thing that I think the gas turbine industry learned while 
executing the ATS program was how to work with universities. 
Down in South Carolina, the South Carolina Institute for Energy 
Studies basically is a mechanism by which industry, the 
Department of Energy, and the university community can work 
together on pre-competitive type technology.
    We believe that has been a very effective program and has 
drawn in the university community in over 60 programs and 37 
states, basically doing basic research, and, most importantly, 
training the new engineers coming out of college that energy 
and fossil fuels are interesting and exciting things to work on 
and feeding our community with the technical talent that we 
need.
    The two new initiatives of the--within the Vision 21 
realm--there is something called a next generation gas turbine 
program, basically a program that sort of fills the gap between 
the small generation sources and the larger ones.
    Forces of deregulation determine what should be present in 
the marketplace. More so, we should be producing devices. We 
believe that when you put them in combined cycle, either in the 
combined heat and power kind of device that Plug Power 
mentioned, or in a hybrid cycle with a micro turbine or little 
gas turbine, you can get even more efficient production and 
cleaner production.
    Mr. Regula. Do you see increased use of fuel cells in 10 
years?
    Mr. Bevc. Yes. Very much so. We believe that fuel cells 
will be in the marketplace certainly within 10 years. And our 
corporate estimates are that between 10 to 15 percent of all 
new generation in that time period will be from distributed 
power.
    Mr. Skeen. Going along with what you have been talking 
about, it has been interesting to us that we have a bus 
manufacturing effort going on in my part of New Mexico, and 
they are using fuel cells because they are very popular with 
cities. They are very competitive. But it is actually putting 
this technology into use, and it is being used--it is selling, 
and it is doing the job.
    Mr. Bevc. I think the applications and the growth in the 
marketplace are certainly going to increase over the next five 
years.
    Mr. Regula. Very interesting. Well, thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                          DOE/USGS/OSM/BLM/FS


                                WITNESS

CONSTANCE D. HOLMES, SENIOR VP, POLICY, NATIONAL MINING ASSOCIATION
    Mr. Regula. National Mining Association, Constance Holmes.
    Ms. Holmes. Thank you very much, Mr. Chairman. We really 
appreciate the opportunity to come in and talk to you today 
about our views about the fiscal year 2001 budget. I know I do 
not have to repeat any of the statements that have been made by 
our predecessors when we say thank you for your concern about 
the budget in fossil energy because we have the same types of 
concerns. The fact that we do not think that--I will get more 
time, see? [Laughter.]
    We do share your concerns and appreciate your support for 
expanding and not contracting the fossil energy budget. It is 
extremely important to the future of the coal industry, 
especially as we are selling to an electric utility industry 
that is being deregulated, as that utility industry has to meet 
new demands, add capacity, and still use existing capacity and 
look at retrofit of that existing capacity to meet new 
SO<INF>2</INF> requirements, new NO<INF>X</INF> requirements, 
requirements on particulates, and future--possible future 
requirements to reduce mercury and carbon dioxide. And fossil 
energy is very important for those programs.
    We do share the concerns of previous witnesses that the 
budget, the fiscal year 2001 budget request for coal and power 
systems was decreased this year by some $18 million, and we 
would certainly hope that the committee will return the budget 
for power--coal and power systems at least to the level of 
fiscal year 2000 of around $212 million.
    As the previous two speakers, we certainly support DOE's 
Vision 21 program. That we believe will result in some very 
highly efficient powerplants that will allow utilities to give 
our Americans, and use coal and use other fossil fuels and 
supply low-cost energy, but at the same time will allow them to 
reduce emissions of SO<INF>X</INF>, NO<INF>X</INF>, and 
CO<INF>2</INF> and mercury.
    Any remaining carbon that might still result after Vision 
21 projects are complete and online certainly can be offset 
through sequestration. We are very pleased as well that the 
Vision 21 program essentially uses dollars that have already 
been spent and built upon the clean coal programs. And we think 
that the work that DOE is proposing for 2001 is very important 
to be fully funded if, indeed, the technologies are going to be 
demonstrated by 2015 when we believe they will be needed.
    We are very supportive of DOE's request to extend the 
research program on carbon sequestration. Frankly, given the 
importance of carbon sequestration, possible importance of that 
to the future, we think that they could have asked for even 
more money. There are two research projects in the area of 
sequestration that are underway right now that could prove to 
provide a way to sequester carbon in the relative short term.
    One of them uses fuel cells, and that is an industry 
government funded zero-based emissions project that is just 
getting underway and has requested a million dollars in the DOE 
budget. And we hope that there will be results, actual on-the-
ground results, within five years.
    There is another project that could, if it is fully 
funded--it is not in the budget--but if it is fully funded 
could also have results within five years. And that is the 
biosequestration on semi-arid lands project that is being done 
out at Los Alamos.
    We believe strongly in the carbon sequestration research. 
It is a long term research effort, but we think that we need 
now to provide a suite of technologies so that they are in 
place if we need them in the future.
    NMA does oppose, however, DOE's request to rescind the $105 
million from appropriations from the Clean Coal Program. We 
think that those dollars could be reprogrammed. And if they 
cannot be productively used in the CCT program, they could be 
reprogrammed to look at needs for existing coal-fired 
technologies, so that we can retrofit that existing base.
    We are also very supportive of the coal preparation and 
liquefaction technologies, the research on those. We are 
supporting two projects in particular--the advanced separation 
technology initiative and the Steubenville comprehensive air 
monitoring program that DOE, NMA is a partner. The Ohio Coal 
Development Group is a partner in that as well.
    In my last remark, I would like to thank you very much for 
your support for the mining industry, the future program. We 
have been very pleased at the response of the mining industry, 
and we have 10 projects underway right now. They are focused on 
safety improvements, and they are focused on efficiency of 
mining operations. But they represent the tip of the iceberg.
    On our first project solicitation we had 23 very top notch 
proposals. We could not fund them all, clearly. We are right 
now reviewing 62 proposals that if they were fully funded, and 
if money was available, we would be--we would ask for 
approximately $52 million. I am just pointing that out, just 
simply to tell you that there is a great need for mining 
research, one that is way beyond that that we had anticipated. 
And we do respectfully request that if the budget allows the $4 
million that has been requested----
    Mr. Regula. Do you see a future for fossil fuel in power 
generation?
    Ms. Holmes. I absolutely do, yes. When we are looking at 
the zero-based emission projects, when we are looking at the 
plants that come out of Vision 21, and the efforts to reduce 
SO<INF>2</INF> and NO<INF>X</INF> to almost nothing, 
essentially, along with carbon sequestration, there is a bright 
future for coal.
    Mr. Regula. Thank you.
    Mr. Skeen.
    Mr. Skeen. I have no questions. I know that you would enjoy 
the coal----
    Mr. Regula. Yes. [Laughter.]
    And there is no coal mine in my district either, but----
    Ms. Holmes. Well, thank you again for your support.
    Mr. Regula. Very little at least. Thank you.
    Ms. Holmes. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                           DOE: CONSERVATION


                                WITNESS

DAVID HAMILTON, POLICY DIRECTOR, ALLIANCE TO SAVE ENERGY
    Mr. Regula. Okay. The Alliance to Save Energy, Mr. 
Hamilton?
    Mr. Hamilton. Thank you very much. I did not think you 
would be running ahead. That is great.
    Mr. Skeen. Energy efficient.
    Mr. Hamilton. Very good.
    My name is Dave Hamilton, and I am the Policy Director of 
the Alliance to Save Energy, which is a nonprofit bipartisan 
coalition of business, government, environmentalists, and 
consumer leaders dedicated to improving the energy efficiency 
of the economy.
    You know, each year we come before you to try to highlight 
one part of the energy efficiency world that helps, we believe, 
elucidate its contribution to our nation's energy supply and 
the economy. And we look in the news and politics to see where 
best to check that out.
    I think that this year the oil price spike has dominated 
the news. It is a lesson for us in that we have not managed to 
lessen our dependence on foreign oil in the 20 years since the 
original oil crises. I think that, you know, from your comments 
at Tuesday's hearing, I do not think that that is lost on you, 
Mr. Chairman, or you, Mr. Skeen. That we are still vulnerable 
on energy issues, and we still need to take action.
    And a long period of low prices managed to put us into 
somewhat of a malaise about how we deal with that, and we want 
to urge that real action take place in deployment of hybrids, 
deployment of fuel cells, and continued both research and 
development and deployment.
    You know, the progress we have made is only highlighted by 
the fact that I think this time OPEC really would like to 
squeeze it slowly because they do not want the money to stop. 
We do not have a political crisis like the Iranian Revolution 
or anything to turn it into a political crisis. But they have 
very graciously agreed to increase production so that prices 
will go down slowly. And the question is: when is the next time 
they are going to decide to ratchet it up?
    So our next--my next point, is last year, Mr. Regula, I 
came here and talked about energy efficiency as a contributor 
to energy supply, and how do we think about that, and how do we 
figure it out. And I presented an analysis, which I have 
included again in here, of--an alliance analysis of Energy 
Information Administration data, which would add the number of 
BTUs, which is contributed by energy efficiency according to 
EIA, to the rest of our nation's energy supply.
    And how would that look? How does that make the whole 
picture look? And I enclose a table in my testimony which says 
that, you know, if you include energy efficiency, displaced 
BTUs, which you can use for any other use that you would like 
to, account for about 25 percent of the energy supply. And that 
fossil fuels really account for more like two-thirds.
    That is not meant to denigrate or lessen the role of fossil 
fuels in the economy, and, clearly, our economy still rests on 
them. But it is also very important, especially since we are 
spending the millions of dollars that we spend on energy 
efficiency in the Federal Government, and that citizens and 
companies spend every day out in the country, to accurately and 
effectively judge what that contribution is.
    So I would point out that table. I would also point out a--
something that I mention in the testimony, which is a study by 
the Rand Corporation of California Energy Efficiency Programs, 
which conclude that three percent of California's gross state 
product in 1995 was due to lowering energy intensity, which is 
lowering the amount of dollars you have to spend for energy for 
a unit of output, and how lowering energy intensity makes 
fertile ground for economic growth.
    And I would point that out. I would also point out the 
second table in there, which is five technologies plus 
appliance standards from the buildings programs, which now, 
with GAO approved accounting methods, now account for $80 
billion of returns to the economy over 20 years, when in that 
same period of time we have only--we have spent less than $2 
billion on the buildings programs.
    And I think that kind of return is almost--it seems almost 
not believable. But in GAO's audit, those--how those success 
stories are computed, and you have a situation where five 
technologies plus appliance standards have returned $80 billion 
for a less than $2 billion investment. And I just want to point 
that out as how we are--you know, these programs are 
successful.
    Mr. Regula. Any of my colleagues have questions? We are on 
a five-minute time cycle here.
    Mr. Dicks. No, thank you.
    Mr. Regula. So we do not have much time.
    Do you agree that it is important to have fossil research, 
too?
    Mr. Hamilton. Absolutely. And I believe that, you know, the 
more fossil research is oriented toward making use of it more 
efficient--you know, and I think Mr. Reicher and Mr. Gee have, 
you know, combined publicly a lot more this year to say, you 
know, we do parts of the same thing.
    Mr. Regula. There is a place for both.
    Mr. Hamilton. Right.
    Mr. Regula. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                           DOE: FOSSIL ENERGY


                                WITNESS

BEN YAMAGATA, EXECUTIVE DIRECTOR, COAL UTILIZATION RESEARCH COUNCIL
    Mr. Regula. Mr. Yamagata? Coal Utilization Research 
Council. We are happy to welcome you.
    Mr. Yamagata. Mr. Chairman, it is good to be here again. I 
hope I do not take all of my time, so you can catch up if you 
need to.
    I provided to the members, besides my written statement, a 
sheet with some overheads on them. And I thought maybe I could 
speak for them, Mr. Chairman, that might provide some more 
clarity with respect to the issues that I would like to cover 
with you, if I may.
    Let me start by saying that we appreciate the opportunity 
to be here today to talk about the fossil energy program, 
particularly the coal-based fossil energy program. And I would 
like to make two points, if I may, to you. First of all, to 
summarize the Coal Utilization Research Council's 
recommendations to increase and modify DOE's fossil energy 
budget.
    And then, secondly, to provide this subcommittee with our 
rationale as to why we would recommend those increases.
    Time permitting, thirdly, perhaps to put in some broader 
context around these comments, specifically that we are 
suffering, as you know, Mr. Chairman, yet an other oil price 
jolt. And we will continue to do so unless and until we define 
a workable national energy policy that relies in part upon fuel 
diversity where coal and renewables and hydro all coexist and 
contribute.
    That having been said, as other witnesses have already 
pointed out to the subcommittee, the administration has asked 
for, depending on how you count the numbers, $18- to $19 
million less in the coal R&D program than you appropriated last 
year. And even with respect to the amounts that are requested, 
there are new initiatives like the international coal 
initiative and the sequestration initiatives, which changes 
those numbers even more dramatically.
    Given that context, the CURC is recommending to you that as 
much as $13 million of that $18 million be restored to the 
program. My written comments go into some detail about where 
those increases we think ought to take place.
    In addition to that, however, we are also recommending the 
addition of $8 million more to certain key specific areas that 
unless adequately funded are going to slow everything else 
down, or will not initiate some new initiatives that we believe 
ought to be initiated in this timeframe.
    I want to emphasize to the members that the additions we 
are recommending are minimums. They are minimums in the context 
of it will provide for funding of a core R&D program for coal, 
we believe.
    If you want to get serious and accelerate programs, then I 
think several areas there--perhaps additional funding--and I 
would point out chemicals from coal, for example, particularly 
with respect to the early entry of Vision 21 chemical plants, 
and also more work on what we believe are principal and primary 
technology platforms--integrated gasification, combined cycle, 
and pressurized fluidized bed--which I know the Chair is very 
familiar with.
    We also, in our recommendations, would urge you to reject 
the administration's request to rescind the clean coal funds. 
The Chairman, as many of us know, has been the pioneer and the 
champion of that program. I know we do not have to talk very 
much about that, Mr. Chairman, but it has been a good program. 
It continues to be a good program.
    Of those funds that have been requested for rescision, the 
CURC--that is, this organization that I am representing--is in 
the process of trying to come up with a program that may make 
sense in lieu of the use of those funds apparently in the 
program--clean coal program where they may no longer be needed 
for a specific project.
    We would like to preserve some time with the committee and 
come back to the committee with some more specific 
recommendations as to how we think those funds might 
appropriately be used for coal.
    Ms. Holmes pointed out that perhaps use of existing plants 
and technologies that can reduce the cost of emission 
compliance on existing plants is an area that we think might be 
very fruitful.
    Let me spend the last minute or so, or 30 seconds, just 
briefly talking to you about why we believe these additions are 
required, because I do not think it is appropriate for us to 
come here and simply say that the addition should take place 
because they were there last year.
    The CURC has gone through a process of defining a 
technology road map where we have defined a series of 
parameters, both in terms of time and technology objectives, in 
order for us to get to lots of emission reductions and greater 
efficiency. And it is on the basis of this type of a road map--
technology road map, Mr. Chairman--that we believe our 
recommendations are key, too. And so I would commend the 
subcommittee looking at those recommendations as well, and at 
the technology road map. That is the basis of our 
recommendations.
    Mr. Regula. Thank you very much.
    Mr. Yamagata. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Thursday, April 6, 2000.

        DOE: NATURAL GAS RESEARCH, DEVELOPMENT AND DEMONSTRATION


                                WITNESS

CHARLES H. FRITTS, AMERICAN GAS ASSOCIATION
    Mr. Regula. American Gas, Mr. Fritts.
    Lets suspend for a couple of minutes.
    [Recess.]
    Mr. Regula. Mr. Fritts.
    Mr. Fritts. Thank you, Mr. Chairman. My name is Charlie 
Fritts. I am with the American Gas Association. We represent 
189 gas distribution companies throughout America.
    The base of our case for additional support for gas-related 
research is that natural gas is clean, it is here, it is 
domestic, and it is priced competitively in today's market.
    Mr. Regula. What is the estimated supply in North America?
    Mr. Fritts. It is at least 70 years, and the funny thing 
about it is 20 years ago they said it was 70 years, and we used 
20 trillion cubic feet per year since then. And there is still 
70. It is based on technology and price. Actually, some of the 
research that this committee has funded has led to finding of 
greater reserves.
    Mr. Regula. So are you saying there is a lot of it out 
there, and we are not going to have to import it from OPEC?
    Mr. Fritts. We are connected through a pipe system, both 
largely through the producing states and the Gulf of Mexico. It 
is all domestic. The overseas imports are not an event.
    Mr. Regula. Is there still LNG coming in?
    Mr. Fritts. LNG coming in, it is down in the one percent 
range. It is obviously much more expensive than whatever is 
piped in, so it is a peak shaving technique. That is all.
    America is not taking full advantage of its natural gas 
resources and gas' inherent qualities. And we would like to see 
the DOE budget for natural gas be increased to allow American 
industries to do so. We have identified a series of specific 
research recommendations that we are going to recommend to the 
committee to add to the DOE budget in the nature of about $30 
million.
    We are not asking for a gift. All of these programs will 
have cost-sharing from the industry. The first one I would like 
to mention is the natural gas infrastructure. This is roughly 
$13 million in the DOE budget. It is for things like leak 
detection. It is for underground detection of obstacles to 
lower the cost of drilling. It is for things that will make the 
system more reliable, and once the gas system is more reliable, 
the electric system, which uses a lot of gas for generation, 
will also be more reliable.
    On the distributed generation side, this is a new thing 
coming to the industry. And if I can show you a few pictures, 
what this basically is in distributed generation, Mr. Chairman, 
Mr. Dicks--excuse me. I just want to--basically, what we are 
doing here, distributed generation means onsite, at the site of 
the use you are going to make your electricity, as opposed to a 
central powerplant.
    Because you are doing it at the site, you are able to 
structure it so that the heat that is normally wasted out the 
smokestack is recovered and used again. And that picture you 
have there, the turbine, micro turbine, which is, again, an 
item that this committee has funded research on, is capturing 
that waste heat at the wall greens to make hot water and 
capturing no heat from that to heat the air in the building.
    Mr. Regula. What percent efficiency do you end up with?
    Mr. Fritts. The net of this picture right there is close to 
80 percent efficient. Your average generation plant, central 
station, is in the neighborhood of 30 percent. So you are doing 
more than doubling the efficiency here by capturing that waste 
heat through a distributed generation program.
    Distributed generation comes in several packages. You have 
heard previous witnesses talk of fuel cells, micro turbines, 
reciprocating engines. We are looking for increases in the DOE 
budget in all of these because there are different types of 
markets that need distributed generation and that different 
sizes of packages, of power packages, that each will need, or 
sizes that fit in the combination and recapture the waste heat.
    So we are looking for modest increases in the distributed 
gen, in the fuel cells, reciprocating engines, and the micro 
turbine programs.
    We also support the Industries of the Future Program, 
specifically the super boiler program. This is a very high 
efficiency boiler that DOE has been working on, and we would 
like to see greater attention to that in the neighborhood of 
about a $3 million increase.
    Mr. Regula. That would be in powerplants.
    Mr. Fritts. These are boilers, industrial boilers.
    Mr. Regula. Okay, for heating.
    Mr. Fritts. Another concept coming on that is similar to 
distributed generation is the combined heat and power, or 
building combined heat and power. This is taking a building 
itself, making the electricity or heating the unit, and 
recapturing that waste heat to then cool it, heat it, and heat 
the water.
    Cooling technologies are a great new thing for natural gas 
because in summer when electricity is at its peak demand 
because of electric air conditioning demand, gas use is in a 
trough because it is largely a heating fuel for the winter. Gas 
can cool. It is natural to use gas to cool to offset the 
demands that are placed on the electric system for cooling.
    On the vehicle side, we are asking for an increase of $5 
million for the clean cities program, and $4\1/2\ million for 
the heavy-duty alternative fuel program. Here again, you are 
looking at the oil crisis, and most of that is transportation 
fuels. Natural gas vehicles can do tremendous work here to 
lessen that dependence.
    Again, I will close on one note, Mr. Chairman. This 
committee, in its '99 appropriation and report, said to DOE, 
``Give greater consideration to total energy efficiency over 
the full fuel cycle in your energy conservation programs.'' An 
Executive Order said the same thing.
    This continues to be an issue at the Department of Energy. 
They have a standard now called ASHRAE 90.1 that is----
    Mr. Dicks. What is it called?
    Mr. Fritts. ASHRAE 90.1. It is a conservation standard for 
building--commercial building envelopes. It is not consistent 
with the instruction and the guidance from this committee, and 
it has also not proven to be cost justified. And we would like 
this committee to challenge the appropriation for that program.
    Mr. Regula. Okay. Well, thank you very much. I am sorry we 
are short on time----
    Mr. Hinchey. Mr. Chairman, if I may----
    Mr. Regula. Sure.
    Mr. Hinchey [continuing]. Just briefly--there are large 
portions of the country that do not have access to natural gas. 
Do you make any recommendations, not necessarily to this 
committee but more broadly as to how larger sections of the 
country could have greater access to natural gas?
    Mr. Fritts. Most of the major cities do. It really comes 
down to economics, what sort of load is at the end of the line 
that justified building a pipe transmission line to it. We 
would be glad to talk to you about incentives to do that, but 
right now it is an economics test that makes that determination 
between the pipelines as well as the distribution companies.
    Mr. Hinchey. Thank you.
    Mr. Regula. Thank you.
    Mr. Fritts. Thank you, Mr. Chairman.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                   DOE: VISION 21 INITIATIVE PROJECTS


                                WITNESS

DR. SY A. ALI, DIRECTOR, BUSINESS DEVELOPMENT, ROLLS-ROYCE
    Mr. Regula. Rolls-Royce? Dr. Sy Ali. Welcome.
    Mr. Ali. Thanks for this opportunity, sir. My testimony 
pertains to three activities within the Department of Energy's 
Vision 21; and, two, under distributed generation and cost-
cutting programs.
    The DOE request for appropriations in fiscal year 2001 
pertaining to the DOE fossil energy site includes fuel cell gas 
turbine hybrids to develop and field test a one- to three-
megawatt hybrid system by the year 2003, and then development 
of a larger, up to 40-megawatt system, which could serve to 
replace central powerplants.
    Mr. Regula. It is a fuel cell?
    Mr. Ali. This is fuel cell----
    Mr. Regula. It would produce----
    Mr. Ali [continuing]. Gas-driven hybrid combination.
    Mr. Regula. Oh, okay.
    Mr. Ali. And then the other DOE fossil energy program is 
flexible gas turbines. Previous speakers talked about the next 
generation gas turbines. This is the gap that exists currently 
between the industrial ATS program and the large utility ATS 
program to use for repowering existing stations by pulling out 
the boilers and putting gas turbines in their place.
    The other activity within NERO pertains to the university 
support. There are 93 universities participating in this 
program out of 37 states. This has been very beneficial to the 
industry as well as the universities in terms of training new 
people to serve the market, as well as development of advanced 
techniques that could be jointly worked between the industry 
and universities.
    The Office of Power Technology within DOE has requested two 
projects--low emission combustion system and micro turbine 
development. The justification for congressional support 
pertains to the current trials that is being talked about in 
terms of electrical energy, the NERC, which is the National 
Energy Reliability Council, is development plans for brownouts 
and blackouts in the year 2000 and what to do about it.
    So severe curtailment of new powerplant construction has 
also been detrimental to having----
    Mr. Regula. Does this result from deregulation in part?
    Mr. Ali. No, this has not been a part of the deregulation. 
This has been U.S. EPA activities involvement.
    Mr. Regula. That made it difficult to build powerplants?
    Mr. Ali. That is correct, sir.
    Distributor generation using advanced technologies would 
tend to minimize these shortages. The other reason of 
justification is to maintain U.S. leadership in the gas 
turbines area and in the fuel cells.
    Mr. Regula. Are you suggesting that if you have a 
manufacturing plant and put in a gas turbine as a standby, and 
if you have a brownout or a blackout your gas turbine would 
kick in and keep you going.
    Mr. Ali. You could do it that way, or you could use gas 
turbines as baseload----
    Mr. Regula. Feasibly.
    Mr. Ali. We are currently using at our facilities gas 
turbines.
    Mr. Regula. Can a gas turbine produce the KWH at the same 
price you can get from the line?
    Mr. Ali. In some parts of the country, you can. Advanced 
gas turbines are developed to provide competitive power output.
    Mr. Regula. Part of the problem that was alluded to by Mr. 
Hinchey, for this program to expand, is access to gas.
    Mr. Ali. This would require initially access to gas. But as 
one of the speakers indicated, any hydrogen-based fuel would 
work. And any fuel--coal gasified would work, propane would 
work.
    I have a chart in the handout that shows the growth outlook 
that has been predicted by the Department of Energy's Energy 
Information Administration showing that over the next 20 years 
they are projecting about 400 percent growth in power from gas 
turbines.
    Mr. Regula. And Rolls-Royce produces these?
    Mr. Ali. Well, Rolls-Royce is one of the companies that 
does it.
    Mr. Regula. Yes, I understand.
    Mr. Ali. Yes, sir. And it also shows that in spite of the 
emphasis on renewables, according to the outlook renewables are 
going to stay fairly flat. Electric is going to be coming down, 
and nuclear certainly is coming down.
    The other chart shows that gas turbines will share from 
less than 15 percent currently to approximately 40 percent of 
total power generation. The chart showing carbon emissions from 
power generation technologies, different kinds of power 
generation technologies, showing that current systems are about 
five times higher than advanced technologies.
    Mr. Regula. Does Rolls produce fuel cells? Are you in that 
field, too?
    Mr. Ali. We are working on that as well, sir.
    Mr. Regula. Fuel cells, gas turbines.
    Mr. Ali. And micro turbines.
    Mr. Regula. Micro turbines. What is a micro turbine? Is 
that a small turbine?
    Mr. Ali. It is a vague definition. Some people define it 30 
kilowatts, 25 kilowatts. Our concept of a gas micro turbine is 
several hundred kilowatts because economics indicate that to 
use all of the energy properly you need to have proper use made 
of the exhaust from it or combined heat and power and cooling.
    So our request to this committee is to urge support for the 
fiscal year 2001 fuel cell gas turbine project, flexible gas 
turbines, industrial low emission combustion system, high 
efficiency micro turbine, and AGTSR--this is a university 
project.
    Mr. Regula. Thank you very much.
    Mr. Ali. Thank you very much for the opportunity.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                            DOE: FUEL CELLS


                                WITNESS

ERIC SIMPKINS, CHAIRMAN, DIRECTOR, FUEL CELL POWER ASSOCIATION
    Mr. Regula. Fuel Cell Power Association, Mr. Abood?
    Mr. Simpkins. Good morning, Mr. Chairman.
    Mr. Regula. Good morning.
    Mr. Simpkins. Members of the committee. I would like to 
thank you for the opportunity to appear before you today. My 
name is not Jeff Abood, but Eric Simpkins. I am Chairman of the 
Fuel Cell Power Association and Vice President of Fuel Cell 
Energy, which was formerly the Energy Research Corporation.
    Mr. Regula. Is it made up of industries from across the 
board that produce fuel cells?
    Mr. Simpkins. Stationary fuel cells.
    Mr. Regula. Yes. So it is an industry group. Okay.
    Mr. Simpkins. I will make my statements brief, so I can 
answer your questions.
    Since we testified last year, the stationary fuel cell 
developers have made what I would call remarkable progress 
toward commercial market entry of utility scale fuel cell 
systems. The world's largest advanced fuel cell stack, a 
commercial version of a 250-kilowatt molten carbonate system, 
has generated over a million and a half kilowatt hours, about 
10,000 hours of online service, in a good connected facility, 
connected with Connecticut Utility.
    A 100-kilowatt solid oxide fuel cell plant has generated 
over 11,000 hours in the Netherlands, exceeding performance 
expectations. And both molten carbonate and solid oxide systems 
have entered commercial field trials. That is, field operations 
of commercial designs at customer sites.
    With the encouragement from this subcommittee and the 
Department of Energy, the nation's molten carbonate and solid 
oxide developers have begun work on the next generation of fuel 
cells, the hybrid fuel cell turbine systems, which have been 
discussed previously. This week, a 250-kilowatt solid oxide 
system is completing factory acceptance testing.
    These plants promise to increase electrical generation 
efficiencies to as much as 75 percent, with no significant 
environmental emissions. We use both fossil and renewable fuels 
and generate electricity more cheaply than conventional systems 
with these advanced hybrids. In the next year, we will expand 
commercial field trials to let utilities and independent power 
producers continue to test these first commercial designs; that 
is, kick the tires, enabling the developers to complete 
development in other plants and full commercial service.
    The molten carbonate developers will have fuel cells fully 
commercially available at the end of next year.
    The Department of Energy's fuel cell programs are more 
important than they have ever been because the energy industry 
in the United States is facing three critical challenges. 
First, America's transforming and expanding economy is 
threatening to consume the country's projected supply of 
reliable power. This booming economy, coupled with years of 
insufficient capacity and transmission additions, have resulted 
in the North American Electric Reliability Council forecasting 
negative power margins in several regions within six years.
    Second, the high cost of permitting difficulties of 
building new transmission and distribution infrastructure, and 
the need to shore up anticipated inadequate supply of reliable 
power, has initiated the strong movement toward distributed 
power generation globally.
    And, last, consumers recognize that electricity can and 
must be produced and delivered more cost effectively and more 
cleanly than it has in the past. DOE's fuel cell programs are 
developing clean and efficient fuel cell generation systems 
that, with the appropriate level of funding, will be available 
in a timeframe that coincides with the nation's growing demand 
for new sources of power.
    Mr. Dicks. Is the budget underfunded? Are these all adds we 
have to make in order to get the fuel cell budget up to where 
it has to be? $25 million?
    Mr. Simpkins. The budgets to the fuel cell developers have 
not been consistent with the agreements made between the 
developers and the Department of Energy. And that has gone on 
each year for the last four or five years. So as a result, we 
have had to stretch programs out to the right. We are not 
getting our products into the marketplace as soon as we had 
expected.
    Actually, we had--in fact, the molten carbonate developer 
had--my company had anticipated, according to the original 
schedule, to have our first commercial product available last 
year. And we will not have it available until at least the end 
of next year.
    Mr. Hinchey. But that does not really answer the question. 
The question is: have the budgetary allocations met your 
requirements?
    Mr. Simpkins. Unfortunately, they have not. No, sir.
    Mr. Hinchey. How much have they fallen short?
    Mr. Simpkins. We have typically, on an annual basis, gotten 
about two-thirds of the requirement that has been established 
by the Department.
    While U.S. fuel cell manufacturers are positioned to gain 
some share of the market, their ability to lead in this growing 
market is directly linked to the DOE fuel cell development 
programs. If these DOE industry partnerships are adequately 
funded, we will conclude in a timely basis and enter markets 
worldwide.
    Mr. Regula. Is there research going on in other countries 
on fuel cells?
    Mr. Simpkins. There is. It tends to lag behind the U.S.
    Mr. Regula. So we are ahead in that, and we have a chance 
to capture an international market.
    Mr. Simpkins. That is correct.
    Mr. Regula. If we get our development on track or up to 
speed?
    Mr. Simpkins. That is correct.
    Mr. Regula. Is that a fair statement?
    Mr. Simpkins. That is a very fair statement.
    Mr. Regula. Interesting.
    Mr. Simpkins. The vision of commercially viable power 
generation using molten carbonate and solid oxide technologies 
has been proven. Progress is attributable to the support of 
this subcommittee and the work of the Department of Energy fuel 
cell systems technology development program.
    The industry partners are Fuel Cell Energy, formerly the 
Energy Research Corporation, and Siemens Westinghouse. The 
partners are achieving milestones consistent with appropriated 
funding levels but not to the original program schedule. They 
are completing the final design improvement and manufacturing 
cost deduction phases.
    Funding the projects at the cooperative agreement levels 
will yield fully commercially available plants ready for 
markets worldwide.
    Mr. Regula. Well, thank you very much. We have had some 
very interesting testimony today on fuel cells.
    Mr. Simpkins. Here are some photographs of the molten 
carbonate system, which is under test now, and of the solid 
oxide system.
    Thank you, Mr. Chairman.
    Mr. Regula. They both work, right?
    Mr. Simpkins. Both work very well.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                 DOE: RISK BASED DATA MANAGEMENT SYSTEM


                                WITNESS

THOMAS TUGEND, CHIEF, OHIO DEPARTMENT OF NATURAL RESOURCES
    Mr. Regula. Ground Water Protection Council? Shifting to 
another subject here. I understand you are from Ohio.
    Mr. Tugend. Yes. Mr. Chairman, members of the committee, my 
name is Tom Tugend. I am the Chief of the Ohio Department of 
Natural Resources, Division of Oil and Gas, and I would like to 
thank you for the opportunity to be here today to provide 
testimony on behalf of the Ground Water Protection Council's 
request for $950,000 in funding to continue development and 
installation of the risk-based data management system, or 
RBDMS.
    This funding initiative this year, our request is $550,000 
less than what the committee appropriated or allowed for last 
year. In Ohio, in the past, our oil and gas well data was 
maintained in a number of different ways--in mainframe computer 
system, on microfilm, card files, paper files--and this 
information really was not readily available to our staff, the 
oil and gas industry, or the public.
    In 1996, through our partnership with the Ground Water 
Protection Council, we were introduced to the RBDMS system and 
contracted with the Ground Water Protection Council to 
customize RBDMS for our needs in Ohio. The RBDMS system has met 
and exceeded all of our expectations and needs and provided for 
easy self-help access to the use of the oil and gas well data 
in Ohio for our staff, the public, and the oil and gas 
industry.
    We have received very positive feedback from the users of 
RBDMS in Ohio with the following quotes from these users. ``The 
database provides information that will allow producers to 
drill better wells at a lower cost. Through RBDMS, we are able 
to find production and well data which has saved us countless 
trips to your office. It looks great and is easy to navigate 
through. The RBDMS system is fantastic. The staff is doing a 
great job with it. Saved a considerable amount of time and 
expense in meeting reporting requirements mandated by Ohio 
law.'' It is not often in our business that the regulated 
community openly praises the effort of the regulator.
    Twelve other states have implemented all or portions of 
RBDMS with similar results as we have had in Ohio. The multi-
state team approach by the Ground Water Protection Council in 
the development of RBDMS has been very successful. Continued 
support of this RBDMS system will benefit a larger cross-
section of the nation's oil and gas industry and the public 
that is also involved and the regulators themselves.
    Again, thank you for the opportunity here today, and I 
would gladly take any questions you have about our efforts.
    Mr. Regula. Well, thank you very much. Very interesting.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                DOE: ENERGY EFFICIENCY AND FOSSIL ENERGY


                                WITNESS

MICHAEL DICKENS, IBACOS
    Mr. Regula. Next is IBACOS, Michael Dickens.
    Mr. Dickens. Good morning, Chairman, members of the 
subcommittee. Thank you very much.
    Several of you know about IBACOS and the work we have been 
doing with DOE in Building America. Our simple goal is to try 
and help bring about better homes in America, higher 
performance, use a lot less energy, but still cost the same as 
today. If you think of your own home, it is probably very 
inefficient in its use of energy. Most people would certainly 
love to drop the costs of their heating and cooling by 30 to 40 
percent.
    And over the last four to five years, with DOE, we have 
shown builders we can do that at not one dollar extra cost. We 
are now working heavily in communities in Tucson, in 
Pittsburgh, in California, where there will be 50 to 60 percent 
energy savings for a couple of thousand homes there in that 
community, and----
    Mr. Regula. You are a private industry coalition trying to 
help the whole industry be more efficient.
    Mr. Dickens. That is our vision, and what we have done with 
DOE is created--help create Building America, where there are 
now five consortiums working with 70 manufacturers, builders, 
designers around the country, and, in essence, creating a 
leadership model because the builder is out there alone. They 
do not really have a lot of help, so if we want to improve the 
quality and performance of homes someone needs to help them. 
And that is the role we have taken on.
    We are very encouraged with what DOE has done over the last 
five, six years with Building America. We have been proud to 
help on behalf of industry. But we need to do more, and we are 
very thankful for what you have done, increasing the budget 
last year. And we would like to see that continue.
    DOE has a specific role within PATH, the Partnership for 
Advancing Technology in Housing, that President Clinton 
announced 18 months ago, where five or six or seven agencies 
come together, but DOE's role within that is to really lead the 
energy efficiency. And with the pilot communities that Building 
America because--is pioneering, I think we can showcase that 
strongly.
    We have helped industry come to the table to help with road 
mapping. I think that is a good start to understand what is 
needed. But unlike the car industry or the computer industry, 
there is no real integrator. The builder cannot integrate, and 
so this alliance, this coalition, is absolutely the right way 
to go.
    We are excited. We are pleased to be part of it. And we 
certainly thank the help you have given in the past.
    Mr. Regula. Thank you.
    Mr. Dickens. That is about it. Any questions?
    Mr. Dicks. So you think there is a role here for the 
Federal Government to play?
    Mr. Dickens. Absolutely. I think if they do not play it, no 
one will ever integrate the home. And it is the most important 
product, and it is responsible for up to a trillion dollars of 
service, a couple hundred billion dollars of materials and 
products, and a hundred billion plus in energy. It is 
absolutely their role. I think it would be a crime not to drive 
it further.
    Mr. Dicks. What about retrofitting existing houses?
    Mr. Dickens. I think that is also a major opportunity area. 
It is a very complex area. Building America typically has been 
in new residential, but the PATH program is taking on the 
existing 100 million homes as well.
     Mr. Dicks. Thank you very much.
    Mr. Hinchey. Do you involve yourself in multi-family homes 
and commercial buildings as well?
    Mr. Dickens. Not commercial because of Building America new 
residential. But that includes multi-family. And the other 
important role to add is that the federal role can help with 
fuel cells and other R&D, through Building America, introduce 
that to the builder. That is another--I could spend a long time 
talking about the issue.
    Mr. Regula. Build a fuel cell right into the original 
house?
    Mr. Dickens. Absolutely. That----
    Mr. Regula. Like you put in a gas furnace or whatever----
    Mr. Dickens. Yes.
    Mr. Regula [continuing]. Now?
    Mr. Dickens. This next five years you will see that. But, 
again, the research, development, and distribution of that tech 
transfer is critical, and that is Building America.
    Mr. Dicks. Thank you.
    Mr. Regula. What does IBACOS stand for?
    Mr. Dickens. Integrated Building and Construction 
Solutions.
    Mr. Regula. Are you funded by the building industry?
    Mr. Dickens. 50/50. We have 100 percent match in resources 
and dollars to DOE's money, which I think is a strong one-to-
one match. So win-win public-private partnership. Half the 
money----
    Mr. Regula. And that money does research on efficient 
materials?
    Mr. Dickens. Materials, systems, and then the assembly of 
them in testing in the field.
    Mr. Regula. Very interesting.
    Mr. Dickens. Thank you.
    Mr. Hinchey. Before you go, did you give us an estimate as 
to the potential energy savings that can be achieved in the 
kind of program that you are working on?
    Mr. Dickens. We are showing builders today, production 
builders, who are really penny-wise driven builders. They will 
not spend one dollar extra on their home. We can save 30 
percent of the energy at no extra cost today. And in the 
communities in Tucson, and soon in Pittsburgh and L.A., we are 
going to drop that 50 percent.
    Mr. Hinchey. You are incorporating solar into your--
    Mr. Dickens. Where possible, yes.
    Mr. Hinchey. Where possible.
    Mr. Dickens. Where feasible as well. So the one day with 
fuel cells and others we will have--you will move towards a 
zero energy house. But that is a market implementation hurdle 
first.
    Mr. Hinchey. Absolutely.
    Mr. Dickens. Thank you very much.
    Mr. Regula. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

      TITLE IV AND V (SURFACE MINING CONTROL AND RECLAMATION ACT)


                               WITNESSES

GREGORY E. CONRAD, EXECUTIVE DIRECTOR, INTERSTATE MINING COMPACT 
    COMMISSION
PATRICK PARK, ASSISTANT CHIEF OF THE OFFICE OF ABANDONED MINE LANDS AND 
    RECLAMATION, INTERSTATE MINING COMPACT COMMISSION
    Mr. Regula. Interstate Mining Compact Commission, Mr. 
Conrad.
    Mr. Conrad. We will split our time, Mr. Chairman, and stay 
within our five minutes here. I will talk about the Title V 
program at the Office of Surface Mining. Mr. Park, from West 
Virginia, will talk about the Title IV, Abandoned Mine Land 
Program.
    Mr. Regula. Okay.
    Mr. Conrad. I am appearing here today on behalf of the 14 
member states of the Interstate Mining Compact Commission, 
which is a state government organization who operate privacy 
programs under the Surface Mining Act.
    We are at a significant cross-roads, Mr. Chairman. For six 
fiscal years, we have striven to implement these programs which 
regulate the active mining industry nationwide, without 
meaningful increases in federal grant monies. Each year we have 
provided reliable and realistic forecasts for our operational 
costs and have stood prepared to meet our 50 percent match of 
the state funds required under SMCRA.
    And yet, in the face of increasing costs due to inflation, 
uncontrollables, and fixed overhead, we continue to see a 
reluctance on the part of the Interior Department to propose 
increases in its own budget to adequately fund the Federal 
Government's 50 percent share for the operation of these 
critical state regulatory programs.
    Last year, several states faced reductions in forests and 
cuts in key program areas, such as complaint investigations, 
water and blasting monitoring, inspections, and permit reviews. 
But through a combination of emergency reprogramming of monies 
by OSM, and some significant fiscal belt-tightening by the 
states, we avoided any deleterious program impacts.
    But now again this year, with OSM's minimal proposed 
increase for Title V grants of only $500,000, we are faced with 
the same uncertainty and discomfort concerning how we can 
effectively carry out our statutory responsibilities without 
adequate funding for our programs.
    Mr. Chairman, we stand prepared to do our part, to fund our 
50 percent of the cost of running these vital programs for 
regulating the coal mining industry. But we need your help. We 
would request that you would work with us to help restore the 
Federal Government's commitment to assist the states and 
assuring adequate protection of public health and safety in the 
environment.
    We request that the subcommittee approve funding for state 
Title V grants in the amount of $61 million, which is based on 
our estimates of regulatory program costs for fiscal year 2001.
    Mr. Park. Yes. Mr. Chairman, I am Patrick Park. I represent 
the National Abandoned Mine Lands Association, which entails 23 
states and three Indian tribes. We operate the approved state 
reclamation program, abandoned mine lands program, as approved 
by the Office of Surface Mining.
    Our primary responsibility, as stated in the Act, under 
Section 102, is to--in summary, to eliminate all of the public 
health and safety problems that were created from eligible 
abandoned mine lands.
    Mr. Dicks. What is the backlog?
    Mr. Park. What is the backlog?
    Mr. Dicks. Yes.
    Mr. Park. Today, through the AMBS system, which is 
maintained by OSM, we have completed 16 percent of all of the 
priority health and safety problems in the country. And the 
program has been in existence for 23 years.
    Mr. Dicks. You only got 16 percent completed?
    Mr. Park. Sixteen percent done.
    Mr. Dicks. What is the cost to do the other 84?
    Mr. Park. What is the cost to do the other 84? From the 
AMBS system, it estimates about $8 billion. There is an excess 
in the fund at this time of $1.5 billion.
    We are supportive of the budget of OSM, in part, and 
especially to the minimum programs. We urge that the annual $2 
million funding level be maintained for minimum programs as 
stated--as authorized by Section 402(g)(8).
    We also understand and are supportive of the proposed 
extension of the AML fund, which is scheduled to expire 
September 2004, for an additional 10 years. And we also are 
supportive of continuing to increase the funding level to what 
has been collected in each state and tribe through fees.
    One of the disturbing things that I have noticed through 
the years is a couple of newspaper articles. One was in 
Oklahoma this year, May 13, 1999, which in summary stated that 
on that day--on May 13th--a 14-year old girl was pulled from 
the waters dead, drowning in a strip mine pit. The victim's 
mother stated that the pit should have been filled and closed.
    Also, an article in West Virginia's paper, Mason Town, 
stated an individual stopped by on his way to work, fell off a 
high wall 200 feet, stable in the hospital. He went to that 
strip pit to visit an area where a friend of his died four 
years previous to that.
    Fatalities are still being--from all mines through this 
country. As you stated, 16 percent has been done. There is more 
to be done. The intent has not been completed, and we in the 
states and tribes feel that before we can feel assured that we 
have completed our job we have to assure that there are no 
fatalities or injuries on these old mining lands.
    Mr. Regula. This is a huge task.
    Mr. Park. Yes, it is. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Thursday, April 6, 2000.

                     USGS/WATER RESOURCES PROGRAMS


                                WITNESS

DR. JON BARTHOLIC, PRESIDENT/DIRECTOR OF THE MICHIGAN INSTITUTE OF 
    WATER RESEARCH AT MICHIGAN STATE U., NATIONAL INSTITUTES FOR WATER 
    RESOURCES
    Mr. Regula. National Institutes for Water Resources, Dr. 
Bartholic? You are from Michigan State University?
    Mr. Bartholic. Yes.
    Mr. Regula. Is that where they have a basketball team? 
[Laughter.]
    Mr. Bartholic. I think Ohio gave us a rough time a couple 
of times, too, so----
    [Laughter.]
    It is a pleasure to be here. I am representing, as 
President of the National Institutes of Water Resources, and I 
am Director of the Institute at Michigan State University.
    In particular, we are requesting program support of $6.562 
million for fiscal year 2001. This represents a $1.5 million 
increase over last year's appropriation.
    We work closely with USGS and we particularly are 
supportive of USGS's budget request for the expansion and the 
long-term monitoring----
    Mr. Regula. Give us specifics of what you do. When you say 
``water resources,'' that is an all-inclusive term. What do you 
do?
    Mr. Bartholic. I think that is all important. I think you 
hit it right on the head. It is all inclusive, and it is pretty 
broad. What we do is we play a role between interacting and 
partnering with federal agencies, EPA, USGS, USDA, those 
agencies, the state organization--for example, here is a recent 
publication we put out, partly supported by EPA, partly 
supported by the state, partly supported by USDA, and we put it 
together in our institute.
    So that we bring those things together----
    Mr. Regula. Recommendations.
    Mr. Bartholic. And knowledge, and we transfer the 
technology to local communities, and so on, to get----
    Mr. Regula. So your customers are the local community.
    Mr. Bartholic. That is right. And the local community is 
the government. For example, in Michigan, we have got 1,800 
local units of government. And if we are going to try to 
improve water quality, and preserve the quantity that we need 
in ground water, and so on, we need to really distribute the 
information that is partly generated----
    Mr. Regula. Do you see water quality and supply a growing 
problem? Critical almost?
    Mr. Bartholic. Yes. I feel like hypoxia of the dead zone in 
the Gulf is probably related to non-point source pollution from 
the head waters. Drinking water supplies--many places in Ohio, 
the Midwest, have to do source water protection because of 
increasing toxics, finding pharmaceuticals in the drinking 
water supplies. So we have got to do more to--and bacteria, so 
we have go to do more to protect those supplies.
    In the Midwest, right now there is--particularly in 
northern Ohio and much of the Midwest, the water in the ground 
is below normal, so there is potential for drought. The Great 
Lakes are at an all-time record low at the present time, so all 
of these are complex problems. And because of the network that 
goes across the country, each of the institutes has an advisory 
group that helps set priorities, state, local, private, 
agriculture, so we work with those to come up with information 
and help them make their----
    Mr. Regula. It seems to me that is an enormously 
prospective problem, potable water and adequate supply.
    Mr. Bartholic. It is. And with increasing population, it is 
not getting any better. So that is why we are basically asking 
for a small increase. Our funding is about $5 million a year. 
We are asking for an increase of $1 million a year in the base 
budget programs. That would go to each of the institutes. And a 
half million a year at the national level.
    Mr. Regula. Do you share information?
    Mr. Bartholic. Absolutely. We have this national network.
    Mr. Regula. And you share with local governments and users.
    Mr. Bartholic. Right. And we are now--many of us are 
bringing together, integrating information over the World Wide 
Web, so that any township can--actually, you could get on your 
computer right now and find a map of your state, your county, 
and we are starting to put together more information, working 
with USDA, on soils information, discussing yesterday with USGS 
how we can use digital ortho photographs so anyone could look 
at a community. And so on.
    So, basically, we are requesting the one million increase 
for the base program, and then we have a national program of 
about half a million.
    The last statement I guess I would like to make is that we 
feel that the cooperation between the institutes and U.S. 
Geologic Survey is really at an all-time high, and that we can 
be a partner with them. And because we work so much----
    Mr. Regula. Are you happy with their work?
    Mr. Bartholic. Yes. And we think it needs to be 
strengthened. And I guess, if anything, we feel that somehow 
some of their work, which is strong science, is not always 
recognized in, the expansion of some of the scientific funding. 
But that is really critical as we try to do water research, and 
so on.
    Mr. Regula. Important topic.
    Any questions? Comments?
    Mr. Hinchey. Yes, if I may, Mr. Chairman.
    Mr. Regula. Go ahead. Sure.
    Mr. Hinchey. You talk about the 1964 Water Resources 
Research Act and the fact that it established water resource 
research and technology centers in every state. Is that still 
ongoing? And there is such a center in every state?
    Mr. Bartholic. That is correct. All 50 states and the 
District of Columbia, and the territories.
    Mr. Hinchey. And one of the responsibilities of this 
research organization is to examine the impacts on watersheds, 
particularly, I would imagine.
    Mr. Bartholic. We really think the watershed is a key way 
to integrate things. But then you have got farmers, you have 
got local units of government, you have got developers that all 
need information, so they can work in the water shed in a more 
sustainable way.
    Mr. Hinchey. Do you have any specific information you can 
give me on New York, on the New York City watershed?
    Mr. Bartholic. No. Truthfully, the red light is on. But 
that watershed project I think is an example, and Cornell 
Institute is working on that. But I think what--basically, by 
working in the watershed, New York has saved potentially 
billions of dollars by reducing nutrients, sediment, and other 
things, so they did not have to put in a very expensive 
infiltration plant in that area.
    Mr. Hinchey. Well, that is really an open question. That 
has not been determined yet.
    Mr. Bartholic. Okay. Okay.
    Mr. Hinchey. By any means. Because some of the activities 
in the watershed there mitigate toward the establishment of a 
very expensive filtration plant, as a matter of fact. That is 
why I am asking you if you have any specific information with 
regard to the watershed.
    Mr. Bartholic. I will check with our Cornell Institute 
there and get you some specific information.
    Mr. Hinchey. Oh. It is at Cornell?
    Mr. Bartholic. Yes.
    Mr. Hinchey. Yes. Okay. Thank you.
    Mr. Regula. Thank you very much. This is really an 
important topic.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                                  NEH


                                WITNESS

STEPHEN GREENBLATT, THE NATIONAL HUMANITIES ALLIANCE
    Mr. Regula. Federation of State Humanities Councils. Mr. 
Greenblatt.
    Mr. Greenblatt. It is the National Humanities Alliance.
    Mr. Regula. Oh. I am sorry. Yes, I did not read it 
correctly.
    Mr. Greenblatt. Thank you. Looks ominous. [Laughter.]
    Mr. Chairman, members of the committee, I am Stephen 
Greenblatt. I am Professor of English and American Literature 
at Harvard University. I am a member of the Executive Council 
of the Modern Language Association, and I am on the Board of 
Directors of the American Council of Learned Societies.
    My own career as a scholar was launched some 30 years ago 
when I had a National Endowment for the Humanities fellowship 
for younger humanists--the term, unfortunately, is no longer 
applicable--enabling me to finish a book on Sir Walter Raleigh. 
And since that time, I have written and edited some dozen 
books, principally on Shakespeare and Renaissance literature.
    I am currently serving as the Associate General Editor of 
the Norton Anthology of English Literature, which is a textbook 
that serves in a large number of American high schools and 
colleges and universities as the principal introduction to the 
splendors of English literature from Beowulf to Late Last 
Night.
    I want to present the two hefty volumes, 6,000 pages of it, 
of the Norton Anthology, to you, Chairman Regula, along with a 
recent edition that I did of Shakespeare's complete works.
    Mr. Regula. Would each of you would like to read these and 
report to the committee? [Laughter.]
    Mr. Greenblatt. There will be a test at the end of the----
    Mr. Moran. Could you read that and summarize it for us? 
[Laughter.]
    Mr. Regula. No. I think that is a minority----
    [Laughter.]
    Mr. Greenblatt. You can use them to prop open a door if you 
need it. I would love it if you would look at them.
    Mr. Dicks. Is there still a fellowship program?
    Mr. Greenblatt. There is a fellowship program, much reduced 
because of the cuts in the 1996 budget. But it does exist.
    I represent the National Humanities Alliance today and its 
membership of 85 scholarly and professional organizations, 
associations, and museums, and libraries, historical societies, 
educational and state councils, research centers, and other 
organizations.
    As you know, the President is proposing an overall budget 
for the NEH in the next fiscal year of $150 million, which is 
an increase of $34.7 million over the present fiscal year. And 
even we who are humanists and not economists understand that a 
23 percent increase in a single fiscal year is a substantial 
one.
    But we want you to take into consideration, if you would, 
the context of the request, which is that adjusting for the 
inflation and cost of living increases, the funding level that 
is called for in this current budget is actually far short of 
what the NEH's funding was before the very severe budget cuts 
of 1996.
    And when those cuts occurred, all kinds of valuable 
programs that we believe were of great service to the American 
people had to be terminated. Others were thrown into disarray, 
and the whole project of national funding for the humanities 
was called into question.
    Samuel Johnson remarked at the prospect of hanging, 
concentrates a man's mind wonderfully, and the humanists have 
had their minds concentrated something fierce in the last few 
years, and we do not need more concentration. [Laughter.]
    Our budget request now calls for a rebuilding of programs 
for some new focused initiatives and some pump priming funds 
aimed at increasing the flow of private money to support the 
humanities.
    I want to speak briefly about one of the humanities 
programs with which I am directly involved. For more than three 
decades, I have had the privilege of teaching at two great 
universities, a great private and one a great public one--
Harvard and the University of California at Berkeley.
    The institutions are among the national treasures, and are 
fittingly places to which talented students and scholars come 
from all over the world. But I want to testify today that for 
me personally, though I take great delight in my brilliant 
students, the most remarkable, thoroughly rewarding teaching 
and learning experiences I have had have been the NEH funded 
summer seminars for high school teachers, college teachers, 
that I directed.
    As you know, these seminars are for ambitious people who 
tend to be at schools without much in the way of support for 
teaching--for research, rather, that have relatively low access 
to research materials as well as funding, very little time, 
have heavy teaching loads, and they are craving a return, 
renewal, and refreshing of what drew them to the profession in 
the first place. And the NEH summer seminars give them this 
access.
    Mr. Regula. NEH funds the instruction, but not the cost of 
being there?
    Mr. Greenblatt. It funds a small amount of money to the 
individual teachers so they can support themselves. It is a 
very modest sum--in the summer--to enable them to come for it--
to places like--to places with great research facilities.
    Mr. Regula. And they apply for this.
    Mr. Greenblatt. They apply for it. It is highly 
competitive. And they come and study with people for a summer, 
using these resources that they do not otherwise have. And when 
they leave, there usually is a spate--first of all, there is a 
huge spate of letters of recommendation one writes.
    But quite apart from that, there is a spate of books and 
articles, and then a remarkable effect on teaching, so that it 
is not simply that it--that you have helped people return to 
the passion that brought them to the profession, but you 
actually reinvigorate the classrooms. So that it affects not 
simply the--in the case of 15 students, 15 seminar members, let 
us say, in a seminar, but actually hundreds and thousands and 
eventually tens of thousands of people outside beyond this 
program. It has been extremely successful.
    My NEH summer seminars were on Shakespeare. But the 
question is why American tax dollars should go to support 
someone who died in 1616 and never came to our country, or, for 
that matter, Dante or Cervantes or Jane Austen or Tolstoy. And 
the answer is that they, along with Walt Whitman and Melville 
and Faulkner and Toni Morrison, are essential figures in the 
culture. They transmit the values that we care about. They 
contribute to the pursuit of happiness that we take to be our 
national birthright.
    And if that happiness is to be something other than 
strictly based on material culture and dollars and cents, then 
we have to have support for the humanities. And NEH funding is 
a sign that you, our representatives, take seriously. The 
strengthening of the humanities is in our national interest.
    I do not have to tell you----
    Mr. Dicks. Well, we agree with you on this side of the 
aisle.
    Mr. Greenblatt. Thank you. I hope that you do. [Laughter.]
    Mr. Moran. The Chairman does, too. I am not sure everybody 
over there might not, but the Chairman does. [Laughter.]
    Mr. Regula. It is getting partisan here, so I think we had 
better stop. [Laughter.]
    Thank you very much. We are out of time.
    Mr. Greenblatt. Okay. Thank you very much, gentlemen.
    Mr. Hinchey. I want to thank you, too. I still have my 
first copy of the Norton Anthology, and, in fact, I have 
several editions. But I have noticed that they have gotten an 
awful lot thicker, so maybe----
    [Laughter.]
    Mr. Greenblatt. They are a little hard to read comfortably 
under a tree any longer.
    Mr. Hinchey. Yes. [Laughter.]
    Thank you.
    Mr. Greenblatt. Great. Thank you.
    Mr. Regula. That is the effect of creating NEH.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Thursday, April 6, 2000.

                                  NEH


                                WITNESS

JACK FARIS, FEDERATION OF STATE HUMANITIES COUNCILS
    Mr. Regula. Next is the Federation of State Humanities 
Councils.
    Mr. Faris. Good morning.
    Mr. Regula. You are part of the Bill and Melinda Gates 
Foundation, is that correct?
    Mr. Faris. That is correct.
    Mr. Regula. Bill was here yesterday.
    Mr. Faris. That is correct. I read about that.
    Mr. Dicks. Yes, we had a good meeting with him.
    Mr. Regula. And, of course, Mr. Dicks is one of--well, he 
is one of Mr. Dicks' constituents.
    Mr. Dicks. Right. Exactly. From the State of Washington. 
Good man.
    Mr. Faris. It is a pleasure to be here.
    Mr. Dicks. His father was from Bremerton.
    Mr. Faris. That is right. It is a great family.
    Mr. Chairman, members of the subcommittee, thank you for 
the opportunity to speak on behalf of the humanities. My name 
is Jack Faris. I have for the past year served with the Bill 
and Linda Gates Foundation. I have just accepted a position 
with the University of Washington, and I am here as a board 
member of the Washington Commission for the Humanities to 
second the advocacy of my predecessor here, and to advocate 
funding in the amount of $38.32 million for the state 
humanities councils and $150 million for the NEH.
    In speaking on behalf of the NEH, I am also speaking on 
behalf of our fellow citizens. I would like to take this 
opportunity, on behalf of our fellow citizens, to thank you for 
your public service. I think it is a wonderful thing that we 
are joined today by some young people in the room, and it is a 
great thing for them to see that this is, in fact, a----
    Mr. Regula. They are going to perform for us.
    Mr. Faris. That is good. That will be excellent. This is a 
government of the people, by the people, and for the people.
    And thinking about the importance of the humanities, the 
words of Lincoln also appear in a speech that he made in 1858, 
in which I think he addresses the importance of the non-
material. He said, ``What constitutes the bulwark of our own 
liberty and independence, it is not only our founding 
battlements, our bristling seacoast, the guns of our war 
steamers, or the strength of our gallant and disciplined army; 
our defense is in the preservation of the spirit which prizes 
liberty as the heritage of all men in all lands everywhere.''
    The importance of the humanities is timeless, and I think 
today more than ever before our society is experiencing forces 
of technological change which bring many benefits but also 
threaten to pull us apart and increase the distance from one 
another.
    This year, in conjunction with the Smithsonian Institution 
Traveling Exhibition Service and the National Trust for 
Historic Preservation, the Washington Commission for the 
Humanities, along with states humanities councils in Delaware, 
Kansas, Michigan, South Dakota, and Tennessee, will bring a 
traveling exhibition called ``Barn Again'' to communities 
across our state and these other states. This is the 
magnificent poster, which demonstrates the power of this 
American icon. And it is a pleasure to see that your wonderful 
wall coverings here also include----
    Mr. Regula. Yes, I am a farmer and I have a barn, so I 
would like to have this. [Laughter.]
    Mr. Faris. You will very much enjoy learning about the 
history of the architecture and the agricultural uses of----
    Mr. Regula. They came to my area.
    Mr. Faris. Very good. It is a terrific example of the 
public humanities. It is also a wonderful symbol----
    Mr. Regula. For you farmers, I will pass the poster down. 
[Laughter.]
    Mr. Faris. The barn is a wonderful symbol for the role of 
humanities in our lives. As you know, the raising of a barn is 
the epitomization of cooperative activity. And once raised, 
barns have served as a focus for community life with dances and 
many other activities.
    Mr. Regula. We have the Amish in my district. And when 
their barn burns down, they all come together. They do not have 
insurance, so when a barn burns down on an Amish farm the whole 
community comes out and rebuilds it. It looks like an ant hill, 
and I say that in a complimentary way. In about one or two days 
they have built a new barn. It is remarkable.
    Mr. Faris. Well, my proposition to you, sirs, is that a 
barn--the barn raising is, in fact, a wonderful metaphor for 
the role of humanities in our communities. There are many 
elements of what the state councils support that are barn 
raising-like in their ability to strength our communities in a 
time of rapid change.
    There are many programs that reach geographically isolated 
audiences in New York, in Washington State, and others. 
Speakers' bureaus are specifically designed to help bring 
interesting and important programming to rural communities. The 
Kentucky Humanities Council, Chautauqua, has reached every 
single one of the state's 120 counties in which 90 percent of 
the communities have populations of less than a thousand 
people.
    The Virginia council supports rural community grants to 
support public forums, county studies, and educational 
programs. There are also many programs that serve especially 
underserved groups. The Minnesota Humanities Council, for 
example, is translating 20 children's books into the Hmong 
language, which provides a crucial bridge to literacy for adult 
immigrants.
    In Washington State, we are expanding our Clemente course, 
an extraordinary college-level course in the humanities, 
developed for adults living in poverty, in partnership with the 
University of Washington and El Centro de la Raza. Also, 
Alaska, Illinois, New Jersey, Florida are supporting Clemente 
courses, and Oregon is planning one.
    In Hawaii, California, Alabama, Virginia, Minnesota, North 
Carolina, Utah, Washington, and the Virgin Islands, a 
remarkable program called Motheread/Fatheread is strengthening 
the ability of parents to help their children become successful 
readers. The program reaches children when they are most likely 
to have long-term benefit during the years of two to 11. Even 
the six-week course significantly increases the amount of time 
parents spend reading with their children.
    There are also important programs already mentioned that 
support K-12 education. The Georgia Council's Center for 
Character Education, for example, provides character education 
and training for K-12 teachers.
    Time does not permit a full elaboration of all of the 
importance of the programs of the State Humanities Council. 
They are all done in partnership with the National Endowment 
for Humanities funding, supported by complementary funding from 
other private sources, including the Bill and Linda Gates 
Foundation in the case of Washington.
    By funding the humanities, you, as representatives of this 
wonderfully diverse society, are participating in a very 
special form of barn raising. You are investing in America that 
can understand, appreciates its past, and work together for its 
future.
    Thank you very much.
    Mr. Dicks. Let me just ask you, do you think we are doing 
enough for humanities? Should we be putting in a higher level 
in the budget?
    Mr. Faris. Absolutely, I would advocate for the highest you 
can find room to do. I know you have----
    Mr. Dicks. That is a surprise. [Laughter.]
    Mr. Faris. You have competing priorities, but our society 
needs, as I indicated before, things that build humanity and 
build confidence in our society more than any time I think in 
our previous history. And these programs are extremely 
efficient and effective at doing that.
    Mr. Dicks. All about values.
    Mr. Faris. All about values.
    Mr. Dicks. Thank you.
    Mr. Faris. Thank you.
    Mr. Regula. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                              IMLS/NEH/NEA


                                WITNESS

EDWARD H. ABLE, JR., PRESIDENT AND CEO, AMERICAN ASSOCIATION OF MUSEUMS
    Mr. Regula. American Association of Museums, Mr. Able.
    Mr. Able. Good morning, Mr. Regula.
    Mr. Regula. Good morning.
    Mr. Able. Chairman Regula, Mr. Dicks, Mr. Moran, Mr. 
Hinchey, members of the subcommittee, thanks for the 
opportunity to be here this morning to speak on behalf of the 
fiscal year 2001 budget request for the Institute of the Museum 
and Library Services, National Endowment for the Humanities, 
National Endowment for the Arts.
    Mr. Chairman, I request my full statement be included in 
the record.
    Mr. Regula. Without objection.
    Mr. Able. For almost 35 years, the federal cultural 
agencies have provided invaluable financial support of museums 
of every kind as they pursue their educational mission for the 
public. While that support has declined significantly during 
the recent era of tight fiscal discipline, it has never 
faulted.
    Some might argue that we are, however, approaching the 
point of marginal utility. We have heard from a variety of 
museums that despite their needs for operating funds, they are 
no longer applying for IMLS general operating support grants 
because the demand has become so great relative to the funding 
available.
    I strongly urge you to help reverse this trend by 
increasing funding for the Office of Museum Services within 
IMLS to $40 million for fiscal year 2001. This increase would 
accommodate both the President's budget request for $9.07 
million for new technology and leadership initiatives--a 
subject I will speak about later--and the museum community's 
request for $7.38 million or a much-needed and long overdue 
boost for core programs such as general operating support.
    In addition, I want to encourage the committee to fund the 
NEA and the NEH at the levels requested in the President's 
budget of $150 million each.
    Since my time is limited, I will simply mention the 
critical support the NEA and NEH provide museums but focus on 
the importance to museums of the general operating support 
grants of IMLS. The main reason for establishing the OMS--and I 
quote from the legislation--``to ease the financial burden 
borne by museums as a result of their increasing use by the 
public.'' This has never been more true than today.
    Ninety percent of museums believe that funding to meet 
basic commitments is a critical need for the coming years, with 
70 percent ranking this issue first among their needs. This is, 
quite frankly, a result of the increased attendance at 
America's museums to a level of 850 million visits a year. Yet 
while the need has increased, OMS has shrunk.
    Funding has dropped dramatically since fiscal year 1995 
when it was $28.7 million to today's level of $24.4 million. 
This has meant that the general operating support program was 
able to fund only 19 percent of applications in fiscal year 
1999, down from 20 percent in fiscal year 1998 and 26 percent 
in fiscal year 1995, despite outside peer reviewers determining 
that 59 percent of the applications were worthy of funding.
    It has been estimated that funding all of the recommended 
applications would cost nearly $65 million, which means that 
$40 million we are requesting is modest relative to the overall 
size of the federal budget and the demonstrated need.
    While GOS cannot be used for construction or renovation, 
museums are free to use the money where each institution 
determines it is most needed. An analysis of the GOS reports 
done within the last three years by IMLS show that 94 percent 
of the grantees said that the grant was used in whole or in 
part to improve their education programs. Education has long 
been central to the work of museums, but in recent years it has 
moved to the forefront of their public service mission as we 
all strive to better educate our youth.
    In 1992, AAM issued a landmark policy report entitled 
Excellence and Equity: Education and the Public Dimension of 
Museums, reaffirming the museums' role in the education 
enterprise.
    Five years later, in 1997, IMLS reinformed the importance 
of the museum education when it published True Needs, True 
Partners, profiling museum school partnerships and the result 
of a museum survey highlighting the full range of educational 
activities that museums offer to the nation's schools.
    For example, 88 percent of the U.S. museums provide K 
through 12 programming, spending at least $193 million 
annually. The typical museum provides between 100 and 223 
instructional hours to students each year.
    However, unless a museum has a strong infrastructure, it 
cannot fulfill its educational potential in a way that ensures 
broad public access and benefit. Let me share just one example, 
and, Mr. Regula, I hope you do not mind if I use your district. 
[Laughter.]
    Akron Zoo, Akron, in the words of the zoo director, GOS 
provides tremendous support for this institution, allowing it 
to fund projects ``we could not even think of doing without 
that support.'' GOS has allowed it to upgrade its computer 
systems for membership management, provide interactive 
educational programs on zoo grounds, and put together a 
promotions package which led to an increase in attendance of 
over 36,000 to a total of 146,000 in a six-month period, their 
largest ever.
    Thirty-one percent of that increase came from adjoining 
counties, and 12 percent from your own county in Stark County, 
Mr. Regula.
    Family memberships grew by 400. In addition, 16 percent of 
adult attendees and 21 percent of the children come from 
outside the immediate area in Stark County. As far as 
educational outreach, the GOS has allowed the zoo mobile, where 
trained zoo staffers take three animals to schools to teach and 
discuss wildlife issues and conservation, to travel outside the 
home county and make many other visits.
    This is simply one example of how a small amount of money 
can be leveraged by these institutions. OMS provides enormous 
support to the museum community above and beyond general 
operating support, particularly in the area of technology, 
which I want to mention for a moment because of its tremendous 
importance to the future.
    Before the advent of the digital age, museums were only 
able to share their collections with the public in teaspoon 
amounts to onsite visitors. Now, however, museums are 
developing interactive exhibits and applying new technologies 
to increase their accessibility through the world wide web.
    We have made great strides in U.S. libraries in terms of 
information access and navigation. To be effective partners 
with our library colleagues, it is critical that we make the 
same advances for museum collections if we are to maximize 
their potential impact on the education of our youth.
    The President's budget calls for $7.136 million in the OMS 
national leadership grants for technology advancement for 
museums. We strongly support this request and urge the 
committee to fully fund this initiative, which will greatly 
facilitate museums' efforts to improve their technological 
base, greatly increase public access to their collections, and 
provide distance education programs.
    Let me say, in closing, that there can be no question about 
the importance of the Office of Museum Services. It has 
provided invaluable services to America's museums, and through 
them to the American people at a minor cost to taxpayers.
    The agencies had a tremendously positive impact and 
continue to have that impact with your help. I strongly urge 
you to support funding for the OMS within the IMLS at $40 
million, and funding for the National Endowment for the Arts, 
National Endowment for the Humanities, at the President's 
request level of $150 million each.
    I thank the committee for its time and the opportunity to 
submit testimony. And if you would like some more examples, I 
have one for each of the subcommittees. You probably figured 
that. [Laughter.]
    Mr. Regula. Thank you very much.
    Mr. Able. Thank you, sir.
    Mr. Hinchey. Mr. Able, thank you. Thank you very much, and 
I think that you are pointing out that during the last period 
of time--several years--that funding for the arts and 
humanities has not really kept pace. In fact, it has declined. 
But the situation we find ourselves in now does not provide any 
excuses to continue that decline. We have to really reverse 
that and go in the other direction.
    Mr. Able. I would hope not. But I must say in deference to 
the Chairman and the committee, we are well aware of the many 
worthy mouths that are fed out of this subcommittee budget. And 
we are only hopeful that we can all help get your mark increase 
so that you can feed all of those mouths a little better.
    Mr. Hinchey. Amen, brother. [Laughter.]
    Mr. Regula. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                                  NEA


                                WITNESS

JAN DENTON, AMERICAN ARTS ALLIANCE
    Mr. Regula. The next will be two together, the American 
Arts Alliance and OPERA America. All right. Here we go. Raise 
the curtain and----
    [Laughter.]
    We are going to have a performance here. Am I correct? Tell 
us about it.
    Ms. Denton. That is correct. Mr. Chairman, members, my name 
is Jan Denton. I am the Director of the American Arts Alliance. 
As you know, our Alliance is comprised of five service 
organizations which represent the not-for-profit art museum 
directors, dance, opera, theater, and presenting organizations, 
2,500 members strong.
    We are here today to ask you to approve a much needed 
increase for the National Endowment for the Arts, so that our 
organizations can more easily create, present, exhibit, and 
tour the best of American art to as many places in the country 
as possible.
    Before I turn this over to Congressman Moran to introduce 
our real witnesses today, let me just say that the 
demonstration you will see and hear is the result of just one 
education program by just one of our members, OPERA America, 
which works with schools on an interdisciplinary curriculum 
which integrates music with language, arts, science, and 
history.
    Congressman.
    Mr. Moran. Thank you. It is actually up to the Chairman to 
turn it over to Congressman Moran. [Laughter.]
    Mr. Regula. Thank you. You are on, Mr. Moran.
    Mr. Moran. Well, thanks very much, Mr. Chairman. We all 
know what you mean when you describe how exciting it is to 
serve on this subcommittee. And particularly with your role as 
Chair, we see such a varied breadth of talent, and that talent 
is present not just in the large auditoriums but throughout our 
school system and in our communities.
    And today we have Wes McCune, who is the music teacher at 
John Adams Elementary School in Alexandria, and his third 
graders--Ariel Ardura--I want you to raise your hand when--
Ariel? Thank you, Ariel. Zuri Cannon. Zuri? And Bryant Centeno 
Monroy, and--am I pronouncing that right, Bryant? Close enough. 
Close enough. [Laughter.]
    And James Collier. Mr. Collier.
    They are beneficiaries from NEA's funding. As you know, we 
fund opera companies across the country, and this is an opera 
that they are going to present to us that was written 
completely by their class. And we are going to hear just the 
finale of the original opera. It is called Rhidopis, and it is 
the Egyptian Cinderella.
    And I guess without further ado, maybe we can have the 
benefit of that work. Thank you.
    Mr. McCune. Although this is not as extensive as the Norton 
Anthology, we did bring you----
    [Laughter.]
    A copy of the complete score. The children did all of the 
writing, words and music. And this afternoon they would like to 
sing for you the final scene. The Pharaoh has successfully 
located the owner of the slipper, and this is the coronation 
wedding scene.
    [Presentation followed by applause.]
    Mr. Moran. This is where great talent starts. [Laughter.]
    We thank all of you.
    Mr. Regula. This was done with an NEA grant.
    Okay that was very nice. We are happy to have you young 
people here. Where is your school? Alexandria. Do you have a 
performance in the evening for your parents and the members of 
the community? One night or do you have a couple of nights? A 
couple of nights. Do you sell tickets? Well, you should. 
[Laughter.]
    These young people could be future opera singers. Thank you 
very much for bringing these young people here today. That is 
very persuasive evidence of the value of the NEA.
    Thank you, Jim.
    Mr. Moran. Yes. I am proud of my constituents.
    Mr. Regula. Okay. [Laughter.]
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                                  NEA


                                WITNESS

PETER DONNELLY, PRESIDENT OF CORPORATE COUNCIL FOR ARTS, AMERICANS FOR 
    THE ARTS
    Mr. Regula. Okay. We have the Americans for the Arts, Mr. 
Donnelly.
    Mr. Donnelly. Thank you, Mr. Chairman, committee members. I 
am from the theater, in my last life before I was running 
Americans for the Arts, and I learned a long time ago that you 
should never follow children or animals on stage, and this is 
really a dirty----
    [Laughter.]
    Mr. Regula. I think that was W.C. Fields who said that.
    Mr. Donnelly. If there is a way of my coming back tomorrow? 
I would like to reschedule. [Laughter.]
    Mr. Regula. They may help make your case, though.
    Mr. Donnelly. They do, indeed. I thank you for that. I feel 
confident because I am bracketed by two very distinguished 
colleagues from the northwest, Jack Faris of the William and 
Melinda Gates Foundation, and Michael Halleran of the 
University of Washington. We have come en masse today to prove 
to you what the arts do for the northwest and the impact that 
they have had.
    I am President of the Corporate Council for the Arts in the 
Seattle/Tacoma region of Washington and Vice Chairman of the 
Board of Directors of Americans for the Arts.
    While I am here representing communities from Washington, 
D.C. to the State of Washington in support of funding for the 
National Endowment for the Arts, I would like to focus today on 
how the arts have helped transform the Puget Sound region from 
a sleepy little seaport 35 years ago to a vibrant cultural 
destination in a region that is consistently considered one of 
the best in the country for the arts.
    It was really NEA money early on in the process in the mid 
'60s that primed the pump for public money in the northwest. It 
came before our local commissions, before the state, county, 
and the city commissions. When you think of the northwest, you 
think of excellence in many areas--Boeing for aircraft, 
Microsoft for software, Nordstrom for retailing, and Starbucks 
for coffee. We are also known, however, for the excellence of 
our arts organizations.
    All together, the Seattle/Tacoma area boasts some 200 
nonprofit cultural organizations. These include an 
internationally-acclaimed opera, symphony, ballet, art museum, 
theaters that routine produce work that travels to New York, as 
well as a rich tapestry of smaller organizations. They are 
dedicated to everything from the classics to the cutting edge.
    I can tell you firsthand that the NEA has played a 
strategic role in our community's cultural naissance. You can 
really trace what goes on in the northwest to about 1965, 
Seattle World's Fair and the coming alive of the NEA.
    You should know that the Corporate Council for the Arts 
raises private funds to regrant to cultural institutions within 
King and Pierce County. We do not receive NEA money. We receive 
no public money. Ours is a corporate board and it is corporate 
money and foundation money.
    But my board made up of corporate leaders is the most vocal 
advocate for public funding of the arts. Why? Because they know 
that the public and private funding partnerships are crucial to 
sustaining the arts in the Seattle/Tacoma area and every other 
area in this country.
    When you look at the Puget Sound region, we often think of 
the new wealth and may think a bit about how it is going to 
replace all other philanthropy. That is not the case now, nor 
will it be for some time to come, if ever, especially in that 
many of our young, high tech millionaires from our region come 
from backgrounds with very little history of philanthropy. And 
public money very often is the money that primes that interest.
    Even as the newly wealthy become philanthropic and step up 
to funding the arts, they cannot fill the role that the NEA has 
played and the Federal Government has played.
    I have heard unfounded criticism through the years of the 
arts being elitist. I find myself explaining and defending that 
all the time. Too often I think the critics are confusing 
elitism with excellence. We strive and reward excellence in 
sports, government, and business. We must, likewise, strive for 
and reward excellence in the arts and never confuse excellence 
with exclusivity.
    Wealthy people will always be able to afford the arts. When 
they pay top ticket prices, they actually help subsidize the 
less expensive seats. On top of this, most also donate to art 
groups, which helps make other ticket prices affordable or even 
free, making the arts more accessible to everybody.
    The Seattle region serves an annual audience of six million 
people. Of that number, nearly one-half million attended with 
discounted student tickets, and more than 100,000 seniors 
received substantial discounts. An additional 1.2 million of 
those tickets were free to students.
    Providing more access to the arts is our public purpose. 
Government support helps ensure it; additional funding would 
help expand it.
    Let me tell you now how the arts give back economically to 
our region. Ten years ago, downtown activities in Seattle and 
Tacoma were comparatively stagnant. Both political and business 
leaders looked to the arts to turn this situation around. That 
approach has worked.
    Cultural activity now generates $375 million in business 
sales and creates 16,000 annual jobs in our region. The arts in 
downtown Seattle attract up to 10,000 people a night to shows, 
exhibits, concerts, restaurants, and shops. In downtown Tacoma, 
the arts have brought people back to the safety of the streets 
at night. And when all three theaters in downtown Tacoma are 
operating, they create a welcome new phenomena--a traffic jam. 
[Laughter.]
    The NEA has done a phenomenal job in evaluating the impact 
of engaging youth at risk in after-school arts programs. We 
know that delinquent behavior decreases while academic 
performances and self-confidence skyrocket off the charts when 
they are involved in the arts. The NEA has recently recognized 
one of Mr. Dicks' favorite arts organizations--the Hilltop 
Artist and Residents in Tacoma, with a Coming Up Taller program 
for the groundbreaking work with youth.
    The NEA has also recently awarded arts education grants to 
such groups as the Seattle Children's Theatre, El Centro de la 
Raza, to expand outreach activities with schools and youth. In 
Spokane, the NEA grants make it possible for every fifth grader 
in the school system to attend two Spokane Symphony concerts.
    For fiscal year 2001, the NEA has requested an additional 
$50 million for its new Challenge America Program, which would 
specifically support more of these kinds of programs for youth 
across the nation. I encourage the committee to find the 
appropriate resources to meet that challenge. Thank you.
    Mr. Regula. Thank you.
    Mr. Dicks. I want to say, if the Chairman will yield----
    Mr. Regula. Surely.
    Mr. Dicks [continuing]. I want to congratulate you on your 
statement, and, also, the fact that the corporate community in 
the State of Washington has really stepped up to support the 
arts.
    And you are absolutely right--I can remember important 
challenge grants that we no longer can have because of 
decreased funding levels. These grants that helped stimulate 
the arts in the Seattle/King County area. And I want to 
congratulate you for your good work over the years, and just 
look forward to a day when we can do better for the endowments.
    Mr. Donnelly. From your mouth to God's ears, Congressman. 
[Laughter.]
    And I would like to also take this opportunity to thank 
you. You have been a good friend to the arts from the beginning 
of the national endowment on, and we are grateful for that.
    Mr. Dicks. Thank you very much.
    Mr. Donnelly. Thank you. You have a very lively arts 
community in Canton also. My colleague runs the cultural fund 
in that town, and they raise close to a million dollars a year 
on behalf of the arts. So that is good work.
    Mr. Regula. You do a great job, a lot of private support. 
And I think that is really the key to it. We are kind of the 
seed money.
    Mr. Donnelly. It is a partnership and it works.
    Mr. Regula. All right. Thank you very much.
    Mr. Donnelly. Thank you very much.
    Mr. Dicks. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                           Thursday, April 6, 2000.

                                  NEH


                                WITNESS

MICHAEL HALLERAN, DEAN OF HUMANITIES, U. OF WASHINGTON, ASSOCIATION OF 
    AMERICAN UNIVERSITIES
    Mr. Regula. Mr. Halleran? Dean of Humanities, University of 
Washington.
    Mr. Dicks. Big day for the University of Washington!
    Mr. Regula. Oh, you stacked the deck today, Norm. 
[Laughter.]
    Mr. Dicks. They did it without me even knowing it. 
[Laughter.]
    My alma mater.
    Mr. Regula. We are happy to welcome you.
    Mr. Halleran. Thank you very much, Mr. Chairman, and 
members of the subcommittee. I am Michael Halleran, the 
Division Dean of Arts and Humanities at the University of 
Washington. And it is my pleasure to appear before you today as 
part of this unexpected northwest contingent to testify in 
support of the fiscal year 2001 budget of $150 million for the 
National Endowment for the Humanities.
    I am testifying today on behalf of the Association of 
American Universities, the National Association of State 
Universities and Land Grant Colleges, and the American Council 
on Education. Through their combined memberships, these three 
organizations represent all of the public and private research 
universities in our country.
    These institutions are responsible for educating a large 
number of our undergraduate and graduate students, and conduct 
the bulk of our nation's basic research and scholarship.
    The humanities, as you well know, represent the endless 
attempt to understand our cultural world and our place in it. 
They encompass stories about our past and our present, and 
about the world of our imaginations. They form an ongoing 
dialogue about meaning and value. The humanities provide a 
framework for clear and critical thinking, an understanding and 
respect for history, and a knowledge and appreciation of 
diverse cultures. They are the subjects--literature, history, 
and philosophy--that have stood at the center of education for 
over 2,000 years.
    More than any other set of disciplines, the humanities 
embody the spirit of our civilization. We Americans are 
wondrously diverse. And our diversity is expressed, preserved, 
and understood in the humanities.
    The NEH, I will be very happy to say, has enjoyed strong 
bipartisan support throughout its 35-year history, and it has 
been the single most important source of support for humanistic 
endeavors in the United States. It makes possible a wide range 
of cultural endeavors that can only be achieved with the help 
and encouragement from our Federal Government. Community 
colleges, state colleges, small private institutions, and 
research universities all use NEH grants to preserve that 
national resource.
    Post-secondary institutions are in a fundamental and 
etymological sense conservative. That is, part of their mission 
is to conserve our culture. They conserve, interpret, and 
transmit it to the next generation of Americans.
    NEH investments also make a crucial difference on the 
nation's college and university's campuses in support of long-
term projects that might otherwise be lost. I would like to 
speak briefly about one specific example from my campus.
    In 1994, the British Library came into possession of 29 
very old and very fragile birch bark scrolls which seemed to 
have written on them some early form of Sanskrit, the ancient 
language of India. To assist them in interpreting it--they 
could not figure this out in England--they called upon one of 
the world's great experts, Richard Solomon, my colleague at the 
University of Washington.
    Dr. Solomon was able to determine that these were the 
oldest writings ever found dealing with Buddhism. In other 
words, these were of extraordinary importance for understanding 
the early stages of one of the world's major religions. Many 
have compared this new discovery to that of the Dead Sea 
Scrolls earlier in this century--those texts of early Christian 
writers that transformed our understanding of the formative 
stages of Christianity.
    As some of you may know, the Dead Sea Scrolls were 
embroiled in mystery and controversy, and for decades their 
contents were denied--people were denied access--scholars and 
laypersons alike. With the support of the NEH and other 
organizations, Dr. Solomon and his team of scholars at the 
University of Washington have been able to devote much of their 
time and energy to this fascinating and important project, and 
they are committed to the early and wide promulgation of their 
discoveries.
    The first volume of their work has already been published, 
and the second volume will appear later this year. Here, as is 
often the case, the NEH grant has attracted other funding; and, 
thus, the agency support has had a multiplying effect.
    Now, most of the NEH projects, however, touch closer to our 
own soil. Such projects include the preservation of the papers 
of George Washington, Frederick Douglass, and Mark Twain, and 
critical additions of our great philosophers--William James, 
Charles Peirce, George Santayana. Who in this room has not 
watched, perhaps several times, Ken Burns' wonderful 
documentary on the Civil War? This would not have been made 
without NEH support.
    The seminars and exhibitions on the Constitution, 
celebrating our nation's foundational document, also were made 
possible through NEH support.
    Another way in which NEH funding makes a critical 
difference is by fostering better teaching. The President of my 
university, Richard L. McCormick, has been a leader in moving 
universities toward playing a greater role in K-12 education. 
With our new leadership institution, under the direction of 
Rudy Crew, and many other smaller initiatives, the university 
is playing a greater role in the education of K-12 students.
    The NEH can help us and many other institutions fulfill 
this important part of our mission. We are very much 
appreciative of the subcommittee's long-standing bipartisan 
support for the NEH, and urge the subcommittee to support its 
$150 million fiscal year request.
    Thank you very much.
    Mr. Dicks. Thank you. I think that is an excellent 
statement and another very strong justification for the request 
the President has made for this important activity.
    Mr. Halleran. Thank you, Mr. Dicks.
    Mr. Regula. Thank you for coming.
    Mr. Hinchey. My compliments especially to Rudy Crew. Your 
gain has been our loss.
    Mr. Halleran. Thank you. I agree.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Regula. The committee will be in recess until 1:30.
                              ----------                              

                                           Thursday, April 6, 2000.

                   BACK BAY NATIONAL WILDLIFE REFUGE


                                WITNESS

MOLLY BROWN, FRIENDS OF BACK BAY
    Mr. Regula. The hearing will reconvene. We have got a long 
list here and the rules are five minutes per testimony. So we 
will start out with Molly Brown, President of the Friends of 
Back Bay.
    We are pleased to welcome you. Your statement will be put 
in the record. And just summarize for us.
    Ms. Brown. Very good. Good afternoon. I am Molly Brown from 
Virginia Beach, Virginia and I am President of Friends of Back 
Bay. We are a volunteer support group that has been working 
with the Fish and Wildlife Service to expand the Back Bay 
National Wildlife Refuge.
    With the help from Congress, we have been----
    Mr. Regula. Excuse me. Mr. Wamp is going to take the chair 
for a while.
    Mr. Wamp [presiding]. The chair has got to leave.
    Ms. Brown. Okay. Good afternoon, Mr. Wamp. I am Molly Brown 
from Virginia Beach, Virginia and I am President of Friends of 
Back Bay and we are an all volunteer group that has been 
working with the Fish and Wildlife Service on the expansion of 
the Back Bay National Wildlife Refuge. And with the help and 
support of Congress, our project is now 60 percent completed 
and we are thirtieth on the U.S. Fish and Wildlife flats list.
    If I can refer you to the map that is in the back of my 
testimony, you can actually see our project and how it has 
grown. The original Back Bay National Wildlife Refuge was 
established in 1938 is what you see in the bottom and the 
Atlantic Ocean in the blue area inside then is the Back Bay. 
Everything that you see in green is what has been completed, 
that is 60 percent that is completed. What you see in black is 
under signed options and what is in yellow is being negotiated 
and what you see in red is what we need money for and right now 
we have over 800 acres of willing sellers and so we are asking 
for $3.6 million for the Year 2001 and it is estimated that 
that will buy 351 acres. We have had lots of good things 
happening in Back Bay. The eagles, our first nesting eagles 
over the last 30 years, have nested now for the seventh year 
straight. We have opened a new environmental learning center 
and the local fifth graders did an essay contest on what the 
Back Bay National Wildlife Refuge means to me and one of their 
interesting comments was that fifth graders said that refuges 
were a place animals ruled and people just came to visit which 
we thought was interesting.
    We planted a time capsule that was buried and will be open 
in the Year 2020 so the children are excited because they will 
be able to bring their children back to see the opening.
    There is a farm that is adjacent and the local farmer 
volunteered on his own to plant local Virginia crops, corn and 
soybeans, cotton and peanuts so in addition to the children 
coming to learn about water quality and the importance of 
wetlands, they will also know the importance of Virginia crops 
and farming to Virginia.
    The water quality in Back Bay has been improved because 
there were two pig farms left, one has been purchased this year 
and hopefully one will be purchased with money that is 
appropriated for next year so this will again improve the water 
quality and they were also willing sellers.
    The threats to the Back Bay continue as Virginia Beach 
continues to grow. It is the largest, fastest growing city in 
Virginia, but a survey of 500 registered voters in the City of 
Virginia Beach, 86 percent favored the importance of protecting 
Back Bay.
    So we are asking Congress for the funding, $3.6 million to 
show a commitment to the willing sellers and also to keep our 
project moving forward.
    I would like to thank you and are there any questions?
    Mr. Wamp. Thank you, Molly. I want you to rest assured that 
the key people here, even though this table is not full, the 
key people here need to hear your request and need to have your 
testimony as we try to formulate our priorities for the coming 
year in a tight allocation. But this is great to know.
    As an aside, a guy that I graduated from high school with 
named Gordon Robertson, I do not know if he is down in Virginia 
Beach helping you or not, but I will just put it on the record 
that he needs to. That is Pat Robertson's son. I think he is 
still in that area. He is an attorney in private practice and 
if it is the same guy I used to know, he would be involved in 
something like this. So that is all I will say and I thank you 
very much for your testimony, Molly.
    Ms. Brown. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                               NPS & FWS


                                WITNESS

JUSTIN HAYES, AMERICAN RIVERS, ASSOCIATE DIRECTOR FOR PUBLIC POLICY
    Mr. Wamp. Next is American Rivers, Justin Hayes, Associate 
Director for Public Policy. Is that you, Justin?
    Mr. Hayes. Guilty as charged.
    Mr. Wamp. Welcome, sir.
    Mr. Hayes. Thank you very much. I would like to start, sir, 
by thanking you and your Committee very much. This Subcommittee 
is responsible for funding some of our nation's most important 
conservation programs and some of our most important 
conservation agencies, so I would like to thank you.
    Mr. Wamp. Great.
    Mr. Hayes. I would like to start by introducing you to a 
document that we put together every year. It is something 
called the River Budget and over 455 river conservation groups 
from across the country have supported the appropriations 
request that we are making through here. I am just going to 
highlight a couple of them that come through your Subcommittee 
though.
    One of them in particular is the Rivers, Trails and 
Conservation Assistant Program or the RTCA. We are making a 
recommendation that this program receive $12 million. This is a 
voluntary program that the Park Service administers where local 
communities approach them and ask for technical expertise and 
assistance in planning open space, parks, trails, river 
management corridors, that sort of thing. It is a great program 
and it yields a lot of benefit and it leverages that federal 
money with local money very well. So we hope that you will 
appropriate $12 million for that program.
    Another program that we are highlighting this year is the 
Partners for Fish and Wildlife, another excellent program. This 
one in the Fish and Wildlife Service leverages the federal 
money with private money and it works voluntarily with private 
landowners on their land, trying to restore and rehabilitate 
some of that very important wildlife habitat. As you know, 
private landowners play a very important role in restoring the 
health of our watersheds.
    I will just sort of show you a brief picture here of what a 
riparian area used to look like and when the Fish and Wildlife 
Service came in with this partners program and were able to 
bring federal money, they were able to work with the local 
landowner and restore the watershed here in the riparian area 
that resulted in much better water quality and fish habitat in 
the river.
    I would like to move on if I could to sort of a broad 
category, hydropower relicensing. We are requesting a total of 
$16.9 million spread through several agencies that are outlined 
here in my testimony, but as you know, private dams have to be 
relicensed periodically by the Federal Energy Regulatory 
Commission, or FERC. This is a long process and it is very 
important that the federal agencies be able to participate at 
all of the meetings that take place so that they can formulate 
conditions that licenses will then hopefully enact. There are 
going to be about 450 private dams coming up for licensing 
within the next 10 years. This represents a very large increase 
in the workload for the federal agencies and many of the 
agencies are not prepared to be able to participate 
substantively in these relicensings, so over the next several 
years we are going to need to be ramping up the appropriations 
for these agencies to participate in that.
    I would like to draw your attention also to one other item 
here from our river budget. It is the Wild and Scenic Rivers 
Program and the National Park Service. A lot of the wild and 
scenic rivers are on federal lands and those are managed and 
funded through different appropriations, but some of the rivers 
run through private lands and State lands. The Park Service has 
a program where they can help facilitate the management of 
those nationally designated wild and scenic rivers through 
nonfederal lands. A number of new rivers have been designated 
as wild and scenic. These are sort of called partnership rivers 
because they demonstrate a good partnership between the 
federal, State, local government and private land owners. With 
these new rivers being put into the wild and scenic river 
system, we need to be increasing that appropriation so those 
rivers can be managed appropriately.
    A couple of extra seconds here, I would like to bring up 
two items that are not in our river budget, but I think they 
are very important. I would like to mention them. One of them 
is the National Forest Service's Watershed Research Program. We 
are recommending that this receive an appropriation this year 
of $15.5 million. The Watershed Research Program is very 
important. It provides good scientific information for federal 
managers as they manage our resources and our watersheds. With 
that good science that they are pulling together, we are able 
to manage our watersheds better and there has been a lot of hit 
and miss stuff that has taken place over the years and it is 
important that we be developing and implementing good science 
to govern our actions.
    So with that I would like to thank you very much for your 
time and hope that you will fund these programs through the 
amounts that we have requested. They are relatively small 
programs, but they reach in almost every State across the 
country. RTCA has participants from over 45 States, Partners 
for Fish and Wildlife has over 2200 private landowners that are 
participating in it from all across the country. Because they 
are so diffuse though they kind of go under the radar screen 
for a lot of Members of Congress. They are not the big ticket 
items that a lot of people are clamoring for in their back 
yard, but these do provide very valuable benefits across the 
United States, restoring hundreds of miles of river annually 
and protecting and helping to manage tens of thousands of acres 
of land.
    Mr. Wamp. I toured the Conosaga River in my district with 
Fish and Wildlife and know that their voluntary efforts are 
really paying off and that that beats the heck out of the 
regulatory hammer. I also will go down May 6th, subject to 
water being in the river, the Obid Wild and Scenic River in my 
district and we will go through actually some private and State 
held lands as we go down that river. The only other thing I 
would ask is about the National Forest Service Watershed 
Research Program. U.S. Geological Survey really has the water 
guys here at this Subcommittee. Do they coordinate with USGS 
with whatever the Forest Service is doing on water research, 
water quality?
    Mr. Hayes. It is my understanding that the USGS program is 
primarily a monitoring and data collection and the Forest 
Service program actually sets up experiments in the watershed 
so for instance, I know of several projects where they are 
looking at recently burned areas and they are trying to decide 
what is the best use of federal money to rehabilitate a burned 
area.
    Mr. Wamp. Which is what the Tennessee Valley Authority is 
probably doing with water quality in my district, but it is 
what the Forest Service might do in other districts.
    Mr. Hayes. Exactly.
    Mr. Wamp. Thanks for your testimony. What you are doing is 
advocating for some very necessary programs and I thank you for 
your testimony today.
    Mr. Hayes. Thank you, I appreciate it.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                  LWCF/NATIONAL WILDLIFE REFUGE SYSTEM


                                WITNESS

DANIEL P. BEARD, NATIONAL AUDUBON SOCIETY, SENIOR VICE PRESIDENT FOR 
    PUBLIC POLICY
    Mr. Wamp. National Audubon Society, Daniel Beard, Senior 
Vice President for Public Policy.
    Good afternoon, Mr. Beard.
    Mr. Beard. Good afternoon, how are you?
    Mr. Wamp. Thank you for being here in a timely manner. I am 
great. Welcome.
    Mr. Beard. Thank you very much. It is good to be here. I 
guess I really wanted to start by thanking you on behalf of the 
million members and supports of National Audubon Society for 
the opportunity to testify. We come up every year and give you 
our views and amazingly we have had a pretty good batting 
percentage.
    The one thing I wanted to emphasize with you and the other 
Members of the Committee is one of the most difficult struggles 
you have had over the last few years have been riders that have 
been offered up primarily by the Senate.
    Mr. Wamp. Thanks for recognizing that, thank you, sir.
    Mr. Beard. Yes, I do. This Subcommittee has done a 
tremendous job of beating back the ever present desire on the 
part of many people to put in a rider on anything under the 
sun.
    Mr. Wamp. Right.
    Mr. Beard. The Congress has procedures to be able to take 
up each one of those issues and the Appropriations Bill is, in 
our view, not the right place to do that. So we would urge you 
to continue your leadership and to work with the leadership to 
try to resist the opportunity of the Senate to do that. And it 
has been the most difficult thing you have done. In particular, 
there will be efforts to add writers to the Forest Service to 
deal with the Roadless Initiative which we think is very 
important that President Clinton has underway. There is a draft 
environmental impact statement. Millions of people are 
commenting, hundreds of hearings taking place. There will be an 
effort on people's part to add a rider and we would urge you to 
resist that.
    I want to also thank the Committee for their leadership on 
the Everglades. The Everglades restoration is one of the 
highest priorities we have as an organization. It is a fabulous 
ecosystem and we could not do the job if this Committee had not 
provided the kind of leadership that it has. You held an 
oversight hearing yesterday and we urge you to keep people's 
feet to the fire, particularly the State to make sure that they 
meet their commitments. The State has been very good. Governor 
Bush has done a tremendous job of making the Everglades a high 
priority and we will continue through our State office there to 
urge him to do so. But he has done an excellent job. He has 
come to Washington. He has testified. But this Committee has 
served a key role particularly Mr. Regula has made it his work 
to make sure that keeps the pressure on. And it has helped a 
great deal. We have been here in the past on our National 
Wildlife Refuge System and urged, along with other 
organizations, through the CARE group for additional funding 
for the operation of the system. We believe this is very 
important. There is a broad based coalition that supports it. 
This Committee has been in a leadership role on it and we would 
urge your support.
    There are just three smaller items, but they are important 
that I really want to highlight for you. The first is the 
National Fish and Wildlife Foundation. The Administration has 
requested $7 million. We believe $8 million is a more 
appropriate figure. This is an interesting organization that 
pulls together both private and public funds to undertake an 
issue. This is the way in which people can contribute money for 
projects that are undertaken by the federal government through 
the Foundation. It is a quasi-public body. We have managed to 
leverage a small amount of federal funds and address a wide 
range of problems. There is $8 million in the Fish and Wildlife 
Service, $2.7 and $2 million respectively in the Forest Service 
and BLM requested for the Foundation. There is a small program 
that Audubon is the fiscal agent for. It is called the Chicago 
Wilderness Program. It is very important to Mr. Porter, Mr. 
Yates, who used to be on this Committee and others. But it is a 
way in which a small amount of money is used by over 107 
organizations in the Chicago Metropolitan Area to reach 
suburban and inner city kids and introduce them to both State 
and private lands that are around Chicago and give them a 
wilderness experience.
    Finally, is the North American Wetland Conservation 
Council. This is an excellent organization which has funded a 
large number of wetland restoration projects, many of which 
are, in your part of the world and in Tennessee, Mississippi 
and the Delta, actually it has funded projects all over the 
United States. For every federal dollar we invest in that, we 
get $2.50 in matching funds from public and private sources, 
organizations like DU, Audubon, State agencies, private 
foundations and even individuals have contributed. It is an 
excellent way to undertake wildlife restoration and habitat 
restoration primarily for waterfowl, but to improve our 
wetlands.
    The important thing I want to stress is that this Committee 
took a leadership role in isolating, or encouraging the 
Commission to initiate a small grants program and that is $1 
million. Of the money that came to us we have used for small 
grants. I would urge you since we are doubling, the 
Administration has requested a doubling of the appropriation, I 
would urge that we double that requirement to $2 million. We 
are leaving projects on the table now. These are private funds 
that we have available to us and we would urge you to do so.
    Mr. Wamp. Mr. Beard, excellent testimony, well articulated. 
And we like to say at this Subcommittee that we fund the good 
guys, so as you appear before us today, know that you are one 
of those good guys and keep up the good work. Your testimony is 
concise and we appreciate the contribution.
    Mr. Beard. Thank you, Mr. Wamp.
    Mr. Wamp. Thank you, sir.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                  LWCF/NATIONAL WILDLIFE REFUGE SYSTEM


                                WITNESS

WAYNE PACELLE, THE HUMANE SOCIETY OF THE UNITED STATES, SENIOR V.P. FOR 
    COMMUNICATIONS & GOVERNMENT AFFAIRS
    Mr. Wamp. The Humane Society of the United States, Wayne 
Pacelle.
    Mr. Pacelle. Yes.
    Mr. Wamp. Senior Vice President for Communications and 
Government Affairs. Good afternoon, Wayne.
    Mr. Pacelle. Thank you, Representative Wamp. I am here, as 
you noted, on behalf of The Human Society of the U.S. and our 
7.3 million members and constituents. One of every 50 Americans 
is a supporter of The Humane Society of the U.S.
    And just very quickly, I wanted to voice a word support for 
the Administration request for Law Enforcement Division of the 
Fish and Wildlife Service at $12.6 million increase. These 
agents are really doing such yeoman's work and they have so 
many difficulties in conducting their work and there are so few 
individuals out there to protect so much of our country and so 
many of our natural resources. So I wanted to put in a word 
about that and also we support the Administration's request for 
$1 million for each of the three conservation acts dealing with 
rhinos, tigers and elephants.
    I wanted to spend a little bit of time on the issue of 
trapping on national wildlife refuges and you, Representative 
Wamp, supported your colleague's Sam Farr's amendment to 
restrict the use of inhumane and indiscriminate traps on 
national wildlife refuges and it passed pretty overwhelmingly 
in the House last year, but it was defeated in the Senate and 
it was not included in the conference report. There was, I 
think, a bit of misinformation about this as it moved to the 
conference committee. We did get a letter from the Interior 
Secretary and then also one from Fish and Wildlife Service 
Director Clark.
    Mr. Wamp. You are not accusing Don Young of misinformation, 
are you?
    Mr. Pacelle. I would never. No, certainly not. I only 
accuse him of having high blood pressure when this is 
discussed. That is it.
    And the amendment was really narrowly crafted to deal with 
the use of particular traps and this is one. Traps come in 
different sizes. They are like shoes. So a small trap would be 
for a smaller animal like a fox or a mink. This would be a very 
large trap for the larger animals like a wolf and I was advised 
not to set this because if I did set it and caught my finger, 
it would probably cut my finger off, if not severely do damage 
to it. So I am not going to set this for you, but suffice it to 
say that if I were to set it and I could set it, it would be a 
dramatic demonstration of what damage these traps do to 
creatures.
    I do not consider this a sportsman's caucus issue. I do not 
think it is much of a sport to set out a trap and leave it and 
wait for some animal to come and get caught. That is like 
setting land mines out. It is not a sport. It is one thing if 
you are tracking an animal in the woods and exhibiting some 
woodsmanship. It is another thing to set something out and 
leave it and then have an animal languish in a trap for 12 or 
24 or 48 hours as the animal twists of his leg or her leg or 
chews at the leg, breaks teeth and injures the jaw in the 
process of trying to escape the vise grip of this trap. So we 
would like to see the Subcommittee take some action on this. We 
think it is inappropriate for federal tax dollars to be spent 
to promote the use of inhumane traps on the one category of 
lands that have been set aside specifically to protect 
wildlife. These are called wildlife refuges. It is absolutely 
counter intuitive to suggest that we would have commercial and 
recreational trapping with these barbaric devices banned in 89 
nations throughout the world because they are so inhumane. They 
are declared inhumane by the American Veterinary Medical 
Association, the American Animal Hospital Association, the 
World Veterinary Organization, to have these on refuges. It 
makes absolutely no sense. We did some polling work on this 
indicating that 85 plus percent of Americans want these devices 
severely restricted on national wildlife refuges. The House 
agreed with us. We hope the House continues to agree with us. 
We have to do some work in the Senate, but I did want to raise 
it and I also wanted to thank you, Representative Wamp for your 
support last year on this.
    Finally, I want to say just a word about animal control 
initiatives on Native Reservations. We worked with 
Representative Dicks' staff on this and others. Reservations 
have a very significant animal control problem. Dog bites are 
epidemic on these Reservations. Dog bites, in general, are a 
major public health problem; 4.7 million dog bites a year with 
many individuals killed as a consequence of these bites. Animal 
control on Reservations is almost nonexistent. We have, with 
our own resources, from the Humane Society, gone to many 
Reservations across the country and this year in 2000, we are 
going to Reservations in Montana, North Dakota, South Dakota, 
California, Washington, Alaska, Oregon, Idaho, New Mexico, 
Arizona, Colorado and Utah and providing private assistance to 
Reservations to help deal with public health and safety issues. 
But we do believe that some federal funding is important to 
augment these efforts, so we are requesting $750,000 which is 
detailed in the testimony that I have provided.
    Mr. Wamp. Well, be assured that the Chairman and our 
Ranking Member have a great working relationship and that 
anything you work with the Dicks staff on the Majority is going 
to know about it and we do things here in a bipartisan way, 
whether it is Native Reservation issues or others. I will say 
in closing I was glad the day that I voted for the Farr 
Amendment, but I am even more pleased today, since you are 
here, that I was on the right side of that issue. Thank you for 
your testimony and I think it has contributed greatly.
    Mr. Pacelle. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                  LWCF/NATIONAL WILDLIFE REFUGE SYSTEM


                                WITNESS

CHRISTINE STEVENS, SECRETARY OF THE SOCIETY, SOCIETY FOR ANIMAL 
    PROTECTIVE LEGISLATION,
    Mr. Wamp. Next is the Society for Animal Protective 
Legislation, Christine Stevens.
    Good afternoon, Christine.
    Ms. Stevens. Good afternoon. I have been here many a time.
    Mr. Wamp. How are you? Many a time, well, you still have a 
pleasant look on your face.
    Ms. Stevens. Oh yes, I am always hopeful.
    Mr. Wamp. Good, thank you. Welcome.
    Ms. Stevens. Well, what I would like to say, Mr. Chairman, 
and I want to congratulate you too for voting right.
    Mr. Wamp. Thank you.
    Ms. Stevens. And I will be mentioning trapping as I go 
along, but the way I want to start is to thank, I am glad that 
the budget at least has gone up $12.6 million, but it should go 
up twice that much. In reality, maybe you ought to go up three 
times that much and then it would be safe for these special 
agents to remain and be doing their work for the next two 
years. We cannot be sure if we do not get started right now 
because actually there are quite a few special agents taking 
early retirement and that is a very dangerous thing because as 
you can see it is terribly valuable for the whole world to have 
something like the law enforcement division of the U.S. Fish 
and Wildlife Service. There is nothing like it in the whole, 
wide world.
    Now I am going to go on to bear poaching and smuggling. You 
may have heard there was still another bear poaching incident 
reported in Virginia just I guess two days ago. It is a very 
important matter to stop this thing and it can be stopped by 
devoting a little bit more money to this part of the law 
enforcement obligations. I have made this note here, well, they 
did this thing with the States, Virginia and West Virginia and 
that is how they managed to catch him.
    But now I want to go on because I have not very much time 
to ask you to ask Secretary Babbitt in very urgent terms to 
respond to the widespread international concern with steel jaw 
leghold traps. Now the U.S. Trade Representative signed an 
understanding with the European Union December 11, 1997, but we 
still have not made any progress towards, this is what it says, 
phase out the use of ``conventional steel jawed leghold 
restraining traps.'' We think that if you said that you wanted 
Secretary Babbitt to do it, he himself is opposed to steel jaw 
leghold traps and made a big strong statement to that effect 
several years ago. So there is hope. If you would give a little 
nudge.
    Now I would like to also briefly comment on the Wild Horse 
and Burro Act. Again, there is a place where the Committee can 
help to make it possible. There is a very substantial 
appropriation already made, but that is for the livestock 
interest. I mean it is badly balanced so that the law says that 
the wild horses and burros are a national treasure and that is 
the way we ought to be treating them and not as sort of 
unwelcome visitors on public lands where people that are 
grazing sheep and cattle say it is all ours. Well, it is not 
all theirs. And that is what we would like you to bring home to 
them. We have some phraseology that would be helpful if you 
would like to use it.
    So finally, I would like to say that most importantly is to 
keep law enforcement division going and you have got to have 
those special agents. It takes quite a while for them to be 
trained and to get experience enough so that they can really do 
the work. A lot of them are off on their own. If you look at 
the tales, there are many automobiles that have gone over 
100,000 miles and that is not safe for these important well-
trained individuals to be out there with people who would love 
to snipe at them and get rid of them. These are criminal 
elements that are preying on our wild life. So I guess it is 
just time to stop.
    Mr. Wamp. Very good testimony, ma'am, and I understand that 
the President has asked for $12.6 million increase, but your 
organization is asking for twice that much.
    Ms. Stevens. That is right.
    Mr. Wamp. To double it, even though you believe it could be 
three times that much. But the principal issue is this issue of 
enforcement so that Fish and Wildlife's agents are increased 
and not decreased and you actually have a problem with some of 
them retiring through a graying workforce. You have got to 
replenish those officers so that they can actually keep up with 
any of these law breakers.
    Ms. Stevens. Absolutely, it is vital.
    Mr. Wamp. Very good. Thank you, Christine, for your 
testimony today.
    Ms. Stevens. Thank you very much for your good votes.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                          NPS/FWS/BLM/USGS/FS


                                WITNESS

MARY BETH BEETHAM, DIRECTOR OF LEGISLATIVE AFFAIRS, DEFENDERS OF 
    WILDLIFE
    Mr. Wamp. Defenders of Wildlife, Mary Beth Beetham.
    Ms. Beetham. Yes.
    Mr. Wamp. Is that correct, Mary Beth? Now my mother's name 
is Mary Beth, Mary Beth, so you are starting in real good 
shape.
    Ms. Beetham. It is a very pretty name, is it not?
    Mr. Wamp. It really is. Mary Beth, welcome. Director of 
Legislative Affairs for the Defenders of Wildlife and as they 
say on Who Wants To Be A Millionaire, it starts right now.
    Ms. Beetham. Thank you very much, Mr. Wamp. I am Mary Beth 
Beetham and on behalf of Defenders and our nearly 400,000 
members and supporters, we thank you for the opportunity to 
testify.
    First as always, we would like to thank you and your staff 
for your staff in several vital areas. We tremendously 
appreciate your continued leadership and support in providing 
critically needed increases for refuge operations and 
maintenance. We are also grateful for the interest of staff in 
identifying some of the most important needs for continued 
improvement of the system such as the minimum staffing 
requirements. We ask for your continued support on this as we 
approach that important milestone that is coming up, the 100th 
anniversary of the Refuge System in the Year 2003.
    We also thank you for your support for Everglades 
Restoration and for your work in opposing anti-environmental 
riders during last year's appropriations process. As Mr. Beard 
was saying, we recognize most of this problem does come from 
the Senate and we urge you to continue to oppose them this 
year.
    We do appreciate the Chairman's leadership in drawing 
attention to the need to take care of what we have and we agree 
with him. We also wish, however, to emphasize the need to take 
advantage of new conservation opportunities before they are 
lost. We urge the Subcommittee to fund the President's Lands 
Legacy Initiative and to work with the Budget Committee to 
establish the new budget category proposed to dedicate and 
protect the level of funding for future years.
    Lands Legacy would provide the funding for the menu of 
programs needed to achieve landscape level conservation as we 
move into this new century, outright acquisition at the federal 
and State levels, easements for working lands, State 
conservation of endangered and nongame species, and open space 
planning. Broad support does exist across the nation for 
permanent funding for these programs at predictable levels. We 
urge the Subcommittee to take the initiative and establish this 
critical new fund.
    I would like to address one of the proposed Lands Legacy 
programs in a little bit more detail, the new $100 million 
funding request for State nongame wildlife grants through Fish 
and Wildlife Service. This is badly needed to provide some 
reliable funding for conservation of the roughly 90 percent of 
species that are neither hunted nor fished nor federally 
listed. Annual State funding spent on conservation of nongame 
species is less than one tenth the amount spent on hunted 
species which, of course, is funded by the Federal Aid to 
Wildlife Restoration. In funding the new nongame program we 
would ask the Subcommittee to include report language 
stipulating that each State that has not already done so, 
develop a plan for prioritizing fund expenditures that includes 
accessing species population status and distribution, habitats 
essential for their conservation, factors contributing to the 
decline of the identified species and their habitats and 
actions to address these factors.
    These nonburdensome planning requirements are actually 
identical to those in the Fish and Wildlife Conservation Act of 
1980, passed to conserve nongame species, but never funded. 
These plans would be extremely cost effective in providing a 
comprehensive blueprint for States to more strategically 
conserve the diversity of wildlife and avert future ESA 
listings which I think is something we would all like to be 
able to do.
    In addition to funding for refuges, Lands Legacy and 
Everglades, I would like to quickly highlight some of 
Defenders' other priorities. For Fish and Wildlife Service 
endangered species programs, we support at the very least the 
President's budget, the four main accounts, but believe even 
higher funding levels are needed, especially for listing and 
recovery. For Fish and Wildlife Service law enforcement program 
again, we support at the very least the President's budget 
request, the first in a two-year program to reinvigorate law 
enforcement. For Forest Service, we support increases for 
threatened, endangered and sensitive species research and 
habitat management. Under Forest Service research we are 
concerned that the request would be inadequate to fund the 
needed research on threatened, endangered and sensitive species 
and we would like to see $10 million more for Forest Service 
research to fund critically needed research on forest 
carnivores, bats, plants, amphibians, mussels and crayfish and 
since I see the sum up light coming up here I will just quickly 
sum up. We also are urging requested levels for BLM for 
wildlife and fisheries management and threatened and endangered 
species management. We think BLM has some good requests in this 
year and also USGS Biological Resources Division, we support 
the President's request and believe that this program has been 
critically underfunded for a number of years.
    So we have a number of programs we support, but we do 
support the conservation of plants and animals in their natural 
communities and the programs under the Subcommittee's 
jurisdiction are key to achieving that goal and so we know that 
there is going to be a problem with the allocation, but we urge 
you to do the best that you can.
    Mr. Wamp. That is what I was going to say and thank you 
very much for your testimony. You do hit on some pretty big 
ticket items that we will fund as we are able based on that 
allocation because the pressures are going to be, I guess at 
least as great for the coming year as they were for this past 
year, but I think you do know that you have a very receptive 
ear here at this Committee from all the Members and certainly 
the staff in a bipartisan way to try our best to fund these 
priorities and to wrestle with those tough, old crusty Senators 
when we get to conference.
    Thank you for your testimony, ma'am.
    Ms. Beetham. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                LWCF/URBAN PARK AND RECREATION RECOVERY


                                WITNESS

BARRY S. TINDALL, DIRECTOR OF PUBLIC POLICY, NATIONAL RECREATION AND 
    PARK ASSOCIATION
    Mr. Wamp. National Recreation and Park Association, Barry 
Tindall, Director of Public Policy is ready to assume the 
chair.
    Good afternoon, Barry.
    Mr. Tindall. How are you, sir?
    Mr. Wamp. Welcome.
    Mr. Tindall. Thank you. It is a great pleasure. I think 
this is the first opportunity I have had to appear before you 
and Mr. Dicks, it is good to see you, sir.
    Mr. Dicks. Good to be with you.
    Mr. Tindall. We had the pleasure, Congressman Wamp, of 
meeting with Rob in your office a few weeks ago, I guess, with 
your constituents now, Tennessee Recreational Park 
Organization, one of our affiliates.
    Mr. Wamp. yes.
    Mr. Tindall. And I urge you to take to heart the tonnage of 
paper that they left in your office. Part of our testimony will 
be somewhat redundant of what was given to you earlier.
    Very quickly, we are an association of about 25,000 people 
and organizations who plan, manage, design, predominantly State 
and local park and recreation resources, but we are strong 
advocates of strong federal land systems as well and recreation 
access as appropriate to them.
    Just very quickly on the numbers, we urge the Subcommittee 
to very aggressively look at the Administration's request for 
$150 million for stateside, land and water conservation fund. 
We think that is a do-able figure. It is a little bit below 
what the Administration requested last year which was $200 
million, but higher than this Subcommittee was able to provide 
at the end of the day last year.
    One feature of the Administration's recommendation, we 
really urge you to take a look at and frankly reject. They are 
proposing to set aside $72 to $75 million in sort of pre-
selected, pre-federally selected projects and take those, 
credit those, if you will, to the State assistance program, 
when for the most part it is not a value question. These are 
probably very good projects. They more than anything provide 
buffers to a handful of federally aided--not federally aided, 
federally managed projects, but our view is on stateside land 
and water conservation fund that the best decisions, the most 
appropriate will come from State and local officials and 
citizens who have opportunity to input on those priorities. We 
can go at length about that. I will not bore Debbie with it, 
but that--she has heard the drill before. That was the intent 
of land and water conservation from the outset. That would be a 
partnership program. In fact, the first five years of land and 
water was--actually the law said 60 percent to State and local 
governments. We have gotten a long way from that. And last year 
was the first time it had money since fiscal 1995, I think. So 
serious problems are there.
    On the urban park and rec recovery program, the 
Administration has asked for what we would consider to be an 
extremely modest $200 million. Our recommendation last year was 
for $100 million and frankly we think that is something that 
without a great stretch could be accommodated. We do not really 
know what has happened on stateside land and water request for 
the pretty $40 million that is out there, but we do know 
because of the time period just closed, request for projects, 
for urban park and rec recovery projects is closed and we had 
70 projects, I think, and $2 million available. So a whole 
bunch of folks and probably jurisdictions in Tennessee and 
Washington and elsewhere are not going to be funded and these 
would be, in our judgment, probably very competitive projects 
if we had more resources out there.
    We urge the Subcommittee to look at the monies that go into 
the National Park Service's Rivers and Trails and Technical 
Assistance Programs. There are still a lot of activities 
dealing with recreation, conservation, reuses of military 
installations. We are reauthorizing hydro power projects all 
the time. We need to look at those licenses and see what, if we 
can enhance and leverage recreation values as a result of that. 
The Administration requests about $8 million. I think we and 
other groups would be more comfortable and I think $10 to $12 
million probably would be a better figure for that. In that 
same vein, we commend the Administration and the Park Service, 
in particular, for recommending funds for its environmental 
resource challenges, I think they call it. There was about 
$18.5 million in there for cooperative research, for learning 
centers and things like that which we think will not enhance 
the management of the National Park System and discover 
problems with invasive species and things like that, before 
they get out of control, but they will enhance the visitor 
experience as well.
    In a similar vein, and we have not talked about this 
previously, but the U.S. Geological Survey has a many-part 
initiative to make its science available to land use planners, 
State and local governments, other people who are dealing, 
trying to deal with the problems of sprawl and things like 
that. So we make a recommendation for that initiative. They 
testified I think back in mid-March on that and we would concur 
that good science and good information sharing is going to 
result in better land use decisions and ultimately save the 
American taxpayers a lot of money so we do not do crazy things 
on the front end.
    So that is the essence of our testimony. A lot of folks who 
come before you today, a lot of organizations, individuals will 
measure the outcomes in acres of land. That certainly is 
important in many respects, but we are a nation that is 
increasingly obese. We have horrible problems with juvenile 
delinquency. We have a lot of other health problems, older 
Americans, their recreation behavior is changing, their 
abilities change. There is a great deal of evidence around from 
the medical research community that suggests that with active 
recreation, active lifestyles, a more diverse array of things 
available to the young people and old people that we can be a 
healthier nation and ultimately save money in the long term.
    So that is the essence of our message today.
    Mr. Wamp. Thank you, Barry. On this stateside portion of 
land and water conservation fund I think everyone agrees that 
it is not equitable based on the way it was set up. We have a 
lot of pressures here at the Subcommittee and as with many of 
these funds that were not used for their original purpose. We 
are trying to fight our way back into that. I think you are 
making progress. I know John Kasich is a bit supporter. 
Probably the most active Mayor in America is Victor Ash from 
Knoxville, Tennessee on this issue of getting money back to 
local governments for urban parks and to use the stateside 
portion for those purposes that it was originally intended. And 
I think more progress is going to be made through this year's 
appropriation cycle. So you continue to persevere and we will 
join you as we are able. We have so many other pressures and 
you can appreciate our work. We appreciate yours. Thank you for 
your testimony, sir.
    Mr. Tindall. Is that a commitment to work more closely with 
Mr. Kasich?
    Mr. Wamp. I have been. I have been. We are bringing the 
Chairman along as he is able and he is the most reasonable man 
in the House, this Chairman Regula. The is the most reasonable 
man in the House.
    Mr. Tindall. Is this Mr. Regula's last regular term as 
Chair?
    Mr. Wamp. It depends on whether he gets a waiver.
    Mr. Tindall. I was going to tell him that we always enjoy 
coming before him while we have differences of opinion on 
occasion he has been a gentleman and----
    Mr. Wamp. He is. He is indeed.
    Mr. Tindall. And an advocate for recreation and parks.
    Mr. Wamp. Of course, if it is up to Mr. Dicks, he will be 
removed by force.
    Mr. Dicks. The voters of America will decide that.
    Mr. Wamp. Nonetheless, you will still have a reasonable man 
in the chair. I know how to suck up. Cannot lose.
    Thank you, Barry.
    Mr. Tindall. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                LAND CONSERVATION/FOREST LEGACY PROGRAM


                                WITNESS

JAMES C. BROWN, TENNESSEE RIVER GORGE TRUST
    Mr. Wamp. Okay, this next is a transition commercial for 
one of the premiere conservation organizations in the 
Southeastern United States which happens to be the Tennessee 
River Gorge Trust and for Debbie Weatherly, our staff director, 
and Loretta Beaumont who have traveled to some of the great 
places in this country with me as I have served on the 
Subcommittee, I will tell you that if you ever want to see the 
Grand Canyon where everything is alive and not dead, come to 
the Tennessee River Gorge. Come to the Tennessee River Gorge 
and you will see it alive.
    Mr. Jim Brown for the Tennessee River Gorge Trust. Welcome. 
You can tell these are my constituents.
    Mr. Brown. Thank you very much. I brought a pretty picture 
and now you can see it. I do not need to show it to him. He 
already knows about it.
    Mr. Dicks. I need to see it though.
    Mr. Brown. Okay. There you go. I probably do not need to 
speak now because that picture will tell it all, a thousand 
words.
    Mr. Wamp. You need to speak, go ahead.
    Mr. Brown. Thank you, Mr. Chairman. I would like to thank 
you and the Committee for having me up here. And I am here not 
just to support the Tennessee River Gorge Trust, which I would 
gladly do, but to speak out in advocacy for The Forest Legacy 
Program, the USDA Forest Service which has been a program that 
has been around for a number of years, been rather underfunded, 
which is amazing when you consider millions of dollars and I 
never thought I would say that is underfunding anything, but I 
think that the general consensus is now there needs to be more. 
The Administration is asking for $60 million. That will be for 
nationwide, for projects such as the Tennessee River Gorge and 
the Tennessee River Gorge Trust work and certainly we are for 
that. Our part of that $60 million, we do not know what that 
might be, it does not matter. Whatever we can get we would love 
to have.
    The River Gorge Trust is pretty typical of land trusts 
across America. It is a local organization, founded by a 
housewife and her friend and now 20 years later we have 900 
members, $8 million in land assets. We are protecting 15,000 
acres of a 26,000 acre river gorge which lays just immediately 
to the west of a metro area. You probably know better than I, 
you were doing census hearings this morning, I do not know if 
it is 450,000 or 500,000 people, but it is in a corridor that 
is rapidly growing. So the----
    Mr. Dicks. What metro area is that?
    Mr. Brown. Chattanooga metro area, yes sir. And this gorge 
that you see there which you are looking at the heart of in 
that picture is actually, begins within the city limits of the 
city of Chattanooga. I have got a bigger thing back here, but 
we will not bring that out.
    Anyway, the gorge is 95 percent forested. It contains more 
species of rare, threatened and endangered plants, animals, 
insects that I would care to read off here. I would glaze 
everybody's eyes over with Latin binomials, but in a quick 
synopsis we have 800 documented vascular plants which we have 
in our scientific and biological field station, 13 species of 
frogs and toads, 184 species of birds, 193 species of 
lepidopterans, 63 species of animals and your brother will be 
happy to know we are going to do a complete survey of the fish 
species within the gorge pretty soon.
    What we did was many years ago, we started off wanting to 
protect a pretty area, scenery. What we protected was more than 
just scenery, we had a wonderful recreation opportunity and we 
had tremendous diversity. There are three areas within the 
gorge that are State natural area quality. One so unique that 
the botanist had to totally rewrite the book, there was nothing 
like it in the entire State of Tennessee and one of them said 
that means there is nothing like it in the entire world.
    We have funded this entire project with local money. We 
started out wanting to do that. We do it. The land that we own, 
we pay taxes on. We are committed to doing things through the 
private sector as far as we can and the reason we are here 
today is simply because to finish this project and we do have 
an end date on this, we want to finish it, we want to wrap it 
up and complete what we set out to do. We are going to need 
just a little bit extra. Forest Legacy is a program that can 
give us the leverage to get the remainder of funds from private 
sector, private community. And when you think that $8 million 
came out of our community alone, 500,000 people and we have a 
very, very generous community, we exceed every year our United 
Way, we just need that little bit of kick to finish this thing 
off. Forest Legacy could do that and I think there are programs 
across America, across the entire nation that are just like 
this in every other State. Forest Legacy is a program that will 
help us to buy the land, buy the easements and then the good 
news is for the Land Trust at least is, the federal government 
is not going to be obligated to take care of this stuff. We 
will be happy to do it. So you are not buying a park that you 
will have to staff and you will have to fund maintenance for. 
The private sector will take care of it, we just need a little 
bit of help.
    Mr. Wamp. Mr. Brown, let me say that the President's 
request of $60 million was very ably represented by your 
presentation today. It is organizations like yours that have 
really made conservation in this country work effectively and I 
applaud you. As I said over lunch with your group today, I look 
forward to working with you in the future to make sure that 
this happens from my perspective here on the Subcommittee. I 
know others will join me along the way so thank you for your 
testimony, thank you for traveling to Washington today, we will 
see you back home.
    Mr. Brown. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

             OHIO AND ERIE CANAL NATIONAL HERITAGE CORRIDOR


                                WITNESS

DANIEL M. RICE, EXECUTIVE DIRECTOR, OHIO AND ERIE CANAL CORRIDOR 
    COALITION
    Mr. Wamp. Next is the Ohio and Erie Canal Corridor 
Coalition, Mr. Daniel Rice, Executive Director.
    Mr. Rice, welcome, good afternoon. Thank you very much, 
sir.
    This is the kind of day where I would like to say we are 
going to go outside for this next witness and have recess or 
meet outside. You remember, you used to do that every now and 
then, just break away outside? Those were good times. But 
nonetheless, it is 72 degrees in here, so go ahead.
    Mr. Rice. If we have the time, Mr. Chairman, I would concur 
with you, sir, and actually I will refrain from doing what some 
earlier folks did, singing. We had some wonderful singers here 
earlier this morning singing opera, supporting the National 
Endowment for the Arts, but I am going to refrain from that. I 
am going to spare you that.
    Mr. Wamp. You should. It cost a Member of Congress his seat 
last year, so I would strongly discourage that. Go ahead.
    Mr. Rice. Mr. Regula has heard me sing before. Thank you 
very much. I appreciate the opportunity to testify and also 
hello to you, Congressman Dicks, it is good to see you again as 
well.
    Mr. Dicks. Thank you.
    Mr. Rice. I greatly appreciate the opportunity to testify 
before the Subcommittee, and to talk about a wonderful locally 
driven project, the Ohio and Erie Canal National Heritage 
Corridor. We have achieved a lot of success during 1999. It is 
basically a 107-mile National Heritage Corridor. I believe you 
are very familiar, Mr. Chairman, as well. You have a Heritage 
Corridor within your district as well, the Tennessee Civil War 
Battlefields, a National Heritage Corridor.
    Ours goes along a 110-mile greenway, preserving the Ohio 
and Erie Canal, developing a tow path trail. We developed many 
new visitors centers just within the past year and also we are 
working on a number of different programs to preserve many 
historic buildings and stimulate economic development 
throughout the Heritage Corridor.
    I did not bring along the children this morning, but I did 
bring along just a little bit of piece of the children's work. 
These are some pieces of artwork that the children who have 
actually been hiking on the towpath trail sent to us. We do a 
program every year with the Goodyear Tire & Rubber Company in 
which they sponsor an event to encourage kids to go out there 
and utilize the Ohio and Erie Canal National Heritage Corridor 
and if they hike four sections of the Canal Corridor, they 
receive a nice little patch, so it does a couple of things. It 
gets you out there to do a little bit of exercising, at the 
same time they learn a little bit about the history of their 
community.
    But one of the other exciting accomplishments which we 
achieved during 1999 was the completion of our corridor 
management plan. This was mandated by the legislation. It is a 
complete inventory and analysis of the resources along the 
Heritage Corridor and it is my pleasure to present that to you, 
Mr. Regula. That is basically our implementation document for 
the Heritage Corridor. You will notice it is a little smaller 
than that Norton Anthology of earlier this morning, a little 
bit easier to read, actually too.
    Many of the issues identified in the Corridor Management 
Plan are actually under development already. We are actually 
building the project as we speak. Today, of the 110 miles, we 
have about 55 miles of the towpath trail completed today and 
the other 55 miles are under some form of construction. But 
most importantly we are leveraging, funding resources at the 
local level basically on a 4 to 1 level. We just recently 
granted some grants of local folks and granted about a million 
dollars and then that leveraged about $4 to $5 million of local 
and private investment in the project.
    Mr. Regula [presiding]. You got state money approved.
    Mr. Rice. Absolutely. We just had an announcement recently. 
The State Capital funding funded $1.8 million. That is over and 
above the 4 to 1 match that we are having at a local level and 
so the State of Ohio is really putting its support behind it 
and it really is a good demonstration of the public/private 
partnerships.
    So at this point in time, I would like to request again an 
additional $1 million for the Ohio and Erie Canal National 
Heritage Corridor, so you can continue to leverage those local 
and private and State resources.
    As you are also aware, Mr. Chairman, I serve as chair of 
the Alliance of National Heritage Areas, the federation of 18 
congressionally designated heritage areas. And each heritage 
area will actually be presenting a request to the Subcommittee. 
We support their individual requests. It is based upon what 
their needs are and they know their needs best, essentially, 
but we do support where they are in the process.
    The Alliance is also in the process of developing 
organization plan and probably most likely within the next 
three to six months we actually are filing for 501(C)(3) 
status. So we are basically developing an organized structure 
to lay a foundation to work on heritage development across the 
country.
    During 1999, we had some very successful technical 
assistance workshops as you are familiar, funded also through 
this Committee's budget. We greatly appreciate that support and 
we would like to continue those training opportunities with the 
National Park Service. We like the way that they are set up 
currently in which the technical assistance training programs. 
We come up with topics and work to bring in outside experts to 
provide technical assistance to make sure the heritage areas 
are successful. We look forward to working with you, Mr. 
Chairman and the Members of the Subcommittee and other Members 
of Congress to develop a successful, efficient and cost 
effective technical assistance program.
    Thank you very much for the opportunity, Mr. Chairman.
    Mr. Regula. Thank you.
    Mr. Dicks. Outstanding presentation.
    Mr. Regula. It is a terrific project, really. It has lots 
and lots of people on the trail. Of the 87 miles of the 
original trail, you must have more than half completed.
    Mr. Rice. Actually, we are, Mr. Regula. It is about 55 
miles of it that is already completed as we speak.
    Mr. Regula. Am I correct that Stark County has bought an 
extra side trail for horses?
    Mr. Rice. That is correct.
    Mr. Regula. The old railroad right of way?
    Mr. Rice. That is correct. As a matter of fact I was down 
there in Dalton last night, talking to some folks and as a 
matter of fact ran into some folks who claim that you and your 
brother used to pick up their milk.
    Mr. Regula. That is probably true.
    Mr. Rice. And they were real big and enthusiastic 
supporters, talking about the equestrian users down there. We 
basically said that that is the type of use that we want to 
have as well as hikers and bicyclists.
    Mr. Regula. That will be a parallel, that is on the other 
side of the river.
    Mr. Rice. Absolutely. Marge Nesbaum was the woman's name.
    Mr. Regula. Yes. Thank you.
    Mr. Rice. Thanks a lot.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                          WORLD WILDLIFE FUND


                                WITNESS

RANDALL IRVIN, DIRECTOR GOVERNMENT RELATIONS, WORLD WILDLIFE FUND
    Mr. Regula. Okay, World Wildlife Fund.
    Mr. Irvin. Thank you, Mr. Chairman. I am Robert Irvin, not 
Randy Snodgrass who was scheduled to be here. It is nice to see 
you and see you, Mr. Dicks. On behalf of World Wildlife Fund's 
1.2 million members, I appreciate this opportunity to come 
before you and in particular, I want to thank you and Mr. Dicks 
for your leadership in support of conservation programs in the 
Department of the Interior and the Forest Service and all of 
your efforts to oppose weakening, anti-environmental weakening 
riders on appropriations bills. We sincerely appreciate your 
work there.
    Mr. Chairman, what I want to do is highlight some of the 
work the World Wildlife Fund is doing in order to explain why 
we are so strongly supportive of some of these Interior and 
Forest Service programs. In 1997, World Wildlife Fund launched 
a campaign known as the Living Planet Campaign to focus on 
endangered spaces, endangered species and global threats to 
biological diversity. Our scientists looked at the eco regions 
around the world and identified the Global 200. And of those, 
116 eco regions were in North America. Thirty-two of them were 
found to be globally important and we have focused our effort 
in the United States on five of those: the Bering Sea in 
Alaska; the Klamath-Siskiyou Forest region in Oregon and 
Northern California; the Chihuahuan Desert in Southern New 
Mexico, Arizona, Texas and also Mexico; Southeastern rivers and 
streams looking at the Tennessee, Cumberland and Mobile river 
basins; and South Florida, the Everglades and the Florida Keys, 
an area that I know, Mr. Chairman, you fought hard to protect.
    We have summarized our assessment of those eco regions in 
this book. I would like to leave it for you and the Committee 
for your information, but many of the items in the President's 
proposed budget will help protect these priority areas the 
World Wildlife Fund is focusing on and that is why we are so 
supportive of these. For example, $143.7 million for Everglades 
restoration, including funding for land acquisition and 
national wildlife refuges and to match funds provided by the 
State of Florida for acquisition, absolutely key to the 
restoration of the eco system. $12.6 million in increased 
funding for law enforcement of the U.S. Fish and Wildlife 
Service. A lot of that money will be used to stop illegal trade 
of endangered species. That is particularly important in the 
Chihuahuan Desert eco region where there is a real problem with 
illegal trade in endangered cactus species.
    Increased funding for the U.S. Fish and Wildlife Services 
Division of Environmental Contaminants, the problem of 
endocrine disruptors and toxics in the environment is a problem 
for humans and for wildlife. The Administration has asked for 
$10.3 million. Frankly, we think that is inadequate. It ought 
to be increased dramatically because this is a serious problem.
    And $129.5 million for the U.S. Forest Service National 
Forest Roads budget. The World Wildlife Fund is strongly 
supportive of the proposed roadless policy that the 
Administration is working on. In particular, we are supportive 
of using the money to maintain the existing road networks in 
order to eliminate the problems that are caused by road 
failures and inadequate maintenance, degrading fish and 
wildlife habitat and water quality.
    Mr. Dicks. That is a very serious problem, one that we face 
in the Northwest in a very dramatic way and I believe it is 
having a negative effect on the salmon runs and helped crate 
the listings.
    Mr. Irvin. You are exactly right, Mr. Dicks.
    Mr. Dicks. The roads deteriorate and get rain storms and 
then the dirt and silt gets into the streams and it chokes off 
the eggs.
    Mr. Irvin. It is things like having inadequate culverts on 
roads and simply not maintaining them.
    Mr. Dicks. There is an $8 to $10 billion backlog on roads. 
And they did not get into the Highway Trust Fund. I think it is 
a major problem.
    Mr. Regula. Were these built as logging roads and now used 
for recreation?
    Mr. Dicks. Well, they are used for both. They are used for 
logging and recreation and the Forest Service simply does not 
put enough money in, does not have a strategy for how they are 
going to deal with this problem.
    Mr. Irvin. And the proposed budget is focused on increasing 
the funding for those efforts, for the maintenance efforts.
    Mr. Dicks. I just hope that we can all be more united than 
we have in the past in terms of when it is for maintenance, 
when it is for fixing the roads, not opposing it because it is 
quote road money. I take in your testimony that you make that 
distinction. Some people do not.
    Mr. Irvin. Yes, we do, Mr. Dicks.
    Mr. Regula. Thank you.
    Mr. Irvin. So in conclusion, Mr. Chairman, I just want to 
again express our appreciation for your leadership and support 
of conservation and in particular on the Everglades issues to 
encourage you to continue to do so as we know you will and to 
just say that the work that you do here in providing adequate 
funding for these programs is just absolutely essential if we 
are going to achieve what I think is our shared goal of leaving 
our children a living planet. So thank you very much, Mr. 
Chairman.
    Mr. Regula. Thank you and thank your group for the work 
they do because I think that is vitally important to have these 
groups like yours. We have up next the Nature Conservancy. 
Interested parties have made a difference.
    Mr. Irvin. Thank you, sir.
    Mr. Regula. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                           LWCF/FOREST LEGACY


                                WITNESS

DAVID WEEKES, VP, MID-WEST DIVISION AND DIRECTOR OF THE OHIO CHAPTER, 
    THE NATURE CONSERVANCY
    Mr. Regula. Nature Conservancy, Mr. Weekes. Thank you for 
coming.
    Mr. Weekes. Chairman Regula, I am David Weekes. I am the 
Vice President of the Midwest Division of the Nature 
Conservancy and the Ohio State Director, so I am from your 
State and I am very pleased to be here to present the Nature 
Conservancy's testimony this year for the Fiscal Year 2000 
appropriations from the Land and Water Conservation Fund and 
for a number of other conservation projects and programs in 
your jurisdiction.
    I think you know about the Nature Conservancy, so I will 
spare you the description of our organization, but what I would 
like to do is share with you some information that has been 
recently developed by the Nature Conservancy that we think is 
especially important in this discussion.
    Last month, the Nature Conservancy released Precious 
Heritage, a landmark study on the status of America's natural 
heritage. I have a copy of that here for you now.
    The findings are both good and bad. On the positive side, 
the book confirms that the United States is a country of 
enormous biological wealth. Unfortunately, it also documents 
that one third of the plant and animal species in America are 
at risk today.
    We at the Nature Conservancy believe that the conservation 
community has an obligation to lead by example and to take 
decisive action. As a result, we have launched the most 
ambitious fundraising campaign ever initiated by a private 
conservation organization. Last month, the Conservancy pledged 
to invest $1 billion over the next three years to protect 
critically important habitats, both here at home and abroad. In 
doing so, we are demonstrating our own firm commitment to 
private investment in bio diversity protection, but private 
efforts alone will not suffice and of course, I know you 
appreciate that. We feel strongly that federal investments in 
conservation, as a partner with State and local governments and 
the private sector are essential to preserve the nation's 
biological treasure.
    Mr. Regula. What period of time are you going to raise this 
$1 billion?
    Mr. Weekes. The campaign kicked off in July of 1999 and we 
are at about the $450 million mark now.
    Mr. Regula. That is remarkable.
    Mr. Weekes. It has been a lot of hard work, but it is going 
extremely well and I think that is a testament to people's 
concern for these issues.
    Mr. Regula. Do you do any off-shore fund raising or is that 
all U.S. support?
    Mr. Weekes. It is primarily domestic support, but it comes 
from all around the world, really.
    Mr. Regula. some of it corporate, as well as private 
individuals?
    Mr. Weekes. It is indeed, although I would say the lion's 
share is private.
    Mr. Regula. Remarkable.
    Mr. Weekes. I would like to take a minute to touch on a few 
of our strong recommendations and then I would be glad to 
answer any questions.
    The Conservancy strongly supports continued federal 
acquisition of high priority biologically important lands and 
we ask Congress to provide full funding for the Land and Water 
Conservation Fund. In addition, we support increases for 
improved management on federal lands. Our specific 
recommendations are set forth in a new report, Budgeting for 
Bio Diversity and a copy is attached to the back of the 
testimony there.
    We also, Mr. Chairman, acknowledge and support your 
leadership in correcting the backlog of maintenance problems on 
federal lands and would welcome an opportunity to work with you 
to solve those issues.
    Through the Land and Water Conservation Fund the Nature 
Conservancy proposed funding 57 biologically rich land 
acquisition projects, totalling $182 million and a detailed 
description of those projects is included in the appendix.
    I cannot bypass this opportunity, Mr. Chairman, to call to 
your attention the project in our home State, the proposed 
Little Darby National Wildlife Refuge. I know you have heard a 
great deal about it.
    Mr. Regula. I heard have it from the people that live 
there.
    Mr. Weekes. And I am here to tell you that we see that 
there is tremendous amount of support throughout the State for 
that project.
    Mr. Regula. And in the region it is affecting?
    Mr. Weekes. Our sense is that there is, in fact, support in 
the region.
    Mr. Regula. I have not heard from them.
    Mr. Weekes. You have not heard from them, but that is a 
fair assumption. We feel that the proposal really provides a 
unique blend of both habitat, preservation and farm land 
protection and from our perspective in terms of preservation of 
natural diversity, this is a win-win situation for both the 
natural resource and the local community.
    Mr. Regula. Okay, wrap it up.
    Mr. Weekes. I will wrap it up quickly, thank you. I wanted 
to call attention quickly to the Endangered Species Act and we 
see that, of course, as the most powerful tool to conserve the 
nation's biodiversity. We support funding increases for the 
Fish and Wildlife Service to support incentive based, 
nonregulatory programs. I would like to underscore incentive 
based for programs such as candidate conservation agreements, 
habitat conservation plans and safe harbor agreements and then 
just finally to wrap up, I too would like to touch on earlier 
testimony that was given concerning the Forest Legacy Program. 
We think this program has huge potential to achieve 
conservation goals while maintaining sustainable use of private 
lands and we strongly support the Administration's $60 million 
request for that program.
    Thank you.
    Mr. Regula. Thank you.
    Mr. Weekes. I would be glad to answer any questions.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

              NATIONAL SCENIC AND NATIONAL HISTORIC TRAILS


                                WITNESS

GARY WERNER, EXECUTIVE DIRECTOR, PARTNERSHIP FOR THE NATIONAL TRAILS 
    SYSTEM
    Mr. Regula. The Partnership for the National Trails System.
    Mr. Werner. Good afternoon, Mr. Chairman. Before I begin my 
testimony, when we were here to see you a few weeks ago there 
were several of our organizations who were not able to be here 
or get materials, Natchez Trace and the Over Mountain Victory 
Trail and they have sent those and want you to have them as 
part of the collection of materials we gave.
    I am here on behalf of the Partnership for the National 
Trails System, as you know, from Wisconsin. I am here to thank 
you so much for the support that you and your colleagues have 
given over the last several years for the trails, particularly 
the increased funding you provided last year for the Trail of 
Tears and for the Potomac Heritage Trail and the Land and Water 
Conservation Fund money for the Ice Age Pacific Crest 
Continental Divide and North Country Trails.
    As you know, our trail work and our trail system is 
predicated on a dynamic public/private partnership and I am 
also representing the private side of that partnership. I am 
happy to report again that our contribution has increased 
substantially over the previous year. One of the charts I have 
included in the testimony, we document 550,000 volunteer hours 
in 1999 which is a 10 percent increase over the previous year 
and the value of that, plus the value of the monetary 
contributions from our organizations amounts to about $13.2 
million that we contributed for the trails system and as a 
conservative estimate for 1999.
    The three agencies that administer the trails, I think in 
1999 received about $6.8 million in operations money. So we 
feel that we are doing more than our fair share and that allows 
me to I think very gladly actually ask in our request for this 
year for FY 2001, a total of about $13.8 million for the 
National Park Service, the Forest Service and Bureau of Land 
Management to operate and administer these trails.
    We have also appreciated the support you have given through 
the earmarking of challenge cost share funds for the National 
Park Service each year and we strongly support the 
Administration's request for an increase of, I believe, about 
$2.35 million in those funds for the next fiscal year. As you 
know, that is a wonderful way to leverage the value of the 
federal investment and we have been doing it at the rate of 1.8 
to 2 to 1 in projects each year.
    In terms of the operations requests for the agencies, for 
the National Park Service, we still have six of the trails in 
spite of your efforts to increase the funding, six of the 
trails that receive less than $100,000 a year in operations 
funding and part of our request this year is to bring each of 
those up to at least $150,000 to that substantial work can be 
done to support the private efforts for the trails.
    In particular, I want to point out the four trails that are 
administered through the Salt Lake City Office of the Park 
Service, the Oregon, California, Mormon Pioneer and Pony 
Express National Historic Trails. This is a wonderful example 
in this office of collaboration between the three federal 
agencies. It is a Park Service administered office, actually 
located in a Bureau of Land Management facility, with Forest 
Service staff. But it is terribly underfunded and we are asking 
for a total of about $577,000 for the four trails increase to 
allow that staff, for the three agencies to work 
collaboratively.
    We are also asking in a new initiative to begin a five year 
project to develop a geographic information system that would 
be consistent across the 20 trails of the trail system. We have 
around 40,000 miles of trails in 44 States and numerous other 
jurisdictions and you, knowing from your hiking experience, all 
the kinds of things along trails you need to keep track of and 
we feel that a good GIS system will enable us to do that.
    In the Forest Service funding, one of the things to really 
know is we are asking for you to provide $600,000 of money to 
the Forest Service to hire a full-time Administrator and 
provide the land staff needed to protect the Pacific Press 
National Scenic Trail in the way that you have over the years 
so steadfastly protected the Appalachian National Scenic Trail.
    Mr. Regula. Is the Pacific Crest Trail on Forest Service 
land?
    Mr. Werner. It is primarily on Forest Service land, but 
also crosses about four national parks and a number of Bureau 
of Land Management Lands, State Parks and State Forests.
    Mr. Regula. Is it totally public land?
    Mr. Werner. No. There are close to 300 miles that are on 
easements that were acquired a number of years ago. Many of the 
easements are no more than 10 feet wide and being encroached. 
So the administration of it really needs to be a unified one 
that would support all of that.
    At any rate, we also would appreciate the Land and Water 
Conservation Funding for the trails to continue as in previous 
years for Ice Age, North Country, Pacific Crest and Florida and 
it is all detailed in the testimony.
    Mr. Regula. Thank you very much.
    Mr. Werner. We really appreciate your support and that of 
your other colleagues over the years.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                       HISTORIC PRESERVATION FUND


                                WITNESS

H. ALEXANDER WISE, NATIONAL CONFERENCE OF STATE HISTORIC PRESERVATION 
    OFFICERS
    Mr. Regula. National Conference of State Historic 
Preservation Officers.
    Mr. Wise. Mr. Chairman, I too want to thank you for what 
you have done for historic preservation and I would like for 
you to have this book. My name is Alex Wise and I am SHPO in 
Virginia and also the Vice President of the National 
Conference. And I am here on behalf of the Conference today to 
request a $150 million withdrawal from the Historic 
Preservation Fund for Fiscal 2001. That is the amount that 
Congress has authorized for this program since 1982 and we 
think it is now time to appropriate that amount of money so 
that we can really carry out our mandate as it is supposed to 
be carried out.
    As you know, Congress enacted the National Historic 
Preservation Act in 1966. It came after an unfortunate 
experience with urban renewal and some other federal programs. 
The Congress, in reaction to that, said we better do something 
about preserving the history of our country, the material 
history.
    Congress gave the States the primary operational role for 
preserving the material culture of the United States in terms 
of buildings and archeology and designed this program as a 
ground up program, as a real partnership with the States. The 
idea was that Congress would fund it at 60 percent, the States 
at 40.
    SHPOs are appointed by the respective Governors and our 
staffs are State employees. We work closely with local 
governments and private property owners as well. We take a big 
burden off the federal government by working so closely with 
communities. We are the vital link. I know you are involved 
with the Smithsonian. As the affiliate program translates the 
benefits of the Smithsonian to the country, we do the same 
thing for the country's historic preservation program.
    You know the SHPO functions. They are set forth in the act, 
but I would like to talk for a minute about the benefits. We do 
leverage private investment in historic properties, 
neighborhoods and districts. We stimulate tourism and job 
creation. We help maintain community pride, sense of place and 
quality of life. It is so important not just to us as people 
and communities, but also for economic development. We 
stimulate revitalization of urban centers, districts and 
neighbors, thus mitigating urban sprawl. And we help educate 
successive generations of Americans in citizenship and in our 
heritage.
    The SHPOs do put money in people's pockets. This is not 
just sort of intangible benefits. Last year, every federal 
dollar spent on this program leveraged a minimum of $65 in 
private and State funds. I say a minimum because we cannot 
exactly qualify the tourism benefits or the benefits of 
creating quality of life and communities that attract business, 
but I can tell you in Virginia there are two major 
international corporations that came there and have told us one 
of the reasons is because they like the historic character of 
the place, AXA Group and Siemens with a bid semiconductor 
plant. But on the things that we can measure, you have got the 
State match, actually it is a State overmatch which I will get 
into in a minute. In the Rehabilitation Tax Credit Program, 
last year the State Historic Preservation Officers helped 
leverage over $2 billion in investment in historic districts, 
neighborhoods and buildings across the country which I think is 
pretty remarkable. That created 60,000 jobs and $1.6 billion in 
household income.
    Now as I said, the program was set up as a 60-40 match, the 
fed, 60, the States, 40. I can tell you that in Virginia we are 
overmatching more than 80 percent. Just this year in the 
legislature, the State put up $600,000 new dollars, added that 
to our base for each year of the biennium. Our federal 
contribution in Virginia is $656,000, so we are overmatching 
between 80 and 90 percent now. We also came up with $3.4 
million, new dollars for battlefield preservation to match the 
land and water conservation fund grants. We are not unusual. 
Massachusetts and Maryland are in the same boat and many other 
States.
    The federal government is putting as much money into this 
program as about one fighter plane for the whole country's 
history outside the National Parks.
    Just a word about the dynamics or the trends over the 
years. Today, Congress spends 25 percent less in this program 
than it did in 1983 after the Reagan Revolution in real terms, 
in real dollars. So in conclusion, we would like to see the 
partnership restored for the future.
    Mr. Regula. Okay, thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                       BUREAU OF LAND MANAGEMENT


                                WITNESS

SUSAN H. GUNN, Ph.D., DIRECTOR OF BUDGET AND APPROPRIATIONS, THE 
    WILDERNESS SOCIETY
    Mr. Regula. Wilderness Society.
    Ms. Gunn. Good afternoon, Mr. Chairman.
    Mr. Regula. How are you?
    Ms. Gunn. It is a pleasure to sit here in front of you 
again this year. I want to thank you for your leadership and 
the integrity you bring to land management issues in this 
nation.
    This year I want to do something a little different and 
focus on the Bureau of Land Management, the poor, pitiful, 
orphaned agency of our nation. We really believe that the BLM 
has a historic opportunity here to become one of the foremost 
conservation agencies in the United States, but what it needs 
is considerable funding. After years of insufficient funding, 
the Administration is putting forward requests, they are a 
little bit higher, but I think it is a cycle of incremental----
    Mr. Regula. Would that be funding for land acquisition?
    Ms. Gunn. Well, mostly I am looking at wilderness land use 
planning, invasive weeds and there is a Great Basin initiative 
and wildlife fisheries. They are also up in land acquisition 
this year, mostly I think it is from the Catellus Piece. They 
could probably use sufficient funding for in holdings because 
they do have a lot of in holdings and areas that used to be 
remote are not remote any more. There are a lot of trophy homes 
going up out in the West these days.
    But in terms of some of the more conservation oriented 
programs, we think that they could use a sufficient shot in the 
arm in terms of funding. Also, you know about the arcane 
Reclamation Act of 1902 that takes 76 percent of BLM's funding 
and turns it over to reclamation. I perceive this as sort of 
like a gaping wound in the side. 76. They are the fourth 
largest revenue generator in the United States, but they are 
losing most of their money to rec and they are having 
insufficient fundings in requests from the Administration. So I 
challenge you this year to outmatch the Administration in a 
couple of these accounts. It is hard to believe.
    We are recommending $30 million for their wilderness 
program and also making a separate program. Right now it is 
underneath recreation. About half of its money gets 
reprogrammed every year. They do not see it. They do not have a 
staff. They need new wilderness, a new wilderness management 
policy. About half of the designated areas have no management 
plans. They can probably use 75 full-time FTEs. I think that is 
a theme. We are looking at more money and more permanent full-
time FTEs to meet the needs.
    The same thing with the land use planning. We would 
recommend $40 million this year and it is sort of analogous to 
what happened with the grazing issue in the last couple of 
years. It gets so far behind and litigation starts up and it 
becomes a potential for a rider. It would be nice just to get 
proactive, invest the money and do the appropriate planning out 
of court.
    Invasive species could probably use on the order of $15 
million. Invasive species are a critical problem in the West. 
They choke out native species. They increase habitat collapse 
and drive out species. This year I know BLM had a program, the 
Great Basin Restoration Program that was based on the big fires 
that went through the West last year and we really support 
that. We would support $20 million for that program because it 
is cheaper to do restoration than to do a combination of fire 
management, putting out fires, rehabbing and dealing with the 
weeds and also the cycle of fires increasing because of these 
invasive species. So they are dealing with fires far more 
frequently.
    Also, wildlife, fisheries and T&E species. We are looking 
at one biologist per million acres and one botanist per 4.8 
million acres in that program. They could use serious FTE in 
funding and we would recommend about $86 million for both of 
those programs in combination.
    I am just here to tell you the sad and pitiful story of BLM 
and hope that you can support incredibly higher numbers, 
incrementally, larger than incrementally numbers.
    Mr. Regula. Okay. Thank you.
    Ms. Gunn. You are welcome.
    Mr. Regula. Our problem is not having enough money. Money 
is going to be in short supply this year.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

  HISTORIC PRESERVATION/ADVISORY COUNCIL ON HISTORIC PRESERVATION/NPS


                                WITNESS

RICHARD B. NETTLER, CHAIRMAN, PRESERVATION ACTION
    Mr. Regula. Preservation Action.
    Mr. Nettler. Good afternoon. My name is Richard Nettler. I 
am Chairman of the Board of Preservation Action. I thank you 
for the opportunity to be here this afternoon.
    Preservation Action submits this testimony in support of 
the full funding of the Historic Preservation fund at $150 
million as was you have heard before from the State Historic 
Preservation Officer from Virginia on behalf of the National 
Conference on State Historic Preservation Officers as part of 
the Fiscal 2001 Department of Interior appropriations bill. As 
you know, in 1976, Congress enacted legislation to direct the 
proceeds from the Outer Continental Shelf oil leases be used to 
support the programs and activities mandated 10 years earlier 
when it enacted the National Historic Preservation Act and 
funded through the Historic Preservation Fund. Congress, in 
effect, made a promise to the American people that it would use 
the revenues derived from the exploration or exploitation of 
one nonrenewal resource to fund the preservation and 
enhancement of other nonrenewable resources of our nation's 
cultural, scenic and historic treasures. That promise, 
unfortunately, has largely gone unfilled. Since its inception 
the Fund has rarely received even half of its authorized 
amount. Indeed, when adjusted for inflation and cost of living 
considerations the Fund has declined markedly.
    Even in years when the appropriations have topped 30 
percent of its authorized amount, only about half of the 
dollars made available have actually gone to fund the programs 
that are the core mandates of the National Historic 
Preservation Act. These mandates include the 106 review that is 
done on federal projects and the consequences for historic 
resources, the certification of rehabilitation activities that 
are eligible for tax credits and the survey and documentation 
of historic resources.
    We recognize that each year you are forced to make tough 
choices regarding which programs to fund at what levels. We 
also understand that in spite of projected budget surpluses you 
are being asked to prepare a 2001 appropriations package with 
nearly identical dollars which amounts to those available to 
you in 2000.
    From our perspective, there is no component of the program 
that illustrates the power of the federal/State partnership 
than the tax credit program. That tax credit program which has 
leveraged more than $2.3 billion in private investment in 1999 
is up over 10 percent over 1998 and has rehabilitated 4,394 
housing units and created 9,439 more. Of these, more than one 
third were for low and moderate income units. They mean that 
boarded up and vacant buildings are restored and reopened as 
viable business enterprises. The tax act program cannot work 
without the technical support and administrative commitment, 
time and effort of the State Historic Preservation Officers and 
in fact, many of the federal agencies now are looking in terms 
of privatization component to use the tax credits as a linchpin 
for insuring that private money can take over some 
responsibilities that federal agencies have.
    They are the field officers, the State officers are the 
field officers of the federal government for this program. At 
$2.3 billion in private investments and a sharply rising trend 
pushing that number upward, the program could soon repeat the 
levels of the early and to late mid-1980s.
    Ironically, in spite of this multiplication of 
responsibilities, a tax credit, the 106 reviews, the federal 
appropriations to the States' tribes and the CLGs have actually 
declined in the same period. This means we are a nation unable 
to reap the benefits of a fully endowed, comprehensively 
engaged and strong protective preservation program. We settle 
instead for getting by with essentials. We make no big plans. 
Historic preservation activities, funded through the Historic 
Preservation Fund are cost-effective, all inclusive and 
successful such as the Washington Union Station, Ellis Island. 
These have all been recipients of that fund.
    Preservation Fund has given new life to small towns and to 
big city neighborhoods. It has made Main Street a profitable 
place to do business again. It has celebrated and protected the 
best of our paths.
    Mr. Regula. Do federal dollars help to trigger local 
investment?
    Mr. Nettler. Federal dollars help to trigger investment, 
that is correct.
    Mr. Regula. I imagine that is a good selling point.
    Mr. Nettler. It is an extremely good selling point and to 
the extent that the federal government may be able to use it 
for its own privatization, it is even a larger selling point. 
None of this can be accomplished without the Historic 
Preservation Fund living up to what was intended in 1976.
    Mr. Regula. Right.
    Mr. Nettler. I would ask for your support for increasing 
the Fund and thank you very much for your past support.
    Mr. Regula. Okay, thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                     STATUS OF CENTER'S ACTIVITIES


                                WITNESS

JOHN BOGLE, NATIONAL CONSTITUTION CENTER
    Mr. Regula. Let us do the National Constitution Center. We 
have to vote shortly, but I think we can get your five minutes 
in. Are you up in Philadelphia, Pennsylvania?
    Mr. Bogle. Yes sir.
    Mr. Regula. We are going to be there this summer.
    Mr. Bogle. I hope you will come by and see our work.
    Mr. Regula. I may plan to do that.
    Mr. Bogle. It is very nice. We would welcome you. Well, 
thank you for this opportunity to testify on behalf of the 
National Constitution Center on Independence Mall. My name is 
John Bogle and I am the founder of the Vanguard Group, the 
nation's second largest mutual fund group. I have been a 
director of the Center for nearly a decade now and have served 
as its chairman since last autumn. Joining me here at my left 
is Joe Korsella, the Chairman's Chief Executive.
    We are here to urge you to continue support of the creation 
of the Center through a final construction budget allocation of 
$10 million and through statutory aid appropriation of $500,000 
for Fiscal 2001. Three years ago we first proposed our plan for 
funding this $131 million, requesting $65 million in federal 
funds over three years. That would be half from the Education 
Department and half from the Department of the Interior which 
will, in turn, comprise about one half of our overall budget of 
$130 million.
    Thanks to your leadership, sir, we are precisely on track 
with this plan and have received our 1999 and 2000 
appropriations. We are deeply grateful for your support and 
respectfully urge you to appropriate the final $10 million 
through the Department's construction budget which we believe 
will again be matched by an equal amount in Education 
Department funding. At that point our funding plans will be 
realized and we will make no further capital request.
    Mr. Regula. Write that down.
    Mr. Bogle. You heard it here. We recognize the Committee's 
stalwart support of this vital national project represents 
substantial national investment. Like all intelligent investors 
you deserve and your committee deserves an annual report on 
evaluating how well we have managed the resources you have been 
generous enough to entrust to us. I am delighted to deliver 
that report to you, for in my 50-year long career in this 
investment world, rarely have I seen an annual report with so 
much good news. We have completed the architectural and exhibit 
designs for the project and they are truly world class. We 
continue to attract the nation's most distinguished and capable 
individuals listed in our written testimony, to the project. We 
adhered assiduously both to the project schedule, we are right 
on schedule, and to our budget. We have also made exceptional 
progress on our pledge to you to raise substantial funds from 
the private sector. Indeed, since I testified before you a year 
ago we have raised $20 million in private funds, a wonderful 
start on a $25 million total.
    Most respectfully, however, I do urge you to restore the 
Center's annual statutory aid appropriation to last year's 
fiscal level of $500,000. We commend the Administration's 
inclusion of the Constitution Center and the proposed 
construction budget. We strongly disagree with its proposal to 
eliminate statutory aid support. Importantly, we expect no 
federal operating support whatsoever once the Center opens. Our 
private capital campaign includes this healthy $25 million I 
have described to you in operating endowment to ensure we will 
operate in the black without any on-going governmental support 
at all. Arthur Anderson, our consultant, agrees with that 
conclusion.
    However, the Administration's reduction of $750,000 to the 
Fiscal 2000 appropriation has already----
    Mr. Regula. What are you going to use to operate, fees?
    Mr. Bogle. We were going to take some fees and income from 
the endowment that we are raising. There will be a lot of 
revenue raising.
    Mr. Regula. How much endowment do you anticipate?
    Mr. Bogle. $25 million. At least $25 million.
    Mr. Regula. It will be well-invested, of course.
    Mr. Bogle. It will be very well invested, indeed, sir.
    Mr. Regula. In a mutual fund or something?
    Mr. Bogle. Well, only low cost mutual funds, sir. We have 
an unexpected challenge in the private fundraising and we will 
meet that challenge, but I urge you not to compound that 
difficulty and urge you to restore our statutory aid 
appropriation of $500,000.
    This annual report, to be worth its salt, has looked not 
just at the past, but to the future. I am delighted to share 
with you our terrific results so far. I am even more optimistic 
about our future.
    Yes, we have used the resources you have entrusted to us 
wisely, but the key question is will you get a good return on 
your investment of these national investments. It is going to 
create a physical monument to America's most enduring 
achievement, the Constitution of the United States of America, 
a system of government that gives power to we, the people, a 
national center for debate, scholarship, education and 
outreach, explaining and illuminating the legacy of our 
Founding Fathers. It is a terrific calling.
    Over the long course of my career, sir, I have evaluated 
thousands of potential investments and I have never said this 
before and probably never will again, but this investment in 
our heritage is a sure thing.
    Thank you very much for the opportunity to be with you.
    Mr. Regula. I think over 200 years of experience, backs you 
up on that one.
    Mr. Bogle. Yes sir.
    Mr. Regula. I think you would be interested to know, I do a 
project with students each year addressing a given topic. One 
year I gave them about 150 years and they were going to change 
the Constitution around. When they finally got around to doing 
the report they said they like what we have.
    Mr. Bogle. Well, I am delighted to hear that, sir. So do 
we.
    Mr. Regula. Let us suspend. We have a couple of votes.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                            LAND ACQUISITION


                                WITNESS

KEITH ROSS, PRESIDENT, NEW ENGLAND FOREST FOUNDATION
AMOS ENO, NEW ENGLAND FOREST FOUNDATION
    Mr. Regula. Okay, we are done voting for a while so let's 
resume the hearing. We have the New England Forest Foundation. 
Welcome.
    Mr. Ross. Hello, Mr. Chairman, thank you. My name is Keith 
Ross, the Vice President and Director of Land Protection for 
the New England Forestry Foundation. This year and this year 
only we have an unprecedented opportunity to provide a model 
for sustainable forestry applicable to two-thirds of the State 
of Maine. In January of 1999, the New England Forestry 
Foundation negotiated a two year option to purchase from the 
Pingree Family a conservation easement over 755,000 acres of 
forest land in northern and western Maine for $37.10 an acre. 
We are requesting this Committee's support for a one time 
appropriation of $5 million to permanently protect from 
development an area of prime forest and recreation land larger 
than the State of Rhode Island, nearly as large as the entire 
White Mountain National Forest. The project protects 1,180 
square miles of land, 2,000 miles of river frontage, 110 lakes 
and remote ponds, 5 bald eagles' nests, 67 rare and endangered 
plant sites. The easement preserves the historic public and 
recreation opportunities such as hunting and fishing and 
hiking----
    Mr. Regula. Would this be development easement, 
conservation easement?
    Mr. Ross. That is correct, conservation easement.
    Mr. Regula. What would they do at the harvest end?
    Mr. Ross. The land will continue to be managed by this 
family who has owned it for 160 years and they have managed it 
for sustainable forestry. They were recognized in 1994 as the 
first----
    Mr. Regula. And they would continue to harvest?
    Mr. Ross. They would continue to harvest in a sustainable 
manner.
    I would like to stress that there will be no subsequent 
request for annual operating expenses as the lands will remain 
in private hands and managed for sustainable forestry. The cost 
of maintaining and monitoring the easement will be undertaken 
by the New England Forestry Foundation and our option expires 
at the end of this year, December 31st.
    Mr. Regula. Everything in orange on your map?
    Mr. Eno. Everything in orange and this was a recent Nature 
Conservancy Project on the St. John.
    Mr. Chairman, I have been testifying before you and this 
Committee since February 1974 and I have never seen a project 
with such conservation value presented to you for funding. This 
is one of the four drainages and if you look at the prior 
investments of this committee over time, this project protects 
almost the entire remaining lands in the Umbagog National 
Wildlife----
    Mr. Regula. How much money will Maine put in?
    Mr. Eno. We are seeking private matching money for----
    Mr. Regula. This is Maine?
    Mr. Eno. Right.
    Mr. Regula. In other words, you are talking $5 million from 
us and how much private?
    Mr. Eno. The rest is going to be privately raised. We have 
already raised $13 million.
    Mr. Regula. So the total cost is going to be in the range 
of $18 to $20 million?
    Mr. Ross. Total cost is $30 million.
    Mr. Regula. $30 million.
    Mr. Ross. $30 million. $37.10 an acre, except it is 755,000 
acres. The largest conservation easement now is about----
    Mr. Regula. How would the public use it? What would be the 
public use of it?
    Mr. Ross. There is existing public use of about 90,000 
visitors a year. It is used extensively for hunting, fishing, 
camping. There are a number of campsites.
    Mr. Regula. Well, if you had a conservation easement, that 
would allow them to continue the cutting of the timber.
    Mr. Ross. That is correct.
    Mr. Regula. Would there be any control over that? Could 
they clear cut? Could they do most anything they chose as far 
as cutting?
    Mr. Ross. The conservation easement requires the family to 
manage the land according to the sustainable forestry 
guidelines that are attached to the easement.
    Mr. Regula. Okay.
    Mr. Eno. This company was the first company to become green 
certified by FSC.
    Mr. Regula. Under this conservation easement, what are the 
characteristics of the public access, camping, fishing, 
hunting?
    Mr. Ross. Yes, one of the purposes of the easement, built 
right into the easement is to protect and maintain the historic 
recreation opportunities of the land. This family is very 
interested in maintaining the historic uses of the property.
    They have a long history----
    Mr. Regula. Would it be managed? Who would have oversight 
management?
    Mr. Ross. New England Forestry Foundation.
    Mr. Eno. New England Forestry Foundation.
    Mr. Regula. Which is a nonprofit?
    Mr. Ross. Yes, we were started in 1944.
    Mr. Regula. You would hold the easement?
    Mr. Ross. You would hold the easement.
    Mr. Eno. This is basically one-fifth the cost of other 
easements in Maine. Nicatowas, for example, just got legacy 
money. That was $202 per acre, but because of the scale, you 
have been able to get these amazing cost savings.
    Mr. Regula. Does any of it abut national forest?
    Mr. Ross. No. This is the closest. This is the Umbagog 
National Wildlife Refuge. And those two green areas are 
previous Legacy projects. The pink areas are projects that were 
done through the National Fish and Wildlife Foundation with the 
Rangely Leggs Trust.
    Mr. Regula. How much of this 760,000 acres would have 
public access?
    Mr. Ross. The entire property would be open to the public 
as it is now, but the access is managed by the family. There is 
no grant of public access as a part of the easement. They are 
not buying public access. We are only buying the development 
rights on the property, but the family wants to insure that 
those historic recreation opportunities are there so we built 
that into the purpose.
    Mr. Regula. What guarantee would you have that 50 years 
from now that the public would still have access to it?
    Mr. Ross. In the State of Maine there is a law that permits 
any individual to go over any unimproved land to any pond, ten 
acres or larger in size. The conservation easement would 
prohibit forever the development of this land, thereby always 
making it open.
    Mr. Eno. Maine is unusual in that none of the major forest 
lands can charge access fees and this family was in the 
forefront of creating what is called the Northern Forests.
    Mr. Ross. The North Maine Woods, which is a nonprofit of 4 
million to manage the private lands.
    Mr. Regula. Okay, well, it sounds interesting. Thank you.
    Mr. Ross. Thank you.
    Mr. Eno. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                         FOREST LEGACY PROGRAM


                                WITNESS

LAURIE WAYBURN, PRESIDENT, THE PACIFIC FOREST TRUST
    Mr. Regula. The Pacific Forest Trust.
    Ms.  Wayburn. Thank you, Mr. Chairman. My name is Laurie 
Wayburn. I am the President of the Pacific Forest Trust. We are 
a regional organization dedicated to preserving private, 
productive forest lands in Washington, Oregon and California.
    Mr. Regula. Preserving them to be cut or preserving them 
for recreation or, when you say preserving private lands, 
define that.
    Ms.  Wayburn. We are preserving them for the range of uses 
that they provide, sustainable timber, watershed values, 
habitat values, recreational values, scenic values, open space 
values. You have caught the synergy of the two words that we 
use in our mission which is to preserve productivity.
    We work with the thousands of private forest land owners in 
this region. This is the most valuable forest land in the 
United States. It is the most productive. Washington, Oregon 
and California are the three most productive timber States in 
the United States. It is also the most threatened. Washington 
and California top the NRI's list of States in danger of 
conversion. These two States alone, actually, the three States 
alone lose 120,000 acres of forest land a year.
    Mr. Regula. To harvesting?
    Ms.  Wayburn. To conversion.
    Mr. Regula. Conversion to other uses?
    Ms.  Wayburn. Conversion to other uses. The primary loss is 
to development and the secondary loss is to agriculture, but it 
is far secondary on about a 3 to 1 measure.
    This forest land has so many values that when we lose it 
because the competing uses of conversion are more economically 
rewarding for land owners, we do not have an alternative market 
for conservation values and that conservation includes 
sustainable forestry as well as traditional values.
    Mr. Regula. What do you propose to do?
    Ms.  Wayburn. We endorse the increase of forest legacy to 
$60 million.
    Mr. Regula. To do what, to buy conservation easements?
    Ms.  Wayburn. To do two things, to increase the amount of 
money available to facilitate donations of easements and to 
increase the amount of money for acquisitions.
    In California, where we have focused on facilitated 
donations----
    Mr. Regula. Are you talking about acquisition in fee or in 
conservation easements?
    Ms.  Wayburn. Acquisition of conservation easements.
    Mr. Regula. Okay.
    Ms.  Wayburn. Which enables the land to maintain private 
ownership which we believe is very important, but basically 
supports landowners' goals of keeping their land and managing 
it well. It provides them with additional funding to support 
the carrying costs of the land. Without that funding, 
conversion is an overwhelming temptation.
    When I was a child in this area, land values were about 
$100 an acre. Today, they may be $50,000 in an urbanizing area; 
$15,000 for bare land in an agricultural conversion area. 
Stumpage values, for example, for redwood, was $1 a thousand 
when I was a child. It is $1,000 a 1,000 today and sometimes up 
to $14,000 a 1,000. So in terms of the liquidation values, they 
are very, very high for these land owners.
    What Forest Legacy does is provide much needed funding to 
help pay for the costs of conservation of these lands to 
maintain them as a working landscape.
    Mr. Regula. This would be done by the State?
    Ms.  Wayburn. By the States, yes, and there are private 
partnerships which are extremely effective. We have worked in 
California on facilitated donations where the value of the 
easement donated is over $3 million and the cost to the public 
is less than $40,000. That is enormous leverage with the----
    Mr. Regula. Is this land you are talking about north of the 
headwaters?
    Ms.  Wayburn. The State of California is in the process of 
adding another 28 counties into the Forest Legacy Program. The 
State of Washington has limited the program to the Puget Sound 
area. They have chosen to focus just on the Puget Sound area. 
It includes therefore, all the forest land in the State of 
California, all the forested counties, including that, for 
example, in Humboldt County.
    Mr. Regula. That would go to the border.
    Ms.  Wayburn. Which goes to the border. Oregon has not yet 
chosen to join the Forest Legacy Program because there is not 
enough funding yet for it to be meaningful to the State. 
Increasing the appropriation would help Oregon decide to join.
    Mr. Regula. Would this money generate State money?
    Ms.  Wayburn. Absolutely. The State of California, 
actually, just passed a bond measure, Bond Measure 12 and it 
dedicated $5 million to Forest Legacy.
    In addition, it identified over $200 million that would go 
into other forms of watershed protection. The Forest Legacy 
Program in California has an emphasis on watershed protection, 
so there is a real ability to leverage federal monies with 
State monies here.
    Mr. Regula. Yes.
    Ms.  Wayburn. And for the first couple of years, the State 
of California is putting real money into the program, so I 
think that it is an opportunity to really build it.
    I just want to mention one other example, given what you 
just heard in the State of Maine. In the State of California, 
we have been working with Big Creek Timber Company. They own 
10,000 in Santa Cruz and San Mateo Counties, the heart of the 
Silicon Valley. They have an incredibly valuable traditional 
use of the land. They are also certified forest land owners. 
They have key watersheds. They have habitat for threatened and 
endangered species and they would like to work with Forest 
Legacy. In fact, they are doing a first acquisition with them 
this year. But that is the kind of leverage that can be 
achieved with this program. I know that there are some who feel 
that this program has not necessarily been one that you have 
liked as strongly as others, but I feel that it has a 
tremendous potential in leveraging private voluntary 
cooperation with land owners in keeping them on their lands.
    Mr. Regula. Our problem is, of course, we have a lot of 
demands and a limited amount of money.
    Well, thank you very much for coming.
    Ms.  Wayburn. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                                  LWCF


                                WITNESS

BUFORD CRITES, MAYOR, CITY OF PALM DESERT AND BOARD MEMBER, COACHELLA 
    MOUNTAINS CONSERVANCY
    Mr. Regula. Coachella Valley Mountain Conservancy.
    Mr. Crites. Good afternoon, Mr. Chairman. My name is Buford 
Crites. I am the Mayor of the City of Palm Desert and I am a 
member of the board of the Coachella Mountains Conservancy. 
This year, as in for a decade now, to testify in favor of LOBCF 
funding for the Santa Rosa Mountains National Scenic Area. It 
has been and remains at the top end of the BLM's national 
priorities and we believe the BLM has done an excellent job in 
its management of the area. As you heard from the previous 
speaker, Prop. 12 was passed in California that will bring a 
minimum of $5 million to the conservancy which is a State lands 
conservancy and we think probably around $10 million. Local 
cities are good partners to the federal efforts. My home city 
of Palm Desert is spending $1.5 million this year for buying 
some of the expensive lands right around the Toev Slope. BLM 
LWCF lands primarily go for interior lands that are as low as 
$300 an acre and both by purchase and by conservation easement. 
It is from my past visits here a beautiful area. It has all of 
the requisite qualities and that is probably why both 
Congresswoman Bono and Secretary of Interior Babbitt are headed 
to Congress for a congressionally improved BLM Forest Service 
joint co-managed national landscape monument during this 
congressional session and as we have in the past, we appreciate 
your support and ask for it to continue this year for $1 
million.
    Mr. Regula. This is near Palm Springs too, is it not?
    Mr. Crites. It is between the Coachella Valley, Palm 
Springs, Palm Desert, Indian Wells and then to the west is the 
urbanized area of the Los Angeles basin.
    Mr. Regula. This is the area in question?
    Mr. Crites. It is the mountainous areas.
    Mr. Regula. Yes. Is this used by the public for recreation?
    Mr. Crites. It is. It is hiking and mountain biking and 
hang gliding and all of the various----
    Mr. Regula. It is managed by BLM?
    Mr. Crites. Most of it is managed by BLM. The normal 
western elevation, you go high enough it is managed by the 
Forest Service and it is sprinkled in with the checkerboard of 
State conservation lands, local conservation lands.
    Mr. Regula. Mostly public lands.
    Mr. Crites. It is over 80 percent now. And of course, the 
other side of our valley is Joshua Tree National Park. So we 
live in an area that obviously is blessed with natural 
resources.
    Mr. Regula. Is there any agriculture in this valley?
    Mr. Crites. The east end of our valley is traditionally 
agriculture. That is towards the Salton Sea at the bottom of 
your map. And the west end of the valley has been traditionally 
been the Hollywood tourist end of the valley and now the two 
ends have grown together and still most of your spring grapes 
and strawberries and asparagus and such things come from there 
and the Salton Sea lies to the southeast.
    Mr. Regula. That is a bit of a problem too.
    Mr. Crites. It is. Your understatement is appropriate.
    Mr. Regula. I just happened to be watching the History 
Channel and the building of the Hoover Dam. I gathered from 
what they said the Salton Sea was in part a result of a flood 
that drove the water into the area and was trapped.
    Mr. Crites. Around 1903 the California Land Company was 
busy doing many inappropriate things and because they could not 
get approval through the U.S. they routed the canals across the 
border through Mexico and the flooding came, both out of 
Arizona, the Salt River system and out of the Colorado that 
year and for almost three years the Colorado came around and 
emptied what used to be the lowest part of the continental 
United States into now the largest end of the lake, certainly 
in the western U.S. In doing all of that, the Colorado delta 
literally does not exist any more and so for wildlife and 
everything and especially for migrating birds, the Salton Sea 
is the only place left in Southern California inland.
    Mr. Regula. Is it heavy on salt? Is it the kind of thing 
that birds want to land on?
    Mr. Crites. I suspect if we gave them a mountain stream 
they might choose that, but yes, it is. It is used by over 100 
species of birds. Enormous numbers of pelicans.
    Mr. Regula. No recreation though, is there?
    Mr. Crites. Yes, boating, fishing, big issue truly as with 
any land locked lake is salinity.
    Mr. Regula. Yes, that is what I understood. They thought 
that there were a lot more issues with toxicity and showed 
those are fairly small problems and the big problem truly is 
the salt build up.
    Mr. Regula. Okay, well, thank you very much for coming.
    Mr. Crites. Thank you, sir.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                   NATIONAL TRAILS SYSTEM: NPS/FS/BLM


                                WITNESS

MARY MARGARET SLOAN, VP, CONSERVATION & POLICY, AMERICAN HIKING SOCIETY
    Mr. Regula. American Hiking Society.
    Ms. Sloan. I am Mary Margaret Sloan. I am with American 
Hiking Society. I am here representing our 10,000 individual 
members and the 500,000 members of our 130 affiliated 
organizations.
    My testimony today will focus on two points. First, federal 
land managers are struggling to keep up with the dramatic 
increase in trail use in America and the solution is not, I 
think, just to throw more money at the National Park Service, 
Bureau of Land Management and Forest Service, but to couple 
directed increased funding with increases on the ground, trails 
coordinators and volunteer coordinators.
    And then the second issue that I wanted to raise today was 
to urge Congress not to make the fee demonstration program a 
permanent one quite yet. As a demonstration project, it is not 
entirely a success from our perspective. Last month, our board 
unanimously approved a policy supporting the fee demonstration 
program, but opposing making it permanent unless and until 
certain changes were made to the program or to the way the 
agencies were administering the program. Our concerns with the 
program are three-fold and I will go into them in more detail 
later, but they are basically inconsistent implementation, 
agency accountability and equity issues.
    So to address the funding issue, briefly first, last year 
11 nonmotorized recreational organizations and industry groups 
got together and put together a budget which is attached to my 
testimony. I just wanted to talk about a couple of things that 
were raised in there. One is that we come in every year and 
support increased funding for the Forest Service trails 
programs, the maintenance program and the construction, 
reconstruction program. And your Subcommittee has been very 
supportive of those. But we are concerned though that with the 
emphasis that Chief Dombeck is placing on recreation through 
the Forest Service's natural resource agenda is a conversation 
that is happening at the top, but it is not translating down to 
the ground. Very few national forests have even one full-time 
trails coordinator and despite the number of hiking and other 
recreational organizations that want to volunteer and build, to 
build and maintain trails on national forests. Very few forests 
have volunteer coordinators. But last year, Congress passed a 
bill directing National Wildlife Refuges to institute a pilot 
project for volunteer coordinators at either individual refuges 
or a complex of them and this may be a good model for national 
forests as well.
    And the other funding program I wanted to touch on briefly 
is the Park Service's Rivers, Trails and Conservation 
Assistance Program which I know you are very familiar with and 
we appreciate the increase funding to the program that this 
Committee gave it last year.
    I know you are very familiar, but I just wanted to let you 
know what is happening in other States. In Tennessee, for 
instance, in Chattanooga, I was there recently and it is now a 
beautiful city, but in the early 1980s, the rivers were 
polluted, people were fleeing the city and it was really quite 
economically depressed. RTCA was contacted and they helped with 
regional, city-wide trails plan, greenway plan. Then that was 
so successful that the city then contracted with it to ask them 
to help work on an eight county regional plan and it is really 
a beautiful trail system and it is drawing people into the city 
and connecting some of the other infrastructure, pieces of 
infrastructure that they are putting together there.
    The recreation fee demonstration program as I indicated, we 
support the concept, but there are some issues that I wanted to 
bring to your attention that need to be addressed.
    Mr. Regula. You have about a minute.
    Ms. Sloan. I will be brief. One is inconsistent 
implementation that the agencies have not addressed yet. For 
instance, regional fee passes, which are a good idea, but what 
they do is they tend to just cover entrance fees. So for 
instance, our constituency, hikers, they not only have to pay 
an entrance fee, but then a back country fee, an overnight fee, 
a trail head fee----
    Mr. Regula. Well, some of those things have to be sorted 
out, I realize you get some inequities.
    Ms. Sloan. Yes, what the Forest Service has told us though 
which was distressing is that they would like the program to be 
made permanent before they can really address these problems 
and we think that it should be the other way around.
    Mr. Regula. I will make note of that.
    Ms. Sloan. Thank you very much.
    Mr. Regula. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                       LWCF/FOREST LEGACY PROGRAM


                                WITNESS

ANDREA L. COLNES, EXECUTIVE DIRECTOR, NORTHERN FOREST ALLIANCE
    Ms. Colnes. Can I tempt you to stay for five more minutes?
    Mr. Regula. All right, 5 minutes. North Forest Alliance.
    Ms. Colnes. That is very kind of you, thank you very much. 
I have had the pleasure of speaking with you a couple of times 
before over the years. I am Andrea Colnes, Executive Director 
of the Northern Forest Alliance which is the Northeastern chunk 
of this country. You have been listening to lots of folks today 
so I am going to try and not only be brief, but also maybe 
capture your attention with just a breath of what that place is 
about.
    I got off the plane this morning. I had left my coat, hat 
and mittens in my car because I was scraping the fresh snow off 
my windshield and arrived in Washington to see a couple of 
things which jump out at me, the cherry blossoms, the flowers, 
the greenness, the life and myriad people streaming in and out 
of our buildings, our Capitol buildings, coming to sit before 
Members of Congress and the government asking for money and for 
help on all sorts of issues.
    And you have the privilege of sitting on a Committee that 
is truly about something which endures through generations and 
through time.
    Mr. Regula. I agree with that.
    Ms. Colnes. It is the land. And in the Northern Forest 
region we are at a time of true absolute historic significance. 
If you look at the publication that is right next to you and 
breeze through the unbelievable images of this place in the 
front, turn to the very back, the second to last page. And look 
at the map, the lower map. That is the page and the map on the 
bottom there. All of those colored areas, not the green, but 
all of those colored areas are the large industrial ownerships 
that have been put on the market in the last year. And we 
printed this publication a couple of months ago, so it is 
already out of date. Five to six million acres have changed 
hands. Twenty percent of the entire State of Maine champions 
ownership across almost the whole region, International Paper, 
Bowwater----
    Mr. Regula. Why are they selling? Are they going out of 
business? Obviously, not.
    Ms. Colnes. It is a great question. There are a couple of 
different forces at work. One is international competition, 
global competition. Another is the intense pressure of money 
from Wall Street. Money on Wall Street right now is generating 
such return, given the day of the week that it puts incredible 
pressure on the large multinational corporations to return 
profits to shareholders and keeping money invested in the North 
Woods just does not do that compared to what it can do 
elsewhere.
    There are also other economic forces at work. These 
companies used to own their forest lands for wood supply. Now 
they need to perform as investment returns, so they are 
separating ownership of their mills and their lands.
    So these are deep forces. They are not here today and going 
to go away tomorrow. It also has encouraged a whole cycle of 
debt financing which is forcing two things. Hard and heavy 
cutting of these lands, clear cutting analogous to what you 
have seen coming out of the Northwest and sale for development. 
Given the pressures of the economy, these lands are absolutely 
at risk.
    We have an opportunity, as we never have before. People 
across the region are mobilized and pushing for all Governors 
to act. Angus King in Maine has heard this. He is requesting 
assistance from the federal government to purchase some of 
these incredibly important places.
    Mr. Regula. So the thrust of what you are saying is that we 
should put as much money as possible into the programs that 
purchase conservation easements which are the least expensive 
way we can do it.
    Ms. Colnes. Well, we need a solid mix of fee and easements. 
Easements can go so far in protecting certain values. They are 
quite appropriate where you are trying to protect managed 
forest lands. We also need to protect lands outright in fee for 
public access and recreation and wilderness.
    The folks from the New England Forestry Foundation spoke 
passionately about their project. There are a lot of many, 
many--I want to give you a sense of the scale so you can sort 
of get some perspective about what the federal government's 
role might be in this. I think over the next five years 
intensively, perhaps longer, five to 10 years, there is going 
to be an array of deals coming forward, 600,000 to one million 
acres a year for the next five years. The places that are the 
icons of the Northeast, the St. John River, the Allagash, the 
Depscaneps, the West Branch of the Penobscott.
    Mr. Regula. They are interested in the riparian problems as 
well as the forests.
    Ms. Colnes. It is an incredibly water based area. All of 
these areas are river based and thousands and thousands of 
lakes all through the State of Maine. If you fly over the area, 
you are actually more impressed with the amount of water than 
the amount of land. And shorefront is what is so sensitive to 
development. One project, I will just feature, I want to bring 
two to your attention at the moment. One is involving the West 
Branch of the Penobscott River, the whole northern tier of 
Moosehead Lake which is a huge lake in the middle of northern 
Maine, that is largely undeveloped and essential to the 
recreation economy as well as the ecology of the region. There 
is one project which we do anticipate bringing before Congress 
this year, supported by the State of Maine and various 
partners, including obviously the land owners, to purchase 
656,000 acres in a combination of easement and fee in the 
center of Maine, including the West Branch of Penobscott, the 
north shore of Moosehead Lake, abutting some of the lands that 
you were hearing about earlier. I want to put that in 
perspective so you do not see these projects as competitive. It 
is about a historic opportunity that the country needs to 
address in some way.
    Mr. Regula. Okay.
     Ms. Colnes. All right. Thank you for staying.
    Mr. Regula. More money, that is our problem.
    Ms. Colnes. Sure, but there is no more land.
    Mr. Regula. I know. I understand that. I live on a farm and 
like every farmer all I want to own is what is mine and what is 
next to it. And I have been working on that.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                                  BLM


                                WITNESS

GEORGE LEA, PRESIDENT, PUBLIC LANDS FOUNDATION
    Mr. Nethercutt [presiding]. The next witness will be from 
the Public Lands Foundation, George Lea, President. Welcome, 
sir.
    Mr. Lea. Thank you.
    Mr. Nethercutt. Glad to have you. Your testimony will be 
inserted in the record and I would be happy to have you 
summarize it.
    Mr. Lea. Yes, thank you. I appreciate the opportunity to 
explain the Public Lands Foundation views on BLM's budget 
request. As a national nonprofit organization, principally 
retired, but still dedicated BLM employees, we think we have a 
unique body of knowledge and experience on public land 
management. It is important that you understand that and why we 
support the Bureau's program and the Bureau. We are not a 
captive of the agency and we are independent in our views.
    I would like to remind the Committee again that the 
Bureau's budget contains a substantial amount of money that is 
not for public land management, it is pass through money like 
PILT and so the budget request of $1.4 billion is not all for 
public land management.
    In addition, it is important to remember that the Bureau is 
one of the few agencies that will return more money to the 
Treasury than what their expenditures are.
    Let me just highlight a few of the programs that we believe 
should be considered for increased appropriations. The land use 
plans. The Bureau's plans, there is apparently one third of 
their plans that are outdated. Many of their plans have to be 
updated to keep abreast of the increased use of the public 
lands. The large number of endangered species and currently the 
controversy over off road vehicles, so we recommend some 
increased funding to get at their land use planning, bring it 
up to date.
    In the case of wild horses and burros, this is one of the 
more difficult management programs that the Bureau has. Today 
the horse herds are perhaps 75 percent over the appropriate 
level in numbers and they are increasing in some areas, 20 
percent a year.
    The program was a success when the Act was passed in 1971. 
It was considered to be an endangered species type of 
legislation. Now the animals are overpopulating the land. What 
is needed, and I realize this is not a policy committee, but 
the law needs to be changed to provide the agency with more 
flexibility in managing the animals and disposing of the 
unneeded, the surplus animals.
    The Bureau is asking for a substantial amount of money for 
the program and we support it, but it is not a solution. The 
long term solution is some legislative changes.
    Mr. Nethercutt. Animals should be removed?
    Mr. Lea. Pardon me?
    Mr. Nethercutt. I noticed in your testimony, do we want to 
remove these surplus horses and burros, wild horses and burros, 
put them some place?
    Mr. Lea. Yes, they should be controlled to their capacity 
of the land.
    Mr. Nethercutt. Right.
    Mr. Lea. And they are exceeding that every year.
    Mr. Nethercutt. So you want them to have flexibility?
    Mr. Lea. The Bureau needs more flexibility in disposing of 
the animals that cannot be adopted, which turns out to be 
thousands of them. You can put them in private sanctuaries and 
keep them alive until they die naturally. That is expensive.
    The other thing I would like to point out to the committee 
is that the Bureau has a substantial amount of recreational 
maintenance backlog and again with the increased use of 
recreation of the BLM lands and it is the most--largest growing 
use of BLM lands today, in order to protect the people who 
visit and to increase their, enhance their visitations, the 
Bureau needs some assistance in their maintaining their 
recreation facilities.
    And then finally, let me just point out the fact that the 
Bureau has a program of land exchanges to acquire in-holdings 
through exchanging lands, yet keeping with a no net gain in 
total acreage. We encourage the Committee to help the Bureau 
accelerate that program. In fact, there is a need for them 
probably to sell some of their isolated tracts to use those 
funds to acquire in-holdings. I think if the Committee were to 
look at other natural resource agencies such as the Forest 
Service and National Park Service and Fish and Wildlife 
Service, you will find that they also have lands, they would 
not openly admit it, but they had lands that could be disposed 
of because they do not fit their management. The proceeds could 
be put aside so that they can acquire in holdings. All agencies 
have a problem of in-holdings and having the funds to acquire 
them is a problem.
    So with those brief comments, sir, I appreciate the 
opportunity and hope that my comments will be helpful to the 
Committee.
    Mr. Nethercutt. They really will and with your experience 
and background we appreciate having the testimony. You make 
some good suggestions and I know the Committee will take it 
under advisement. Thanks so much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                            Thursday, April 6, 2000

  LAND AND WATER CONSERVATION FUND/FOREST LEGACY PROGRAM/NO. AMERICAN 
                       WETLANDS CONSERVATION ACT


                                WITNESS

JEAN HOCKER, PRESIDENT, LAND TRUST ALLIANCE
    Mr. Nethercutt. Next witness is Land Trust Alliance, Jean 
Hocker, President. Welcome, Ms. Hocker.
    Ms. Hocker. Thank you.
    Mr. Nethercutt. Your statement will be placed in the record 
in its entirety and we would be happy to have you summarize it.
    Ms. Hocker. All right, I am happy to do that. Thank you 
very much, Mr. Chairman, and the Land Trust Alliance is pleased 
to testify. We are a national organization serving more than 
1200 individual, local and regional land trust organizations. 
These are nongovernmental organizations, mostly, as I said 
local and regional, who work with private landowners and public 
agencies to protect natural areas, working farms and forests 
and other kinds of important open space. They do it by 
acquiring land, by acquiring conservation easements, often, and 
by other voluntary means.
    I am here today to urge you to fund an increased funding in 
the next fiscal year for four programs. And I am lumping these 
together because they are all really extraordinary in their 
ability to leverage a federal investment in land conservation 
with really significant State and local and private money and 
they all encourage partnerships among federal, State, local and 
private organizations and individuals.
    You have heard about many people have testified today about 
Forest Legacy. This is a wonderful program. It is simple. It is 
direct, but it is highly innovative. We support the 
Administration's request for $60 million for this program. Now 
that is double last year's appropriation, as you know, but this 
program is highly leveraged. It requires at least a 25 percent 
match. In actuality, it has actually been much higher than 
that. Moreover, the numbers of States that are enrolling in the 
program is growing very rapidly. Two years ago, 11 States were 
enrolled. Today there are 21 and several more want to be part 
of this program. So more federal money is not only going to 
mean more projects that are funded, but funding that is large 
enough in scale, when it is combined with State and local and 
private money to make the kind of difference that Andy Colnes 
was talking about. We believe this should actually eventually 
grow to $100 million because it is a very leveraged and 
effective program.
    The next program, similar in its characteristics in many 
ways is the North American Wetlands Conservation Act. This is a 
program that conserves wetlands that are critical for waterfowl 
and other migratory birds. It is a competitive grants program. 
Proposed projects are reviewed and recommended to the North 
American Wetlands Conservation Council on which I have been 
privileged to serve for almost two years. The Council 
recommends projects to the Migratory Bird Conservation 
Commission of Congress. There is huge leverage in this. These 
proposals have to be matched, at least one to one, but in 
reality, again, the match has been much, much, much higher. 
Since I have been on the Council, every one of my fellow 
members of the Council has shared the enormous frustration 
because of the numbers of wonderful projects that have come 
before us that we do not have the funds to recommend.
    Let me just give you an example of the kind of project that 
comes before us in Washington, and in Oregon. There is a broad 
partnership that is proposing to protect and enhance wetlands 
in the lower Columbia River Valley through acquisition and 
restoration, a project that includes 900 acre estuary and marsh 
along the Chinook River. Over 2,000 acres of wetlands in the 
Julia Butler Hansen Wildlife Refuge and 1800 acres at the Smith 
and Bybee Lakes Wildlife Area in Portland. Partners in this. 
The partners who are requesting this money include the Columbia 
Land Trust, Ducks Unlimited, the county governments, the Oregon 
and Washington Departments of Natural Resources and three 
private land owners. They have requested, as a partnership, a 
NAWCA grant in the amount of $1 million which they will augment 
with more than $6 million in nonfederal funds. That is a really 
good federal investment and I just urge you to fund NAWCA at 
$30 million this year. I can assure you that it will be very 
well used and leveraged for conservation.
    The third project, again, with similar characteristics is 
the National Fish and Wildlife Foundation. I hope that you will 
fund that at the slightly over $13 million total that includes 
$8 million from the U.S. Fish and Wildlife Service, a little 
over $2 million from the Forest Service and $2.5 million from 
the BLM. As I am sure you know, the Foundation solicits private 
contributions and makes matching grants to help meet federal 
wildlife management.
    Mr. Nethercutt. We have water if you need it.
    Ms. Hocker. Thank you. That is okay. When I talk about the 
land I just get all choked up, yes, I do. Thank you very much. 
It is very important. It is another one for every $3 of 
investment in conservation projects, there has been, has 
generated $3 of investment in conservation for every $1 that 
you have appropriated so it is another really excellent 
investment.
    And finally, I want to mention the Land and Water 
Conservation Fund, particularly the State side of this fund. We 
support the request of $600 million for the full fund, but 
especially urge $150 million for the States. Again it is highly 
leveraged and State funds need to be matched by at least 1 to 1 
in the State side of the Land and Water Fund. It promotes 
community and nonprofit involvement in conservation.
    In conclusion, I just want to point to the report that we 
have given you which we have done as part of our testimony 
which documents that last year voters passed 90 percent of 102 
local and State referenda to provide new money for land 
conservation. Many of these were tax increases. People voted to 
increase their own taxes in order to buy land and protect the 
parks and open space. I cannot think of a better demonstration 
that the voting public is willing and eager to spend public 
money and tax dollars to protect green space.
    So these programs that I have discussed will be a 
significant investment of public dollars to leverage private 
dollars and other monies and I know that you will consider 
them. I hope you will consider them carefully and your 
decisions will make a big different in future generations.
    Mr. Nethercutt. We will do our best and our biggest 
challenge in the Subcommittee, it is a wonderful Subcommittee 
with great opportunity to do good things, is a question of how 
we make it all fit.
    Ms. Hocker. I know.
    Mr. Nethercutt. We have got a lot of pressures that way and 
we are very sensitive to the suggestions you raise. I 
appreciate your being here. We are going to do our best.
    Ms. Hocker. Thank you very much. We are happy to work with 
you and appreciate the work that you do. Thanks very much.
    Mr. Nethercutt. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursdasy, April 6, 2000.

                          FWS/BLM/FS/NPS/USGS


                                WITNESS

R. MAX PETERSON, EXECUTIVE VP, INTERNATIONAL ASSOCIATION OF FISH AND 
    WILDLIFE AGENCIES
    Mr. Nethercutt. International Association of Fish and 
Wildlife Agencies. R. Max Peterson, Executive Vice President. 
Welcome, Mr. Peterson.
    Mr. Peterson. Thank you, Mr. Chairman. I have got an 
impossible job and that is to try to cover six agencies in five 
minutes. What I am going to do is try to share a few principles 
with you and ask that you look at our testimony.
    Mr. Nethercutt. Yes sir.
    Mr. Peterson. Our testimony has the support of all 50 State 
Fish and Wildlife agencies, Mr. Chairman, including your great 
State of Tennessee.
    Mr. Nethercutt. Washington.
    Mr. Peterson. Washington, I am sorry.
    Mr. Nethercutt. Tennessee is a great State too.
    Mr. Peterson. I have got to get you in the right State here 
for a minute. State of Washington.
    I have been here for 25 years before this Committee and I 
have heard the same thing every year that we would like to do 
all kinds of good things, we just do not have the money. If we 
wait on a year by year basis for conservation, we are going to 
lose, because over the last 25 years conservation funding is 
now less than half what it was as a percentage of the national 
budget. We have always got other exigencies somewhere in the 
world or somewhere in the United States to spend the money. 
That is the reason the Fish and Wildlife agencies of the 
States, some 10 years ago said we have got to have permanent 
funding for wildlife conservation or we are just going to seek 
continued listing of species with all the social and economic 
and environmental dislocation that occurs as in your home 
State. Now if that is the way we want to go, we just stay where 
we are. If we want to just have more and more species listed as 
threatened and endangered, we just continue this year by year 
process. That is the reason 370 of your colleagues in the House 
have now supported the Conservation Reinvestment Act. I know 
your Chairman does not. I have talked to him about it. I 
respect the fact that we disagree there, but in his own State 
of Ohio, as well as your own State of Washington, it is 
supported by your Governors, it is supported by your Mayors, it 
is supported by your counties. It is supported by all the 
conservation groups, all of the Fish and Wildlife organizations 
out there. It is supported by 3,000 organizations. We are told 
by the latest polls by a Republican pollster, by the way, that 
80 percent of the public support this. So I am hoping this year 
that you can get some funding that will buy these easements 
that we have been talking about, purchase development rights. 
You have been hearing about the leveraging of money. I think 
that is the second principle I want to talk about is as you 
look at this budget, the more you can do to leverage State and 
local money and do things like purchase development rights and 
conservation easement the further conservation dollars will go. 
So you will find throughout our testimony that is one of the 
principles that we pick up throughout this that trying to 
leverage more money by calling for matching funds and so on.
    In the Fish and Wildlife Service, for example, we also ask 
for more Section 6 money for endangered species to be used by 
the States and let them decide how the best way to use it 
rather than deciding in here. We think States should determine 
the priorities like that, not try to determine in here from 
within the beltway.
    We also support the Administration's first time request for 
$100 million for nongame funding, but that is a one year 
request. Even if it is approved, that is clearly inadequate. If 
it is there this year and not there next year it will not do 
the job. That is the reason we think it is far superior to 
enacting the Conservation Reinvestment Act so that you have the 
permanent funding so your State can begin to do something to 
prevent species from becoming threatened and endangered.
    We do support the increase in refuge operation and 
maintenance. Federal lands out there like National Wildlife 
Refuges, national forests, BLM lands, they need adequate funds 
to operate and maintain those lands and as a former chief of 
the Forest Service I am a strong believer in support of that.
    We are strongly opposed to the idea of putting in 
legislation restrictions on trapping. That is a de facto 
amendment of the National Wildlife Refuge Act that we just 
passed in 1997. We think it is inappropriate for an 
appropriations committee to pass a de facto amendment to that 
Act. The Fish and Wildlife Service needs the professional tools 
that are necessary, sometimes even to protect endangered 
species on those lands. It makes no sense for the Congress to 
try to override the professional judgment of the Fish and 
Wildlife Service.
    We are concerned throughout the country, especially in your 
State, about the diminishing of hatchery operations and that 
there be mitigation for that. And the Fish and Wildlife Service 
was assigned that mitigation role for all the federal agencies 
and we found over the last 10 years that the budget for 
hatchery operation and maintenance just deteriorates year after 
year.
    I would, as you would expect, probably say quite a bit 
about the Forest Service budget, but my colleague Stan Adams is 
going to appear next, so I am going to let him cover that and 
say I support his testimony. I do want to speak for about a 
quarter of a minute about the biological resources division of 
USGS. We are happy that they are finally seeing some increased 
funding. We think BRD has turned the corner in terms of getting 
its act together and getting a reasonable program together. We 
support the recommendations there and particularly the 
recommendations to develop more efficient ways to disseminate 
information.
    I have been a long time advocate of more money for BLM. Of 
all the federal agencies, the federal land management agency 
and I know them all quite well, BLM over time has been the 
least well funded. It seems like regardless of the 
Administration, within the Interior, first National Park 
Service and then Fish and Wildlife Service and then whatever is 
left is BLM. And that is not fair because they have got some 
really important lands to manage.
    In the Forest Service budget, we particularly like Forest 
Legacy. This has been mentioned because that again it spreads 
money further by having easements. I was part of the 
development of the Forest Legacy program and I think it has 
been a good one.
    Mr. Chairman, I think I have run out of time.
    Mr. Nethercutt. There is the old flashing red light. Well, 
I will not disappoint you in saying that we are going to do the 
best we can with our money.
    Mr. Peterson. I know you will.
    Mr. Nethercutt. It is real hard. I mean the conservation 
mandatory spending requirement under that bill has an effect 
that takes discretion away from this Committee, Subcommittee. 
So does transportation spending. So does aviation spending. All 
that stuff becomes mandatory. It squeezes down the 
discretionary budget. We cannot do what we want to do.
    Mr. Peterson. I would argue that you cannot do conservation 
on the cheap. You cannot decide year after year how much you 
are going to put in. If you do, you will be right where you 
are. In the 25 years that I have been here, less and less money 
every year, apologizing because you just have to hit the high 
spots. Now that is the way--if we are 25 years from now have 
half of what we got now, which is the trend we are on, heaven 
help us.
    So if you like the present system, do not vote for the Act.
    Mr. Nethercutt. I understand.
    Mr. Peterson. Okay?
    Mr. Nethercutt. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, Apirl 6, 2000.

                                   FS


                                WITNESS

KEITH A. ARGOW, PRESIDENT, NATIONAL WOODLAND OWNERS ASSOCIATION
    Mr. Nethercutt. Let us see, National Woodland Owners 
Association, Keith Argow, President.
    Mr. Argow. Right.
    Mr. Nethercutt. Thank you, sir, welcome. Glad to have you.
    Mr. Argow. And if you would add this to the record, I would 
appreciate it.
    I will summarize my points because time is short.
    Mr. Nethercutt. Sure.
    Mr. Argow. Money is as we have seen it, in programs that we 
have tracked for the last 15 years, really has been very well 
spent. We are getting an extraordinary return for the buck. 
Yes, you are right, you are looking at a one page summary 
there. We like to be lean and mean.
    Mr. Nethercutt. Good for you.
    Mr. Argow. We are 10 million of us who have 58 percent of 
the timberland, but produce 60 percent of America's home grown 
wood supply which is a stunning figure. Much of that is in the 
5th District in Washington in that corridor you know so well, 
Cullville, Deer Park and down through Walla Walla.
    The comments today, by the way, are shared by the Alliance 
of Forest and Woodland Owners Association which includes your 
own home State, Washington Farm Forestry Association.
    Mr. Nethercutt. Sure.
    Mr. Argow. Nels Hansen and the group. The comments I am 
going to kind of skip over here because we have really got a 
lot to do, but there are two big variables that the federal 
government has as it influences nonindustrial private forestry. 
One is the important appropriations through this Committee, 
through the federal government to the State foresters and you 
will be hearing from them right after me. The other, of course, 
is on the other side, the death tax reform and a number of tax 
reform initiatives that the Congress is undertaking.
    The important variables here, as you well know, are fire, 
insect, service forestry, the stewardship program, research and 
forest legacy. I would just like to comment, limit the rest of 
my comments to the Forest Legacy Program because we see a 
remarkable opportunity to get more for the money here. And that 
is something we have testified in recent years to encourage 
that it be operated more like CRP and become much more 
available to all 50 States. It is just too small and it is 
going to be small, even though, I like Jean Hocker's 
suggestions of one day maybe $100 million because it is an 
extraordinary leveraging program. But the important thing is 
here, we would like this Committee, your Subcommittee and the 
staff to oversee a study that could be really quite informal. 
We would certainly be glad to assist the State foresters and 
the Forest Service would have the data readily to see just how, 
what are the overhead costs of that program as currently 
structured, both administratively and by the Congress. We 
believe there is quite a bit of money that could be saved by 
more voluntary, much like the CRP has been administered, and 
there will be more money to go to more States.
    Mr. Nethercutt. What would the study cost in your judgment?
    Mr. Argow. We do not see any cost to that study, zero. All 
it is looking over some past data and looking at it, frankly, 
in-house. You could look at it in relatively few days and come 
up. Now there maybe some good reasons why it does not work and 
I am sure there are, but there are some other reasons why it 
will work. It is so structured now that we are beginning to see 
opposition to it and the Pennsylvania Forest Stewardship 
Committee recently voted out not to get into Legacy. 
Pennsylvania is a big NIPF State and a State that should be 
warmly supportive of the Forest Legacy Program and we believe 
they are, but something is in here that we think could be 
tweaked a little bit to get more bang for the buck.
    Mr. Nethercutt. Would your association be willing to do a 
study or to give us some additional information on this 
subject?
    Mr. Argow. Of course, we would. We work with you all the 
time and we would be willing to work. As I say, this does not 
need to be a big gilded edge heavily bound study. We could do 
it with resources at hand, by working with the National 
Association of State Foresters, by working with us and working 
with the Forest Service State and Private Program which has 
done very good leadership of it. We are not critical of the 
people. We are critical of the way it has evolved. Not 
critical, we just feel it could be better. And we know money is 
short because we fight every year right here for it and we 
think we could do some important things here.
    Mr. Nethercutt. Well, that is wonderful. I appreciate your 
suggestion and your testimony and I feel that the Chairman, the 
real Chairman, will take you up on your offer.
    Mr. Argow. Okay.
    Mr. Nethercutt. We will see if we can work with you.
    Mr. Argow. Okay.
    Mr. Nethercutt. Thanks so much.
    Mr. Argow. Thank you.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                                   FS


                                WITNESS

STANFORD L. ADAMS, PRESIDENT, NATIONAL ASSOCIATION OF STATE FORESTERS
    Mr. Nethercutt. National Association of State Foresters, 
Stanford Adams, President. Welcome, Mr. Adams.
    Mr. Adams. Thank you, Mr. Chairman. We appreciate very much 
the opportunity to testify on the Forest Service State and 
Private Forestry Program's budget today. We appreciate the 
Subcommittee's continued support for these programs and urge 
close review of the testimony that we have submitted for the 
record.
    Mr. Nethercutt. It will be in the record in its entirety. 
Thank you.
    Mr. Adams. After hearing all of the speakers, I am coming 
from down home in North Carolina and I do not make my living on 
a regular basis in the District of Columbia. I am almost 
hesitant to testify as obviously no one has got any money, 
including Bill Gates and he lost most of that earlier in the 
week.
    Mr. Nethercutt. I am not worried about him.
    Mr. Adams. State government is poor, the federal government 
is poor and Bill Gates is poor. So with that I will try to 
summarize my testimony.
    I am not going to talk about all the programs that are 
included in our testimony because State foresters have a 
diverse mandate and a responsibility to carry out many programs 
in support of the nonindustrial private landowners of the 
country and in the protection of forest lands from insects, 
disease and fire.
    Last week, Ken Arney, Tennessee State Forester and Chairman 
of the Southern Group of State Foresters testified before the 
Subcommittee and stressed the vital importance of the forest 
inventory and analysis program of the Forest Service. I will 
not rehash that today because it was covered very adequately, 
except to say that I want to again stress that this program is 
the highest priority for funding by the National Association of 
State Foresters in the budget.
    Keeping our forest inventory program up to date and 
accurate is the foundation of our efforts to achieve forest 
sustainability. I would further add that until this country can 
accurately assess the extent and the condition of its forest 
land, any discussion on sustainability is academic and further, 
any discussion on the amount of investment it needs to make to 
insure sustainability of America's forests is further academic, 
so this is the pinnacle, this thing that we absolutely must do.
    The Congress reaffirmed its leadership role of the Forest 
Service in this program as part of the 1998 Farm Bill Research 
Title and in that it mandated that the Forest Service move to 
an annualized inventory across the entire country. We hope that 
you will see fit to provide the funding to implement the 
strategic plan that was subsequently developed after the 
congressional action and provide the funding that is necessary 
to fully implement that plan. The Administration's proposal is 
short, substantially, in doing that.
    Our other top priority for the coming year is the 
cooperative fire program. This program has two major 
components, the State Fire Assistance Program and the second 
component is the Volunteer Fire Assistance Program. The 
volunteer fire departments in this country provide services 
worth $36 billion annually to the citizens of this country. 
They provide fire protection services in rural areas and many, 
many cases frequently adjacent to and on federal lands.
    In North Carolina, to illustrate the value of these folks, 
we have 1600 volunteer fire departments. My agency, Division of 
Forest Resources, trains these firemen in wildland fire 
suppression tactics because they are trained primarily in 
structural fires and our fire crews are trained primarily at 
wildland fires. The two do not mix very well without some 
extensive training. We also assist them in the purchase of 
personal protective clothing, Class A foam and other needed 
equipment as a part of the volunteer fire assistance program 
that we have, albeit very, very small.
    In 1999, North Carolina had 6,244 wildfires which burned 
28,298 acres. In those fires we lost 344 structures, including 
27 homes. However, with the help of volunteer fire departments, 
our fire crews were able to save 5300 structures, which 
included many homes, though not all of them were homes.
    With the rapid build up of the rural urban interface, 70 
percent of all of our wild fires involve structures and that is 
what we are facing any time we go to a fire. I called home a 
while ago. We have 15 to 20 percent humidity and 25 to 30 mile 
winds. Everybody is on alert.
    Mr. Nethercutt. I bet.
    Mr. Adams. It will be a long afternoon. I think it is 
important to note here that no individual State or federal 
agency has the resources needed to handle a real bad fire 
situation. State foresters have formed interstate compacts to 
assist each other. We assist the federal agency with an MOU 
with the U.S. Forest Service. The cooperative fire program is 
the federal vehicle that helps States organize and train to 
help each other and the federal agencies, as well and to assist 
the volunteer fire departments in our States to help us all.
    Our testimony includes our other core programs, fire 
stewardship, urban forestry, forest health protection, urban 
and community forestry and as many have testified today, the 
Legacy Program now is in 21 States and the Commonwealth of 
Puerto Rico.
    We appreciate your consideration for our views on these 
very important programs. As you know, the State foresters view 
these programs as a true partnership. The federal dollars spent 
on these programs leverage considerable investments from State 
forestry agencies, towns, cities and private landowners. In the 
case of my State, North Carolina, we get about $2 million in 
federal grants. Our budget ranges $50 to $55 million a year, so 
we are looking at 25 to 26 to 1 in ratio. We believe the 
federal government needs to pay a little bit more because we 
are doing an awful lot to help keep our part of the world 
together.
    Mr. Nethercutt. Well, thank you for coming. I might just 
parenthetically tell you before I got this job I was an 
attorney out West and for 18 years I was the secretary for a 
couple of volunteer fire districts in rural areas, farm country 
and you are right about the contribution they make. They had to 
go fight some wild land fires as well as rural fires, so it is 
very important that we try to help them.
    Mr. Adams. We could not do our job without them.
    Mr. Nethercutt. I believe it.
    Mr. Adams. Thank you. Thank you, sir.
    Mr. Nethercutt. Thanks for your testimony.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                                   FS


                                WITNESS

DEBORAH GANGLOFF, EXECUTIVE DIRECTOR, AMERICAN FORESTS
    Mr. Nethercutt. American Forests. Deborah Gangloff, 
Executive Director.
    Ms. Gangloff. Hi, Mr. Chairman.
    Mr. Nethercutt. Welcome.
    Ms. Gangloff. Thank you so much for your time today.
    Mr. Nethercutt. Glad to have you. To all of you who are 
waiting, I am very sorry you are having to wait. This is no fun 
and the vote has got in the way. I am awfully sorry that you 
are inconvenienced at all, but we are glad to have your 
testimony.
    Ms. Gangloff. Well, thank you so much. I am having fun, 
actually.
    I represent American Forests. We are the oldest national 
nonprofit conservation organization in this country. We were 
founded in 1875 by a group of concerned citizens, and we now 
represent about 100,000 people, very diverse, scientists, 
landowners, activists, basically folks who care about trees. We 
developed an agenda for ecosystem restoration and maintenance 
in American Forests in which we try to put tools and resources 
in the hands of communities so that they can plan and take 
action to improve their forests. We believe strongly that 
forests, better forests, healthy forests mean healthy people 
and healthy communities and so our agenda helps that.
    I am here to talk about co-op forestry programs and State 
and private forestry at the Forest Service because we find that 
that is where federal dollars are leveraged the most at the 
State and local level. We believe that is an appropriate role 
for the federal government, to provide resources that can be 
leveraged locally, especially in communities.
    The main program I would like to talk about is urban and 
community forestry, and urban forestry is perhaps unusual 
within the Forest Service. It is not an oxymoron. It shows that 
the trees in cities and towns are an important part of the 
health of that community and in the environment. There was a 
great story on National Public Radio this morning that talked a 
little bit about the value of those trees in cities and towns 
and the work of American Forests. Those trees filter out air 
pollution, water pollution. They reduce storm water and they 
can actually conserve energy so our cities are less expensive 
to operate and they improve the quality of life for people in 
those cities. So we think an investment in urban forests is an 
important part of what the federal programs can do, especially 
through urban and community forestry at the Forest Service. We 
have done some studies and I will leave a package with you, Mr. 
Chairman, on the analyses that we have done in areas across the 
country, including in the Puget Sound in your own State.
    Mr. Nethercutt. Right.
    Ms. Gangloff. That showed that the trees in the Puget Sound 
are worth billions of dollars for air and water quality and as 
you may know, this is going to help against the expensive 
regulatory alternatives to clean our air and our water or to 
bring back salmon habitat, which you know is a very expensive 
problem there in the Puget Sound.
    Mr. Nethercutt. Yes.
    Ms. Gangloff. We are urging that the budget be supported at 
$50 million in urban and community forestry. That will leverage 
local and State-wide support and bring great dividends. We are 
already seeing that California has committed over $3 million 
for tree planting within that State as a result of the work of 
the Forest Service and urban forestry. In Georgia, they have 
committed $30 million for open space preservation in 2001. 
Those are the types of leverage that we can see. In the State 
of Washington, there was a bill brought forward for the State 
to invest in urban forests. It did not pass the first year, but 
we are hopeful it will pass again. It is that kind of leverage 
this program brings.
    I would also like to speak briefly in support of the Forest 
Legacy program like so many of my colleagues have done here 
today. Again, it is going to help protect our private forests 
from some development and demonstrate more importantly how 
working forests can integrate environmental, social and 
economic objectives.
    Another part of what American Forests does in rural areas 
is work with communities that have been dependent upon their 
forests for their economics. The economic action programs and 
the Pacific Northwest programs are the ones in the Forest 
Service that can really help those communities deal with the 
loss of timber receipts which has caused all sorts of problems 
for them that we have seen, increased poverty and domestic 
violence and problems like that, from loss of timber. What we 
see is some of these programs building back that institutional 
capacity of those communities to take care of themselves and be 
more self-sufficient, general businesses. Basically, the bottom 
line is those communities are finding that they can bring 
products out of the forests and leave that forest healthier 
than before they took that timber out. That is what we would 
like to see happen with those programs.
    I would also like to mention that we are very supportive of 
the collaborative stewardship efforts of the National Forest 
system. Again, that is going to help leverage local community 
involvement in improvement of the overall health of our 
national forests. It will create jobs and it will stimulate the 
creation of small businesses. Also, on monitoring, we very 
strongly urge must be a part of that collaborative process so 
that the agency is held accountable to Congress and so that we 
can learn from those actions what works and what does not work. 
We believe the investment in these collaborative stewardship 
projects should be increased by the agency.
    And lastly, I would like to put in a good word for the 
Bureau of Land Management. We believe that there should be 
increased funding for the Public Domain Forest Management 
Program, the Jobs In the Woods Programs, to help that agency 
become a significant part of ecosystem management projects.
    Thank you very much.
    Mr. Nethercutt. Great, thank you very much for your 
testimony. I appreciate it.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                                 FS/BLM


                                WITNESS

WILLIAM H. BANZHAF, EXECUTIVE VP, SOCIETY OF AMERICAN FORESTERS
    Nr. Nethercutt. Society of American Foresters, William H. 
Banzhaf. Did I say that right, sir? Glad you are here.
    Mr. Banzhaf. Thank you, Mr. Chairman. I appreciate it. I 
really appreciate the opportunity. And before I get into my 
testimony which will, of course, be asking for something, I 
would like to give something. This year is our 100th 
anniversary, the Society of American Foresters. That is a 
pictorial review of the history of forestry and if you could 
give this to Mr. Regula as well, we would certainly appreciate 
it. We appreciate the support of forestry and there are some 
wonderful pictures of the State of Washington in there.
    Mr. Nethercutt. I am sure. That is great.
    Mr. Banzhaf. I had the opportunity last week to present 
testimony on research before the Subcommittee and during that 
testimony did, indeed, indicate that our highest priority, our 
top finding priority is for the Forest Inventory and Analysis 
program. Mr. Adams discussed that a bit and I would reiterate 
that position. It is truly the foundation in terms of an 
information base for all of forest policy in the United States. 
Without sound information as to what we have today and taking a 
look at how that changes over time, we cannot make sound, 
scientific decisions in forestry.
    That program also ties directly into the criterion 
indicators program that the Forest Service is implementing that 
came out of UMSAID at the RIO Conference and out of the 
Montreal Process where we are being responsible citizens in the 
international community to determine how our forests are being 
managed sustainably. So it is a key part of not only our 
national, but international efforts.
    I would like to strongly support as did Mr. Adams, the 
Cooperative Fire Protection Programs. I would like to just add 
one thing to his testimony and that is, I think, particularly 
relevant in the State of Washington. That is that the Volunteer 
Fire Assistance Program is particularly needed now in those 
States where they have small communities that were originally 
timber dependent communities and we really need to help in 
those areas.
    Something that ties closely to the fire programs, 
unfortunately, is the need for funding to begin to address the 
ecological infrastructure backlog. The real problem we have 
with hazardous fuel build up, with high risk areas, insect 
infestations, so we believe that this is an area that really 
needs to have some prime focus. It needs to have the dollars 
placed on the land for the natural resource professionals at 
the local level to do the work they need to reduce some of the 
risks we find in our national forest system.
    I also want to mention very quickly technical assistance 
through State and private, to help the more than 10 million 
nonindustrial private forest landowners. That really is the 
major forest asset of this country held by individual private 
landowners. Right now nationally we have less than 10 percent 
of those that have sound forest management plans. Now whether 
you agree with what they have in their forest management plan 
is not necessarily important. What we are concerned about is 
without such a plan, we have some concerns about long term 
sustainability, conversion to other land uses. So that, we 
feel, is very important.
    And then finally, the Bureau of Land Management. Mr. 
Peterson mentioned that sometimes they get sort of the last 
piece of the pie. I think another example, although there was 
real success in Fiscal Year 1998 with the establishment of the 
BLM Forest Ecosystem Health and Recovery Fund. We have over the 
last several years seen a 65 percent reduction in their forest 
management staff. So now they have the program in place and 
they do not have the people to carry it out on the ground. So 
we would urge consideration when you are looking at that 
particular budget line item.
    Thank you very much for your time.
    Mr. Nethercutt. Thank you very much. You know, on your last 
point, we are seeing that throughout the federal government. 
This good economy, whether it is the military or otherwise, 
people are leaving government service to go elsewhere and we 
are losing some institutional memory, I think.
    Mr. Banzhaf. And some very good people.
    Mr. Nethercutt. Indeed.
    Mr. Banzhaf. And that is troublesome to us to try to 
encourage people to get in and make a career out of maintaining 
our forest lands.
    Mr. Nethercutt. You cannot just leave them. You have to 
manage them.
    Mr. Banzhaf. They have to be managed, that is right. Once 
the human population has affected the forest lands, you have to 
manage them.
    Mr. Nethercutt. I agree. You cannot just put a fence around 
them and leave them. And some people want to, it seems like, 
but that does not work either.
    Mr. Banzhaf. Not in today's population.
    Mr. Nethercutt. I know.
    Mr. Banzhaf. Thank you, Mr. Chairman.
    Mr. Nethercutt. Thanks so much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                                   FS


                                WITNESS

MARY COULOMBE, AMERICAN FOREST AND PAPER ASSOCIATION
    Mr. Nethercutt. American Forest and Paper Association, Mary 
Coulombe.
    Ms. Coulombe. Thank you.
    Well, I am Mary Coulombe and I am here representing 
American Forest and Paper Association and our member companies, 
associations and the allied groups. Just as a point of 
reference the forest industry has sales in excess of $270 
billion annually and we employ 1.2 percent of the entire U.S. 
workforce. I do not think a lot of folks recognize that.
    Thanks a lot for this opportunity and AF&PA really is 
committed to programs and policies that support sustainable 
forestry on both public and private lands. I would like to 
summarize my testimony. I am sure it will be entered into the 
record.
    Mr. Nethercutt. It will indeed.
    Ms. Coulombe. We have three general concerns about the 
Forest Service budget and then I would like to address some 
specific programs. But I think the general concerns frame the 
recommendations we would like to make for the specific 
programs.
    Our first concern is forest health and Mr. Banzhaf just 
talked to some extent about that. Our biggest concern is we do 
not believe that this proposed budget adequately addresses the 
forest health crisis. And in fact, we do not think it even 
really acknowledges the forest health crisis, the 66 million 
acres at risk from fire and insect and disease. And we think 
that is pretty frightening.
    Mr. Nethercutt. You have an insect disease ridden forest 
you almost have to cut it down as I understand it is spreading 
bark beetles and that sort of thing. I know it is tough to 
eradicate it and stop it without taking pretty drastic action.
    Ms. Coulombe. I think the GAO report actually said cutting 
it down or mechanical treatment is one alternative. The other 
alternative, likely that is going to happen is it will burn 
down.
    Mr. Nethercutt. Yes.
    Ms. Coulombe. The second concern, general concern we have 
is the circumvention of Congress, that we think is going on by 
trying to administratively change the mission and purpose of 
our national forests. We know that is not the purview of this 
committee, but we see intimations of that in this budget and we 
think there are some serious budget implications of some of the 
policy. The five initiatives, the Forest Service has introduced 
over the last six months have drawn money away from field level 
programs and so that money is not getting to the ground.
    The third area that I would like to mention is that at this 
point, we oppose the new proposed budget structure we saw in 
this budget. We do not think it is adequately fleshed out or 
mature. There is no system of accountability and we are 
concerned that it will even more mask the movement of funds 
away from needed programs to other initiatives.
    I would like to say though that we do support the 
development of new performance measures for the Forest Service. 
We do not think the ones the Forest Service provided are 
adequate because they do not link the performance measures, the 
funds and desired forest conditions which is the key to the 
forest health issue.
    Okay, let me go to the National Forest System and some 
specific recommendations. We think that budget would be best if 
its top priority was restoring and maintaining forest health. 
We are disturbed by the trend of the Forest Service not 
accomplishing the programs they have been funded to do.
    We think there are some examples of that. The timber sale 
program is one of them. We would like, because of forest health 
to support an increased funding to accomplish timber sales 
directed specifically at the forest health issues. But we are 
fearful that funds will get drawn away. They are reprogramming 
a request for the Fiscal 2000 program, signaling that because 
they are actually asking for approximately the same to 
reprogram down to the same amount they requested in Fiscal 2000 
which was specifically disapproved by Congress last year.
    In the roads program, we have heard over and over and over 
about the $8.4 billion backlog, but we do not see any 
indication in this budget that there is really a serious 
attempt and strategy to deal with that backlog.
    We would like to support a 10 percent increase above what 
the Administration has requested and have that targeted to road 
maintenance and reconstruction.
    We are concerned about the huge amount of money requested 
for inventory and monitoring and land management planning, not 
because we do not think that those are important items, but 
because those funds are getting drawn off on these national 
initiatives.
    AF&PA testified last week on the Forest Service research so 
I am not going to go in any detail about that. I want to 
support, as you have heard from some previous witnesses our 
strong support for forest inventory and analysis. We would like 
to support the level endorsed by the State foresters. We would 
also like to suggest or draw your attention to a recently 
signed memorandum of understanding between AF&PA and the Forest 
Products Laboratory, under research, in order to support 
further work in sustainable forest management and utilization.
    In the State and private forestry area, our top priorities 
are forest health management, cooperative fire protection and 
forest stewardship because they focus on forest health. Again, 
that is that framework. They do have--they have nested 
international forestry under the State and private program. We 
do not support the increase. We support the level they got last 
year and we think that is because we need more specifics on 
their priorities for that program.
    In conclusion, our goal is that the national forests 
continue to be world class examples of sustainable forest 
management, but our fear is that this proposed budget does not 
realistically provide for that.
    Mr. Nethercutt. Thank you so much. You make some very good 
points and I know the Committee appreciates your testimony and 
your assessment of all this. We are going to look at it very 
carefully. I do not know that we are ready to accept the budget 
of the President and the Forest Service on this point either, 
so thanks very much for being here.
    Ms. Coulombe. Thank you very much.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                                   FS


                                WITNESS

STEVE HOLMER, AMERICAN LANDS
    Mr. Nethercutt. American Lands, Steve Holmer. Welcome, sir.
    Mr. Holmer. Good to see you.
    Mr. Nethercutt. Doing great, nice to see you too.
    Mr. Holmer. Thank you for this opportunity to testify.
    Mr. Nethercutt. Good to have you.
    Mr. Holmer. American Lands represents forest activists 
around the country and we have put together a forest 
appropriations initiative for three years running and I would 
just like to share with you a copy of that document.
    Mr. Nethercutt. Thank you.
    Mr. Holmer. It basically outlines what we would like to see 
happen and my testimony is based on that. Here is a copy for 
Chairman Regula here. Basically, what we see happening on the 
national forests is continued mismanagement, continued 
overemphasis on resource extraction and in general, 
mismanagement of these programs. And to document that, last 
year we put together the first ever National Forests Yearbook 
and this actually documents what is happening on every single 
national forest, along with the local contact of a citizen or a 
group that is working to protect that forest. And it just 
basically offers a quick snapshot of what is happening. We 
continue to see logging of old growth forest, logging of 
critical habitat for endangered species, logging in 
communities, watersheds that they rely on for their clean 
drinking water supplies. And so we do feel like the timber 
program needs to be scaled back and at the same time we see a 
large number of restoration needs that are being unmet. And so 
we would like to move the Forest Service and this Committee 
away from thinking about timber volume as the measure of 
success. We would like to move it to a jobs based issue where 
we are trying to put people to work fixing the damage from past 
logging and excessive road building.
    Specifically, we would like to propose a $70 million 
reduction to the timber sale management line item, a $20 
million reduction to engineering support for timber road 
construction, and a $10 million reduction for offroad vehicle 
trail construction. We feel like the agency is not properly 
managing for offroad vehicles and until they do, we would like 
to just not see any new trails being built. We are actually 
proposing that money be shifted into law enforcement to deal 
with the problem of off-road, illegal off-road use in cross 
country travel.
    Another priority area that we see a lack of funds is road 
maintenance and decommissioning and so we would like to propose 
a $15 million increase there. Obviously, a lot more is needed 
and annually we would like to see this program get ramped up.
    Another priority issue is the problem of timber theft. 
There are two problems. One is trees are just outright being 
stolen off the national forests to the tune of upwards of $100 
million a year. There are also a great deal of problems with 
contracts not being properly monitored, particularly some of 
the restoration and forest health projects can be fairly 
complex and so we are very concerned that leave trees and other 
requirements of these contracts are not being complied with 
including the removal of temporary roads after the timber sale 
and so we would like to see a lot closer attention paid to the 
contracting and to the problem of timber theft.
    A new issue that we have been working on is invasive 
species. You are probably aware of the situation in Florida 
right now. They have already destroyed half a million trees. In 
the eastern U.S., we saw the loss of the chestnut which was the 
single most dominant tree in the forest and we would hate to 
see something similar happen to the forests in the West. Right 
now we do not feel like the USDA is taking proper steps to keep 
new pests out of the country. So we do feel like a lot more 
money needs to go into that and also into Forest Service 
research to come up with bio controls and other means of 
stopping these infestations.
    Another key area is inland fish habitat management. This 
would be fisheries programs in your area, also other parts of 
the country and the Southeast and in general, we have a crisis 
of declining fish stocks around the country and so we do feel 
like a lot more emphasis is needed there. In our view, this is 
basically a jobs neutral proposal. We are talking about 
shifting money within the Forest Service budget and putting 
people to work doing restoration. Within this longer document, 
we identified numerous other areas that could also use 
increases in funding and we support increases to the economic 
action programs, Pacific Northwest Assistance and other 
programs to support communities and workers, but we do feel 
like timber management should not necessarily be the emphasis 
of those programs.
    Another critical area that we are concerned about is the 
logging of old growth forests. Recently, a number of major U.S. 
corporations including Home Depot and Centex Homes have agreed 
to stop using old growth wood as part of their product line. A 
number of other major corporations, Mitsubishi, IBM and Kinkos 
ran ads last year saying that they do not need old growth 
products to run their corporations. We basically would like to 
see the U.S. government catch up with corporate America and 
move away from logging of old growth forests in terms of the 
biodiversity and the clean water values. We see that as the 
real value of these forests and would like to see them 
permanently protected. And when you look at where the 
controversy is, old growth sales are appealed and are litigated 
and they will continue to be so, so it is really just not the 
best place to be spending forest management dollars.
    Another major concern we have is habitat conservation 
plans. These HCPs are predicated on the notion that public 
lands are being protected and therefore the private landowners 
will have greater leeway in the management of their lands and 
so we are very concerned about this because we do not see the 
public lands being protected and we also do not see adequate 
science being employed to develop these HCPs and so we are 
interested in seeing funding for HCPs be directed towards 
improving the implementation of the existing HCPs, improving 
the process for developing HCPs and possibly finding some new 
alternatives.
    Another major concern is the fire program. We support 
prescribed burning in the West, but in the Eastern U.S. fires 
have often been used as part of timber management to convert 
diverse pine-hardwood stands into pine plantations and this is 
a direct violation of the National Forest Management Act which 
prohibits type conversation of the national forests. It is also 
basically not scientifically valid fire restoration so we 
propose cutting all money off for regions 8 and 9, except for a 
few noted exceptions and instead shift that money to Western 
States where it is being more properly used.
    Also, in the fire program a number of years ago, the Forest 
Service adopted the Wildland Fire Management Policy. We do not 
see this policy being implemented. What it said is that in 
general some fire should be allowed to burn, but what in fact 
we are seeing is still a systematic and intensive attack on 
fires right when they break out. And in a lot of cases we just 
do not feel like there is adequate science to back up that 
approach and when you looked at the taxpayer dollars that are 
going into some of these fires, it just does not add up to 
being a good program and we think there are a lot of ways to 
improve it. One is to do more advanced fire planning and do 
more research so that when they do take action it is more 
appropriate.
    I guess the last area that I would like to mention is 
something that possibly has some bearing in your district which 
is a grazing permit retirement pilot project. We are 
specifically asking for $10 million to be used in the Southwest 
where there has already been some work done by ranchers and 
conservationists to allow ranchers, basically an honorable way 
to stay on their land and keep their ranch, but retire the 
allotment that might be surrounding their property. What we are 
finding is a lot of ranchers do not have children who want to 
take over necessarily, but they would like to stay there. This 
is one way where ranchers who want to get out of the business 
have that opportunity, have some dollars to keep their base 
property. At the same time we are concerned that a lot of areas 
have been overgrazed and it will give a chance for the land to 
recover and heal.
    So I appreciate the opportunity to testify. I would be 
happy to answer any questions.
    Mr. Nethercutt. I thank you for being here. I appreciate 
your ideas and your thoughts. Your testimony will be part of 
the record and we are grateful you took the time. Thanks for 
your patience.
    Mr. Holmer. You bet.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Thursday, April 6, 2000.

                         HISTORIC PRESERVATION


                                WITNESS

KATHRYN HIGGINS, NATIONAL TRUST FOR HISTORIC PRESERVATION
    Mr. Nethercutt. Our last witness, the most patient person 
of all is Kathryn Higgins, National Trust for Historic 
Preservation. I am sorry Dick Moe could not remain.
    Ms. Higgins. Unfortunately, he had a conflict, Mr. 
Chairman.
    Mr. Nethercutt. I understand. I am sorry he is delayed and 
sorry you are delayed. But thanks so much for being here.
    Ms. Higgins. He sends his regrets. Thank you for taking our 
testimony today. As the last witness I will try and be brief. 
We have submitted our full statement for the record.
    Mr. Nethercutt. Yes.
    Ms. Higgins. Thank you, Mr. Chairman. We are delighted to 
be here to testify in support of Fiscal Year 2001 funding for 
the nation's historic preservation program. You and Chairman 
Regula have been very supportive of preservation in past years 
and we very much appreciate that, particularly in light of the 
tight allocations under which this Subcommittee has operated.
    We know that this is Mr. Regula's last year as Chairman of 
the Subcommittee and we want him to know that his leadership in 
the area of historic preservation has been significant and 
lasting. We are grateful and honored to work with him and all 
Members of this Subcommittee. We want to take this opportunity 
to propose a lasting legacy for our Chairman and this Committee 
in the form of full funding for the Historic Preservation Fund 
for the Fiscal Year 2001. The Administration has proposed 
significant increases in funding for a number of conservation 
funds in its Lands Legacy initiative to the total amount of 
about $1.4 billion. There has been a lot of support for that 
initiative here today. The Administration is proposing that 
congressional appropriators, this Subcommittee in particular, 
cap the funding at $1.4 billion and protect it by creating a 
new budget category that would be fenced off from other 
spending programs. Unfortunately, they have not chosen to 
include the Historic Preservation Fund as part of the Lands 
Legacy initiative although it has been included in the 
conservation bill that Chairman Young and Congressman Miller 
are supporting and that there are almost 300 Members of this 
House have supported. We feel that it is a significant 
oversight not to include the Historic Preservation Fund as part 
of Lands Legacy. Funding for Historic Preservation efforts is a 
natural and essential complement to protection of our nation's 
natural resources. In order to protect open space, we must 
revitalize and preserve already built up areas including and 
especially historic neighborhoods and towns around the country. 
The $150 million we seek is just a little more than 10 percent 
what the Administration is proposing for their Lands Legacy 
initiative. From that $150 million for the Historic 
Preservation Fund we would hope that your Subcommittee would 
fund a third year of Save America's Treasures at $30 million as 
requested by the Administration and provide the balance or $120 
millon to the States, Tribes and Historically Black Colleges 
and Universities which make up the heart of the HPF program. 
The States and Tribes are responsible for the day to day 
functions of our nation's historic preservation and most 
significantly for providing assistance to communities and 
citizens seeking to save their resources and to utilize 
preservation as a revitalization tool and a way to combat 
sprawl.
    Save America's Treasures, which is an initiative that this 
Administration has done in partnership with the National Trust, 
has proven to be an extraordinarily successful and popular 
initiative. This modest initiative has sparked tremendous 
interest and participation in preservation from citizens all 
across the country. This Committee's leadership in providing 
$30 million in fiscal year 1999 and another $30 million in 2000 
has made it possible for communities everywhere to preserve the 
artifacts and icons of American history. These funds have been 
used for projects as diverse as the First Ladies' Library in 
the Chairman's hometown of Canton, Ohio; the Ancient Cliff 
Dwellings at Mesa Verda National Park; F. Scott Fitzgerald's 
Papers in Princeton and the Tacoma Art Museum in your home 
State of Washington.
    But we have only begun to scratch the surface of what is 
needed. In FY 1999, the National Park Service received over 300 
applications, but was only able to fund about 20 percent of 
those requests. The National Trust, the principal private 
partner of Save America's Treasures, has raised almost $40 
million from private sources. Demand for these private dollars 
is of similar magnitude; almost 500 official SAT projects that 
have been designated representing more than $2 billion in 
preservation needs. A $1 million SAT grant fund was created by 
the Getty National Foundation. That $1 million alone attracted 
over 200 applications. We were unfortunately only able to award 
37 grants. These are monies that have gone out through private 
resources. None of these grants were over $50,000, but they 
were funded in about 29 States.
    The 500 SAT projects I mentioned have been officially 
designated, but unfortunately not funded. There are a number of 
these in your home State of Washington, the Yakima Valley 
Museum Collection, the Nathaniel Orr Pioneer Home Site and the 
Green Mountain Lookout in Mount Baker National Forest are three 
of Washington State's projects that are Save America's 
Treasures. Unfortunately we do not have enough resources at 
this time to fund them although they are active in raising 
their own private money.
    Another important effort that has come out of the Save 
America's Treasures programs is that the States are beginning 
to put additional money into preservation. Virginia, for 
example, the legislature there has just authorized $162,000 
toward the conservation of the battlefield tents that George 
Washington used during the Revolutionary War. The State of New 
Jersey is matching the federal funding for the restoration of 
the Ferry Building at Ellis Island. And Massachusetts has met 
the match for all four of its Save America's Treasures Grants. 
And we're working with a number of other States to make sure 
that they are contributing as well. So this really is truly an 
effective, we think, federal, State and private partnership.
    We hope that the Subcommittee will find another $30 million 
this year for the Save America's Treasures program and we want 
to thank you and the Chairman for all that you are doing and we 
look forward to working with you this year to continue these 
important initiatives.
    Mr. Nethercutt. Thank you. You do good work and it is 
critically important that we try to save some of these national 
treasures and preserve our history. We are well aware of it and 
the Subcommittee has, I think, been very supportive.
    Ms. Higgins. You have.
    Mr. Nethercutt. And is willing to do more, as much as we 
can and try to make it all fit.
    Ms. Higgins. I know, it is tight.
    Mr. Nethercutt. It is a challenge, but some of these things 
you do not want to lose either.
    Ms. Higgins. I have only been with the Trust a few months, 
but it has been surprising to me that these things that we all 
sort of take for granted like George Washington's tents or some 
of these other treasures really are in danger of being lost if 
we do not find some resources.
    Mr. Nethercutt. Where were you before?
    Ms. Higgins. I was with the Administration as Deputy 
Secretary of Labor.
    Mr. Nethercutt. Well, this may be a little easier job, I 
hope for you.
    Ms. Higgins. Different kind of challenge.
    Mr. Nethercutt. Yes, it is indeed, thanks so much for being 
here and for your patience.
    Ms. Higgins. Thank you very much.
    Mr. Nethercutt. And we will do our best for the National 
Trust that we can.
    Ms. Higgins. Great, thank you.
    Mr. Nethercutt. Thanks.
    [The information follows:]
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Nethercutt. If there are no more witnesses, the hearing 
is adjourned. Thanks for your patience.


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                           W I T N E S S E S

                              ----------                              
                                                                   Page
Able, E. H. , Jr.................................................   125
Adams, S. L......................................................   302
Ali, Dr. S. A....................................................    76
Allison, F. G....................................................   450
Anderson, N. I...................................................   490
Antebi, Eric.....................................................   367
Appelson, Gary...................................................   393
Applegate, Dr. David.............................................   424
Argow, K. A......................................................   299
Attwood, Brian...................................................    14
Bajura, R. A.....................................................    37
Banzhaf, W. H....................................................   315
Barnett, J. A....................................................   386
Bartholic, Dr. Jon...............................................   105
Beard, D. P......................................................   163
Beck, Dr. Richard................................................   420
Beetham, M. B....................................................   181
Bender, Mike.....................................................   464
Bevc, Frank......................................................    44
Bogle, John......................................................   241
Brown, J. C......................................................   194
Brown, Molly.....................................................   152
Campbell, F. T...................................................   397
Castle, R. L.....................................................   544
Castro, Bernadette...............................................   428
Clark, Les.......................................................   464
Colnes, A. L.....................................................   272
Comolli, A. G....................................................   517
Conrad, G. E.....................................................    99
Coulombe, Mary...................................................   321
Crites, Buford...................................................   262
Cunha, Manual, Jr................................................   464
Davidson, Sam....................................................   497
DeLaney, P. M....................................................   412
Denton, Jan......................................................   132
Dickens, Michael.................................................    94
Donnelly, Peter..................................................   138
Doolittle, W. T..................................................   351
Duncan, Roger....................................................   536
Eno, Amos........................................................   248
Faris, Jack......................................................   118
Fritts, C. H.....................................................    69
Fumich, George...................................................    37
Gangloff, Deborah................................................   309
Gastelum, R. R...................................................   382
Geller, Howard...................................................     8
Geringer, Jim....................................................   390
Gilmore, Dan.....................................................   440
Golan, Jay.......................................................   598
Gordon, Steve....................................................   371
Greenblatt, Stephen..............................................   111
Gunn, S. H.......................................................   230
Gupta, G. D......................................................   520
Halleran, Michael................................................   145
Hamilton, David..................................................    57
Hammer, John.....................................................   626
Hayes, Justin....................................................   158
Higgins, Kathryn.................................................   335
Hocker, Jean.....................................................   285
Holder, G. D.....................................................   513
Holmer, Steve....................................................   328
Holmes, C. D.....................................................    50
Holmes, Charles..................................................   446
Huffman, Dr. G. P................................................   510
Irvin, Randall...................................................   205
Jackson, Susan...................................................   492
James, Sharpe....................................................   622
James, Ted.......................................................   464
Janger, S. A.....................................................   636
John, Ismael.....................................................   640
Kavanaugh, L. W..................................................    14
Klass, Dr. D. L..................................................   506
Kunde, Robert....................................................   464
Lawrence, Dr. L. R., Jr........................................375, 547
Lea, George......................................................   279
Leuchtenburg, Tom................................................    20
Long, Michael....................................................   486
Lyons, L. C......................................................   344
Manners, Dell....................................................   493
Marcum, Deanna...................................................   626
Menzel, B. W.....................................................   348
Meyer, E. G......................................................   561
Miller, Vic......................................................     1
Moe, Richard.....................................................   338
Mooney, Marianne.................................................   483
Moriarty, C. M...................................................   514
Mosher, Jim......................................................   468
Mosman, J. D.....................................................   522
Moyer, Steve.....................................................   457
Nettler, R. B....................................................   236
Nobel, Suzanne...................................................   464
Ohanian, L. M....................................................   491
Overbey, M. M....................................................   611
Pacelle, Wayne...................................................   169
Pape, W. K.......................................................   363
Park, P. C I6099, 500............................................
Peet, Steve......................................................   453
Peter, Neptali...................................................   640
Peterson, R. M...................................................   292
Ponder, Dr. Henry................................................   633
Pugmire, R. J....................................................   515
Raup, J. D.......................................................   614
Rice, D. M.......................................................   198
Riley, T. Z......................................................   442
Robertson, Dr. J. M..............................................   472
Robinson, Jim....................................................   464
Ronan, Joseph....................................................   375
Ross, Keith......................................................   248
Schafer, Jennifer................................................    26
Sedano, Richard..................................................    31
Silver, Scott....................................................   494
Simpkins, Eric...................................................    82
Sloan, M. M......................................................   266
Sonleitner, Karen................................................   400
Stevens, Christine...............................................   175
Stieglitz, W. O..................................................   359
Styles, G. A.....................................................   532
Tierney, J. W....................................................   513
Tindall, B. S....................................................   188
Trent, Dr. R. H..................................................   574
Tugend, Thomas...................................................    89
Turney, T. C.....................................................   380
Warfield, T. R...................................................   590
Wayburn, Laurie..................................................   255
Webster, D. E....................................................   626
Weekes, David....................................................   211
Weiner, Heather..................................................   404
Wender, Irving...................................................   513
Werner, Gary.....................................................   218
Wilson, L. R.....................................................   630
Wise, H. A.......................................................   224
Woolf, Dr. Alan..................................................   475
Woolsey, Dr. J. R................................................   479
Yamagata, Ben....................................................    63
Zimmerman, G. R..................................................   346


                               I N D E X

                              ----------                              

           PUBLIC WITNESSES AND ADDITIONAL WRITTEN TESTIMONY
                       Natural Resource Programs

                                                                   Page
Alachua County, Florida..........................................   414
American Cultural Resources Association..........................   363
American Forest and Paper Association............................   321
American Forests.................................................   309
American Geological Institute....................................   424
American Hiking Society..........................................   266
American Lands Alliance..........................................   328
American Rivers..................................................   158
American Society of Civil Engineers..............................   461
Appalachian Mountain Club........................................   367
Association of American State Geologists.........................   472
Calpine Corporation..............................................   375
Caribbean Conservation Corporation...............................   393
Center for Marine Conservation...................................   432
Center for Marine Resources and Environmental Technology.........   479
City of Gainesville, Florida.....................................   412
City of Miami Beach, Florida.....................................   408
City of Palm Desert, California..................................   262
Colorado River Board of California...............................   346
Colorado River Salinity Control Forum............................   386
Defenders of Wildlife............................................   181
Doris Day Animal League..........................................   344
Endangered Species Coalition.....................................   404
Friends of Back Bay..............................................   152
Frontera Audubon Society.........................................   397
Humane Society of the United States..............................   169
International Association of Fish and Wildlife Agencies..........   292
International Society of Tropical Foresters......................   351
Interstate Council on Water Policy...............................   416
Izaak Walton League of America...................................   468
Kern County HCP Industry and Government Coalition................   464
Land Trust Alliance..............................................   285
Lane Council of Governments......................................   371
Metropolitan Water District of Southern California...............   382
National Association of Abandoned Mine Land Programs.............   500
National Association of Conservation Districts...................   446
National Association of State Foresters..........................   302
National Association of State Universities and Land-Grant 
  Colleges.......................................................   475
National Association of University Fisheries and Wildlife 
  Programs.......................................................   348
National Audubon Society.........................................   163
National Conference of State Historic Preservation Officers......   224
National Constitution Center.....................................   241
National Fish and Wildlife Foundation............................   453
National Recreation and Park Association.........................   188
National Trust for Historic Preservation.........................   335
National Volunteer Fire Council..................................   450
National Woodland Owners Association.............................   299
Nature Conservancy...............................................   211
New England Forestry Foundation..................................   248
New Mexico Interstate Stream Commission..........................   380
New York State Office of Parks, Recreation and Historic 
  Preservation...................................................   428
Northern Forest Alliance.........................................   272
Ohio & Erie Canal Association....................................   198
OhioView Consortium..............................................   420
Pacific Forest Trust.............................................   255
Partnership for the National Trails System.......................   218
Pelican Island Preservation Society..............................   359
Piedmont Environmental Council...................................   430
Preservation Action..............................................   236
Public Lands Foundation..........................................   279
Society for Animal Protective Legislation........................   175
Society of American Foresters....................................   315
Southern Appalachian Forest Coalition............................   436
State of Wyoming.................................................   390
Tennessee River Gorge Trust......................................   194
Travis County, Texas.............................................   400
Trout Unlimited..................................................   457
Upper Mississippi River Basin Association........................   355
Virginia Native Plant Society....................................   483
Western Interstate Energy Board..................................   486
Wilderness Society...............................................   230
Wildlife Legislative Fund of America.............................   379
Wildlife Management Institute....................................   442
Wood River Land Trust............................................   440
World Wildlife Fund..............................................   205

                            Energy Programs

Alliance to Save Energy..........................................    57
American Council for an Energy-Efficient Economy.................     8
American Gas Association.........................................    69
American Gas Cooling Association.................................   594
American Iron and Steel Institute................................    14
American Public Power Association................................   526
ASME International...............................................   566
Auburn University................................................   514
Biomass Energy Research Association..............................   506
Bob Lawrence & Associates, Inc...................................   547
Business Council for Sustainable Energy..........................   578
California State Teachers' Retirement System.....................   522
Caterpillar Inc..................................................   544
Central California Ozone Study Coalition.........................   540
Coal Technology Corporation......................................   561
Coal Utilization Research Council................................    63
Consortium for Fossil Fuel Liquefaction Science..................   510
Council for Chemical Research....................................   577
Cummins Engine Company, Inc......................................   530
Electric Vehicle Association of the Americas.....................   582
Engine Manufacturers Association.................................   555
Foster Wheeler Corporation.......................................   520
Fuel Cell Power Association......................................    82
Gas Research Institute...........................................    20
Gas Turbine Association..........................................   570
General Electric Power Systems...................................   557
Ground Water Protection Council..................................    89
Hydrocarbon Technologies, Inc....................................   517
Integrated Building and Construction Solutions--IBACOS...........    94
International Fuel Cells.........................................   562
Interstate Mining Compact Commission.............................    99
National Association for State Community Services Programs.......   590
National Association of State Energy Officials...................    31
National Corn Growers Association................................     1
National Institutes for Water Resources..........................   105
National Mining Association......................................    50
National Research Center for Coal and Energy.....................    37
National Gas Vehicle Coalition...................................   586
Plug Power, Inc..................................................    26
Rolls-Royce North America........................................    76
Siemens Westinghouse Power Corporation...........................    44
Southern Company Generation......................................   532
U. of Alaska School of Mineral Engineering.......................   574
U. of Pittsburg..................................................   513
U. of Utah.......................................................   515
U.S. Council for Automotive Research.............................   551
Urban Consortium Energy Task Force...............................   536

                        Arts and Other Programs

American Anthropological Association.............................   611
American Arts Alliance...........................................   132
American Association of Museums..................................   125
American Museum of Natural History...............................   618
American Symphony Orchestra League...............................   605
Americans for the Arts...........................................   138
Association of American Universities.............................   145
Association of Research Libraries................................   626
Carnegie Hall....................................................   598
City of Newark, New Jersey.......................................   622
Close Up Foundation..............................................   636
Colonial Williamsburg Foundation.................................   614
Dance/USA........................................................   607
Enewetak/Ujelang Local Government Council........................   640
Marietta College.................................................   630
National Assembly of State Arts Agencies.........................   601
National Association for Equal Opportunity in Higher Education...   633
National Humanities Alliance.....................................   111
OPERA America....................................................   644
Washington Commission for the Humanities.........................   118

                                <greek-d>
</pre></body></html>
